<html>
<title> - ARE CONSUMERS ADEQUATELY PROTECTED FROM FLAMMABILITY OF UPHOLSTERED FURNITURE? HEARING ON THE EFFECTIVENESS OF FURNITURE FLAMMABILITY STANDARDS AND FLAME-RETARDANT CHEMICALS</title>
<body><pre>[Senate Hearing 112-705]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-705

  ARE CONSUMERS ADEQUATELY PROTECTED FROM FLAMMABILITY OF UPHOLSTERED 
   FURNITURE? HEARING ON THE EFFECTIVENESS OF FURNITURE FLAMMABILITY 
                STANDARDS AND FLAME-RETARDANT CHEMICALS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 17, 2012--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

75-478 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

       Subcommittee on Financial Services and General Government

                 RICHARD J. DURBIN, Illinois, Chairman
FRANK R. LAUTENBERG, New Jersey      JERRY MORAN, Kansas
BEN NELSON, Nebraska                 MARK KIRK, Illinois
DANIEL K. INOUYE, Hawaii (ex         THAD COCHRAN, Mississippi (ex 
    officio)                             officio)

                           Professional Staff

                             Marianne Upton
                         Diana Gourlay Hamilton
                           Melissa Zimmerman
                        Dale Cabaniss (Minority)
                        Ellen Beares (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                              Nora Martin

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Richard J. Durbin...................     1
    Prepared Statement of Senator Richard J. Durbin..............     4
Roles of Witnesses...............................................     4
Summary of the Issues............................................     5
Statement of Senator Jerry Moran.................................     6
The Utility of California Technical Bulletin 117: Does the 
  Regulation Add Value?..........................................     7
Statement of Senator Frank R. Lautenberg.........................    20
Statement of Inez M. Tenenbaum, Chairman, Consumer Product Safety 
  Commission.....................................................    22
    Prepared Statement of Inez M. Tenenbaum......................    24
Statement of James J. Jones, Acting Assistant Administrator, 
  Office of Chemical Safety and Pollution Prevention, 
  Environmental Protection Agency................................    25
    Prepared Statement of James J. Jones.........................    27
Background on the Toxic Substances Control Act...................    27
Essential Principles for Reform of Chemicals Management 
  Legislation....................................................    28
Work Plan Chemicals..............................................    28
Polybrominated Diphenyl Ether Flame-Retardant Chemicals..........    28
Efforts on Polybrominated Diphenyl Ether Flame-Retardant 
  Chemicals......................................................    29
Statement of August ``Gus'' Schaefer, Sr., Vice President and 
  Chief Safety Officer, Underwriters Laboratories, Inc...........    38
    Prepared Statement of August ``Gus'' Schaefer, Sr............    39
Fire Risk Associated with Upholstered Furniture..................    40
Underwriters Laboratories Research Exploring the Fire Safety of 
  Upholstered Furniture..........................................    41
Phase 1: Material, Mockup, and Full-Sized Furniture Testing......    41
Phase 2: Comparison of Upholstered Furniture on Living Room 
  Flashover......................................................    42
Phase 3: Comparison of Upholstered Furniture on Occupant 
  Tenability and Survivability...................................    42
Statement of Andy S. Counts, CEO, American Home Furnishings 
  Alliance.......................................................    43
    Prepared Statement of Andy S. Counts.........................    45
The National Discussion..........................................    46
The Upholstered Furniture Action Council.........................    46
Small Open-Flame Research........................................    47
Research and Regulation of Flame Retardants......................    47
Other Trends Shaping Fire Statistics.............................    48
Statement of Peter Van Dorpe, Chief, Training Division, Chicago 
  Fire Department................................................    49
    Prepared Statement of Peter Van Dorpe........................    52
Prepared Statement of San Francisco Firefighters Cancer 
  Prevention Foundation..........................................    60
Prepared Statement of the United States Fire Administration......    62
Additional Committee Questions...................................    64
Questions Submitted to Inez M. Tenenbaum.........................    64
Questions Submitted by Senator Richard J. Durbin.................    64
Consumer Product Safety Commission's Upholstered Furniture 
  Flammability Standard..........................................    64
California Technical Bulletin 117................................    64
Response to American Home Furnishings Alliance Recommendations...    65
Flame-Retardant Chemicals........................................    66
Questions Submitted to James J. Jones............................    67
Questions Submitted by Senator Richard J. Durbin.................    67
Flame-Retardant Chemicals........................................    67
Future Efforts Regarding Flame Retardants........................    68
Europe Bans or Greatly Restricts Flame Retardants................    68
Toxic Substances Control Act.....................................    69
Questions Submitted to Gus Schaefer..............................    69
Questions Submitted by Senator Richard J. Durbin.................    69
Underwriters Laboratories Testing on Upholstered Furniture 
  Flammability...................................................    69
Response to Testimony From the American Home Furnishing Alliance.    69
Questions Submitted to Andy S. Counts............................    71
Questions Submitted by Senator Richard J. Durbin.................    71
Consumer Product Safety Commission Flammability Standard.........    71

 
  ARE CONSUMERS ADEQUATELY PROTECTED FROM FLAMMABILITY OF UPHOLSTERED 
   FURNITURE? HEARING ON THE EFFECTIVENESS OF FURNITURE FLAMMABILITY 
                STANDARDS AND FLAME-RETARDANT CHEMICALS

                              ----------                              


                         TUESDAY, JULY 17, 2012

                           U.S. Senate,    
         Subcommittee on Financial Services
                            and General Government,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Lautenberg, and Moran.


             opening statement of senator richard j. durbin


    Senator Durbin. Good afternoon. Today, I am pleased to 
convene this hearing of the Appropriations Subcommittee on 
Financial Services and General Government to discuss standards 
for the flammability of residential upholstered furniture and 
the use of flame-retardant chemicals, and whether efforts to 
date are adequately protecting American consumers.
    I am going to be joined later by Senator Jerry Moran, my 
ranking member, and possibly Senator Frank R. Lautenberg, and 
other colleagues. I thank them all for their interest in this 
issue.
    I welcome the Chairman of the Consumer Product Safety 
Commission (CPSC), Inez M. Tenenbaum, and the acting Assistant 
Administrator of the Environmental Protection Agency's (EPA) 
Office of Chemical Safety and Pollution Prevention, James J. 
Jones. I also welcome our second panel of witnesses we'll hear 
from a little later.
    Why are we holding this hearing? According to national fire 
loss estimates for 2005 to 2009, upholstered furniture was the 
first household item to ignite in an average of 7,040 reported 
home structure fires every year. These fires caused an 
estimated annual average of 500 deaths, 890 injuries, and $442 
million in direct property damage.
    Once upholstered furniture is ignited, it burns extremely 
rapidly, because of the fuel in the upholstery filling 
materials. Lighted tobacco products or smoking materials remain 
the leading cause of upholstered furniture fires and associated 
losses. One out of every six such fires started by smoking 
materials resulted in death.
    In May, the Chicago Tribune published a four-part series on 
flame-retardant chemicals. It was an eye-opener. It explored 
the role of the major tobacco companies, which sought to shift 
focus away from cigarettes as the cause of fire deaths, and 
chemical companies, which wanted to preserve a market for their 
products.
    Tobacco industry efforts with State fire marshals steered 
policymakers away from developing a fire-safe cigarette and 
instead toward rules requiring furniture flammability 
standards. That, in turn, led to the widespread use of flame-
retardant chemicals.
    The Chicago Tribune articles also highlighted research 
showing that flame-retardant chemicals escape from household 
products and settle in dust, causing infants and toddlers to 
have higher levels of these chemicals in their bodies than 
their parents. American newborns have the highest recorded 
concentration of flame-retardant chemicals than any infants in 
any other country.
    This led Graco, one the Nation's largest children's product 
manufacturers, to ban the use of some toxic flame retardants in 
their products. Graco has recently announced that they will 
begin eliminating four of the most toxic flame-retardant 
chemicals from their products, including car seats and 
strollers.
    The list of banned chemicals includes Firemaster 550, a 
chemical mixture that the current research and even the Tribune 
articles have shown to accumulate in humans and the 
environment.
    The chemical industry points to research justifying the use 
of fire retardants. The Chicago Tribune exposes that research 
many times is distorted and based on manipulated data.
    Finally, the series discusses the toxicity of flame 
retardants and the difficulties that EPA faces in restricting 
the use of flame-retardant chemicals in furniture.
    What we will learn today is a little more about fires, 
furniture, fire-retardant chemicals, and, maybe as important, 
the role of the Government when it comes to these issues.
    On our first panel, we are going to hear from CPSC, an 
obvious first stop in this conversation. They have been 
working, as you will find, for many years on a proposed 
standard for the flammability of upholstered furniture.
    Upholstered furniture that catches fire is a leading cause 
of death in residential fires from consumer products. In recent 
years, CPSC has been working on a standard that would require 
upholstery to resist smoldering cigarettes, which are by far 
the leading cause of furniture fires.
    To complete an upholstered furniture flammability standard, 
CPSC must comply with the Flammable Fabrics Act passed by the 
Congress, which sets the standards for testing. They are wide-
ranging and lengthy, the standards.
    As part of them, CPSC conducted testing to establish the 
effectiveness of different strategies on reducing furniture 
flammability.
    I expect that CPSC will provide an update on this research, 
the status of the rulemaking, the remaining steps to finalize a 
rule, and any outstanding issues.
    Also on the first panel, we will hear from EPA. They 
regulate the manufacture and use of flame-retardant chemicals 
under the Toxic Substances Control Act (TSCA). Recent 
scientific research has demonstrated these chemicals accumulate 
in the environment and can cause cancer, neurological 
disorders, and impaired reproduction.
    During this hearing, we hope to learn more about the public 
health and environmental effects of flame-retardant chemicals 
used in furniture. Additionally, we hope to hear what authority 
TSCA gives EPA to regulate these potentially dangerous 
chemicals and any recent actions taken by EPA with respect to 
them.
    With the next panel we are going to hear from is an 
Illinois-based company well known to most, Underwriters 
Laboratories (UL). It's an independent, not-for-profit 
standards developer that tests products and certifies those 
that are consistent with public safety and those that are not.
    Over time, the company has built a brand that reassures 
consumers the products they are purchasing are safe. In 2008, 
UL initiated testing on different methods of reducing 
upholstered furniture flammability and reducing the fire growth 
rate of upholstered furniture.
    Some of their findings will likely have us taking a second 
look at the furniture we have in our homes. They are here today 
to discuss the results of their testing on furniture 
flammability.
    We are going to also hear from the American Home 
Furnishings Alliance, representing the manufacturers and 
importers of residential furniture that include upholstered 
furniture. Much like CPSC, the manufacturers have been involved 
in developing upholstered furniture flammability standards. 
They will share their insights regarding current standards and 
ongoing work with CPSC to determine a new standard.
    Finally, we are going to hear from a veteran firefighter 
and fire-safety expert to discuss the changes that have taken 
place in America affecting home fire safety and the factors 
leading to home fires. He will also tell us about the human 
cost associated with fires and very simple steps, including 
creating effective flammability standards, that we can take to 
help reduce this risk for consumers and firefighters alike.
    After reading the Chicago Tribune articles, I was struck by 
several disturbing things. First, the intentional distortion 
and manipulation of research in order to deceive Americans into 
thinking that the use of flame-retardant chemicals in furniture 
provided additional protection in home fires even though the 
data do not support the claim; the extensive lobbying and 
significant funding spent by chemical companies and the tobacco 
industry to ensure that flame-retardant chemicals were used in 
furniture and to suppress opposition to their inclusion; and 
the growing awareness that flame-retardant chemicals in 
furniture may not add any benefit, and, in many cases, may 
cause harm to public health and the environment.
    Generations of Americans have been asked to tolerate what 
may be an unsafe level of exposure to potentially toxic 
chemicals in their furniture in the name of fire safety. If the 
scientific evidence suggests this solution is not justified, we 
must move quickly to update our upholstered furniture 
flammability standards and limit our exposure to these 
dangerous chemicals.
    Today, we'll attempt to gain a clear understanding of 
whether consumers are protected from flammability furniture, a 
leading cause of house fires. We'll explore what's been 
happening with residential upholstered furniture flammability 
standards and the effectiveness of these chemicals.
    We'll start by exploring CPSC's process for finalizing a 
standard, and then move to EPA for their statements on the 
actual chemicals involved.


                           prepared statement


    I'd like to say, as a matter of record, we have a vote 
scheduled at 3 o'clock, which will probably go until about 3:15 
or 3:20 p.m., so my ranking member, Senator Moran, and I will 
try to accommodate that vote and be sure that we make it and 
not interrupt this hearing indefinitely.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Good afternoon. Today, I am pleased to convene this hearing of the 
Appropriations Subcommittee on Financial Services and General 
Government to discuss standards for the flammability of residential 
upholstered furniture and the use of flame-retardant chemicals, and 
whether efforts to date are adequately protecting consumers and the 
public.
    I welcome Senator Jerry Moran, the ranking member, Senator Frank R. 
Lautenberg, and possibly other colleagues are joining me today. I 
welcome the Chairman of the Consumer Product Safety Commission (CPSC) 
Inez M. Tenenbaum, and the Acting Assistant Administrator of the 
Environmental Protection Agency's (EPA) Office of Chemical Safety and 
Pollution Prevention, James J. Jones. I also welcome our second panel 
of witnesses who we will hear from a bit later.
    According to national fire loss estimates for 2005-2009, 
upholstered furniture was the first household item to ignite in an 
average of 7,040 reported home structure fires per year. These fires 
caused an estimated annual average of 500 deaths, 890 injuries, and 
$442 million in direct property damage. Once upholstered furniture is 
ignited, it burns extremely rapid because of the fuel in the upholstery 
filling materials. Lighted tobacco products (or smoking materials) 
remain the leading cause of upholstered furniture fires and associated 
losses. One out of every six such fires started by smoking materials 
resulted in death.
    In May, the Chicago Tribune published a four-part series on flame-
retardant chemicals. It explored the role of Big Tobacco, which sought 
to shift focus away from cigarettes as the cause of fire deaths; and 
chemical companies, which wanted to preserve a lucrative market for 
their products. The tobacco industry's efforts with State fire marshals 
steered policymakers away from developing a fire-safe cigarette 
standard and instead toward rules requiring furniture flammability 
standards. That, in turn, led to the widespread use of flame-retardant 
chemicals.
    In addition, the Chicago Tribune articles highlight research 
showing that flame-retardant chemicals escape from household products 
and settle in dust, causing infants and toddlers to have higher levels 
of these chemicals in their bodies than their parents. American 
newborns have the highest recorded concentrations of flame retardants 
than infants from any other country.
    This has led Graco--one of the Nation's largest children's product 
manufacturers--to ban the use of some toxic flame retardants in their 
products. Graco has recently announced that they will begin eliminating 
four of the most toxic flame-retardant chemicals from their products, 
which include car seats and strollers. The list of banned chemicals 
includes Firemaster 550, a chemical mixture that the current research 
and Chicago Tribune articles have shown to accumulate in humans and the 
environment.
    The chemical industry points to research justifying the use of fire 
retardants. The Tribune exposes that research as distorted and based on 
manipulated data. Finally, the series discusses the toxicity of flame 
retardants and the difficulties that EPA faces in restricting the use 
of flame-retardant chemicals in furniture.
                           roles of witnesses
    Today, on our first panel, we will hear from CPSC, which has been 
working on a proposed standard for the flammability of upholstered 
furniture.
    Upholstered furniture that catches fire is a leading cause of death 
in residential fires from consumer products. In recent years, CPSC has 
been working on a standard that would require upholstery to resist 
smoldering cigarettes, which are by far the leading cause of furniture 
fires.
    To complete an upholstered furniture flammability standard, CPSC 
must comply with Flammable Fabrics Act requirements, which are wide-
ranging and lengthy. As part of the standards process, CPSC conducted 
testing to establish the effectiveness of different strategies on 
reducing flammability. I expect that CPSC will provide an update on 
their research, the status of the rulemaking, the remaining steps to 
finalizing the rule, and any outstanding issues yet to be resolved.
    Also on the first panel, we will hear from EPA, which regulates the 
manufacture and use of flame-retardant chemicals under the Toxic 
Substances Control Act (TSCA). Recent scientific research has 
demonstrated that these chemicals accumulate in the environment and 
that they can cause cancer, neurological disorders, and impaired 
reproduction.
    During this hearing, we hope to learn more about the public health 
and environmental effects of flame-retardant chemicals used in 
furniture filling. Additionally, we hope to hear what authority TSCA 
gives EPA to regulate these potentially dangerous chemicals and any 
recent actions EPA has taken with respect to flame-retardant chemicals.
    On our second panel, we will hear from Illinois-based Underwriters 
Laboratories (UL), an independent, not-for-profit standards developer 
and product testing and certification organizer dedicated to public 
safety. Over time, the company has built a brand that reassures 
consumers that the products they are purchasing are safe. In 2008, UL 
initiated testing on different methods of reducing upholstered 
furniture flammability and reducing the fire growth rate of upholstered 
furniture. Some of their findings will likely have us all taking a 
second look at the furniture we have in our homes. They are here today 
to discuss the results of their testing on furniture flammability.
    We will also hear from the American Home Furnishings Alliance, 
which represents manufacturers and importers of residential furnishings 
that include upholstered furniture. Much like CPSC, the manufacturers 
have been involved in developing upholstered furniture flammability 
standards. They will share their insights regarding current standards 
and their ongoing work with CPSC to develop a new nationwide furniture 
flammability standard.
    Finally, we will hear from a veteran firefighter and fire-safety 
expert. He will discuss the changes that have taken place affecting 
home fire safety and factors leading to home fires. He will also tell 
us about the human cost associated with fires and the simple steps--
including creating effective flammability standards--that we can take 
to help reduce this risk for consumers and the firefighters responding 
to these hazards.
                         summary of the issues
    After reading the Chicago Tribune articles, I was struck by several 
disturbing aspects such as:
  --the intentional distortion and manipulation of research in order to 
        deceive Americans into thinking that the use of flame-retardant 
        chemicals in furniture provided additional protection in home 
        fires even though the data do not support this claim;
  --the extensive lobbying and significant funding spent by chemical 
        companies and the tobacco industry to ensure that flame-
        retardant chemicals were used in furniture and to suppress any 
        opposition to their inclusion in furniture;
  --the growing awareness that flame-retardant chemicals in furniture 
        filling may not add any benefit, and may, in fact, cause harm 
        to public health and the environment.
    Generations of Americans have been asked to tolerate what may be an 
unsafe level of exposure to potentially toxic chemicals in their 
furniture in the name of fire safety. If the scientific evidence 
suggests this solution is not justified, we must move quickly to update 
our upholstered furniture flammability standards and help limit 
exposure to these chemicals.
    Today, we'll attempt to gain a clear understanding of whether 
consumers are adequately protected from flammability of upholstered 
furniture--a leading cause of house fires. We'll explore what's been 
happening with residential upholstered furniture flammability standards 
and the effectiveness of flame-retardant chemicals.
    We'll begin by exploring the CPSC process for finalizing such a 
standard. And then, we'll examine whether EPA has the necessary 
authority to ensure the safety of flame-retardant chemicals prior to 
their entry into the marketplace.

    Senator Durbin. At this point, I'd like to turn over the 
floor to my ranking member, Senator Jerry Moran.

                    STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. Mr. Chairman, thank you. I thank the 
witnesses for appearing before our subcommittee today. And I 
look forward to their testimony.
    As you indicated, there have been a series of articles 
written in the Chicago Tribune, which have elevated interest in 
flame-retardant chemicals. These chemicals are found in 
products we encounter throughout daily life--cars, automobiles, 
plastics, electronics and other household goods, and 
upholstered furniture, which is the primary focus of your 
hearing today.
    Flame retardants are one of many safety tools that we have 
at our disposal, such as sprinklers and smoke detectors. And, 
collectively, these tools have made a difference in reducing 
fire injuries and death, even as fuel loads and potentially 
flammable materials have increased dramatically in households 
and office buildings.
    This has been acknowledged by a variety of manufacturing 
sectors, which rely upon flame retardants to help meet 
Government-mandated or voluntary flammability standards for 
products and component parts.
    This is a complex issue involving State standards, Federal 
standards, and industry standards, which, from electronics to 
construction to automotive and also home furnishing products, 
these technical standards are often developed through a 
consensus approach and there is often careful thought given to 
ensuring the standards do not favor one method of compliance 
over another, but focus on meeting a fire-safety test.
    In some instances, manufacturers voluntarily decide to meet 
a particular product fire-safety standard, while in other cases 
product components must meet fire-safety tests as a regulatory 
prerequisite for sale in a market like California's standard 
117 for furniture sales.
    We must let the safety experts, like CPSC and EPA, work 
within their regulatory framework to address the safety of 
these products. Changes to the authorizing statutes at these 
agencies should be made by the Senate Commerce Committee, which 
has jurisdiction over the Consumer Product Safety Act and the 
Flammable Fabrics Act, and the Senate Environment and Public 
Works Committee, which has jurisdiction over TSCA. And that 
Committee will have a hearing on the reauthorization of that 
act with EPA on July 24, later this month.

                           PREPARED STATEMENT

    I'd like to ask unanimous consent a report from Dr. Matt 
Blais, the director of Fire Technology Department at Southwest 
Research Institution, be included in the record.
    And I look forward to the testimony of the witnesses.
    Senator Durbin. Without objection, that statement will be 
included.
    [The statement follow:]
 The Utility of California Technical Bulletin 117: Does the Regulation 
                               Add Value?
    The implementation of California Technical Bulletin 117 (CA TB 117) 
set minimum performance standards for furnishings in incipient fire 
situations. The intent was to protect life and property from fires 
initiated by small sources such as matches, cigarettes, lighters, and 
candles. The standard was not intended to prevent ignition of a 
furnishing in a large fire where it would contribute to the fuel load 
of a room but not be the point of initiation.
    Urethane foam-filled furnishings have the potential for 
contributing tremendous energy to a fire and when not protected with 
flame retardants can lead to rapid transition from incipient fire to a 
free-burning condition. The time to reach flashover (spread to the rest 
of the room) in a recent study performed at Southwest Research 
Institute (SwRI) by Janssens et al. \1\ was as short as 200 seconds 
from time of ignition. The addition of flame-retardant covering over 
the foam adds a layer of defense that delays transition to flashover to 
almost 800 seconds from initiation. The additional use of CA TB 117 
rated urethane foams prevented sustained burning when a small ignition 
source was used. In cases where the CA TB-117 foams are used with 
flammable coverings, significant reductions in both peak Heat Release 
Rate (HRR) and total HRR were measured and a significant delay in 
reaching the free-burning condition was observed.
---------------------------------------------------------------------------
    \1\ Reducing Uncertainty of Quantifying the Burning Rate of 
Upholstered Furniture, No. 2010-DN-BX-K221, awarded by the National 
Institute of Justice, Office of Justice Programs, U.S. Department of 
Justice. December 30, 2011.
---------------------------------------------------------------------------
    The impact of adding flame retardants to the covering material and 
urethane foams adds defense in depth to the furnishing that undoubtedly 
saves lives. The fact that nonflame-retardant furnishings contribute to 
flashover in a room in just a little more than 3 minutes severely 
limits the potential for escape for a family in a fire situation. It 
also would likely result in the total loss of the home before a fire 
department could respond. Extending the time to greater than 13 minutes 
increases the probability of escape for the family and allows for 
greater response time and likely reduces the total damage sustained by 
the structure.
    The cigarette ignition source is less important today than in the 
past due to a reduction in the number of smokers and changes in 
cigarette technology. Cigarette wrappers are self-extinguishing when 
there is not airflow for extended periods. However, ignition from a 
small flame source is still a significant problem for homeowners with 
small children. The following facts were obtained from U.S. Fire 
Administration/National Fire Data Center:
  --An estimated 20,200 residential structure fires in 2002, resulted 
        in 276 deaths, 1,445 injuries, and $322 million loss. \2\
---------------------------------------------------------------------------
    \2\ U.S. Fire Administration/National Fire Data Center, Residential 
Structure Match- or Lighter-Ignited Fires, Topical Fire Research 
Series, Volume 4--Issue 2, October 2004.
---------------------------------------------------------------------------
  --The leading causes of residential structure fires are incendiary/
        suspicious, open flame, and children playing with lighters and 
        matches fires. \2\
    CA TB 117 uses ignition sources that mimic those found in the types 
of fires described. The testing performed in Janssens' is directly 
comparable to the CA TB 117 and CA TB 133 requirements. Three types of 
ignition sources were used:
  --a small match-like flame;
  --a large gas burner, similar to a fire in a pile of newspapers; and
  --a small liquid pool fire simulating the use of an accelerant.
    Three ignition source locations were evaluated:
  --exposing the seat from the top;
  --exposing the furniture from the front bottom; and
  --exposing the back.
Test Conditions
    In most cases the small-flame ignition source was BS 5852 Source #1 
simulating a match fire. In a few tests the item could not be ignited 
with this source and BS 5852 Source #2 was then tried simulating a 
lighter or candle. Both BS 5852 sources involve a diffusion burner 
consisting of a steel tube, with 8 mm outside diameter and 6.5 mm 
internal diameter and 200 mm in length, connected by a flexible tube 
via a rotameter, fine control valve, an optional on-off valve, and a 
regulator to a cylinder containing butane.
    For Source #1, a flow rate of 45 ml/min at 25 C was used, 
corresponding to a heat release rate of ca. 83 W and a flame height of 
35 mm, measured from the top of the burner tube, when held vertically 
upwards. For Source #2, a flow rate of 160 ml/min at 25 C was used, 
corresponding to a heat release rate of ca. 295 W and a flame height of 
145 mm, measured from the top of the burner tube, when held vertically 
upwards. Butane gas was used as the fuel. The burner flame was applied 
for 20 s for Source #1, or 40 s for Source #2. Source #1 has been shown 
to have an intensity equivalent to a small match. The small-flame 
source is shown in Figure 1 being applied to a chair mock-up.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                     Figure 1.--Small flame source

    The propane burner described in CA TB 133 and American Society for 
Testing and Materials (ASTM) E-1537 was chosen as the large flame 
ignition source exposing the seat from the top. This 250  250 mm 
square burner consisted of 13 mm outside diameter stainless steel 
tubing with holes pointing straight out, straight down, and inward at a 
45 degree angle at various locations. Propane gas with a net heat of 
combustion of 46.5 <plus-minus> 0.5 MJ/kg was supplied at a rate of 13 
1/min for a total of 80 s. The burner was an approximate intensity of 
19 kW. Figure 2 shows the large-flame source burner applied to a three-
cushion couch mock-up.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                Figure 2.--Large burner ignition source

    The 0.3  0.3 m sandbox burner described in National Fire 
Protection Association (NFPA) 286 was chosen as the large-flame 
ignition source for front bottom and back exposure. The burner was 
supplied with propane at the same rate (19 kW) and for the same 
duration (80 s) as the CA TB 133 burner. Figure 3 shows the application 
of the large-flame sandbox burner to the bottom front of a three-
cushion couch mock-up.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




           Figure 3.--Large-flame ignition source burner box

    Finally, the liquid pool fire ignition source consisted of 59 ml (2 
oz) of gasoline distributed over a seat cushion (top exposure) or 118 
ml (4 oz) of gasoline distributed more than 25 mm thick ceramic fiber 
blanket placed inside a 0.28  0.43 m metal cookie sheet (front, 
bottom, and back exposure). Figure 4 shows the accelerant ignition 
source for this series of tests applied to a center cushion.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                 Figure 4.--Accelerant ignition source

Test Items
    Because of the questionable pedigree for used furniture items, most 
of the tests were performed on furniture mock-ups with metal frames. 
The mockup cushions were constructed with fabrics and padding materials 
that are common in furniture items that are currently on the market. 
Six different padding materials and two fabrics were selected. Chairs 
(without armrests) and single-, double-, and triple-seat sofas were 
included in the test matrix. Table 1 shows the matrix of materials used 
to create the mock-ups for this series of tests.

                                   TABLE 1.--MOCK-UP MATERIALS OF CONSTRUCTION
----------------------------------------------------------------------------------------------------------------
            Fabric                       ID              Color               Supplier              Weight (g/m2)
----------------------------------------------------------------------------------------------------------------
(Nonflame-retardant) cotton.. Flame-retardant cotton....... ----------------------------------------------------------------------------------------------------------------
           Padding ----------------------------------------------------------------------------------------------------------------
LD polyurethane foam......... HD polyurethane foam......... CA TB 117 polyurethane foam.. Polychloroprene latex........ Polyester wrap............... Densified polyester.......... ----------------------------------------------------------------------------------------------------------------

    The flame-retardant cotton fabric was verified to meet the 
requirements of NFPA 701. CA TB 117 tests were performed on specimens 
of the six padding materials to verify compliance (or noncompliance) 
with the standard. The test matrix used for this series of tests is 
summarized in Tables 2 and 3.

                                                                                                            TABLE 2.--DETAILS OF THE FRACTIONAL FACTORIAL EXPERIMENTS
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      1-Seat Sofa (Fraction A)
                                                                                      3-Seat Sofa (Fraction B)
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
LD polyurethane padding...............                                                                                                                             3
                                                                                                                                                                   3
                                                                                                                                                                   3   
                                                                                                                                                                   3
                                                                                                                                                                   3
                                                                                                                                                                   3   
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
HD polyurethane padding............... 
                                                                                                                                                                   3
                                                                                                                                                                   3
                                                                                                                                                                   3   
                                                                                                                                                                   3
                                                                                                                                                                   3
                                                                                                                                                                   3 --------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
CA TB 117 foam polyurethane padding...                                                                                                                                                                     3
                                                                                                                                                                   3
                                                                                                                                                                   3   
                                                                                                                                                                   3
                                                                                                                                                                   3
                                                                                                                                                                   3
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Small flame...........................                                                                                                                             3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Large gas burner......................
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Liquid pool fire......................                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3 
                                                                                                                                                                   3
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Top...................................                                                                                                                             3                                                                                                                                                                    3                                                                                                                                                                    3 
                                                                                                                                                                   3
                                                                                                                                                                   3                                                                                                                                                                    3--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Front bottom..........................                                                                                                                                                                   3
                                                                                                                                                                   3                                                                                                                                                                    3 
                                                                                                                                                                   3                                                                                                                                                                    3
                                                                                                                                                                   3 
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Back..................................
                                                                                                                                                                   3                                                                                                                                                                    3
                                                                                                                                                                   3 
                                                                                                                                                                   3                                                                                                                                                                    3                                                                                                                                                                    3
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                                                                                     TABLE 3.--ADDITIONAL ROOM CALORIMETER TESTS ON MOCKUPS
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          Chairs
                                                                                                           1-Seat Sofas
                                                                    2-Seat Sofas
                                                                                 3-Seat Sofas
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
(Nonflame-retardant) cotton..........................                                                                                                                             3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3  
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3 ----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Flame-retardant cotton...............................     
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                    3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
LD polyurethane foam.................................                                                                                                                                                                                    3        
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
HD polyurethane foam.................................                                                                                                                             3 
                                                                                                                                                                                  3                                                                                                                                                                                     3
                                                                                                                                                                                  3 
                                                                                                                                                                                  3 
                                                                                                                                                                                  3                                                                                                                                                                                  3
                                                                                                                                                                                  3----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
CA TB 117 polyurethane foam..........................
                                                                                                                                                                                  3 
                                                                                                                                                                                  3 
                                                                                                                                                                                  3
                                                                                                                                                                                  3  
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                  3                                                                                                                                                                                    3
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Polychloroprene latex................................           
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Polyester wrap.......................................           
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Densified polyester..................................                                                                                                                                                                                  3 
                                                                                                                                                                                  3                                                                                                                                                                                   3
                                                                                                                                                                                  3   
                                                                                                                                                                                  3                                                                                                                                                                                  3 ----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Small flame..........................................                                                                                                                                                                                    3
                                                                                                                                                                                  3     
                                                                                                                                                                                  3  
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Large gas burner.....................................                                                                                                                             3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                   3                                                                                                                                                                                  3                                                                                                                                                                                  3                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                  3
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Liquid pool fire.....................................                                                                                                                                                                                     3                                                                                                                                                                                  3                                                                                                                                                                                  3                                                                                                                                                                                  3   
                                                                                                                                                                                  3----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Top center...........................................                                                                                                                             3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                   3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Top corner...........................................                                                                                                                                                                                    3                                                                                                                                                                                       3  
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Front bottom.........................................   
                                                                                                                                                                                  3
                                                                                                                                                                                  3       
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
No gap (Chairs only).................................                                                                                                                             3
                                                                                                                                                                                  3
                                                                                                                                                                                  3          
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Gap (Chairs only).................................... 
                                                                                                                                                                                  3
                                                                                                                                                                                  3
                                                                                                                                                                                  3        ----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Number of replicates.................................                                                                                                                             1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  2
                                                                                                                                                                                  1
                                                                                                                                                                                  2
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
                                                                                                                                                                                  1
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Results and Discussion
    A direct comparison of four conditions shows the applicability of 
having an flame-retardant requirement for home furnishings. The heat 
release rates measured of the duration of the test are shown in the 
four pairs of graphs below. The conditions are:
  --a flammable cover over urethane foam;
  --a flame-retardant cover over urethane foam;
  --a flammable cover over flame-retardant foam; and
  --a flame-retardant cover over flame-retardant foam.
    Table 4 provides the sample identification description dictionary 
that defines the test performed and material types. This can be used to 
show the materials of composition, test conditions, ignition source and 
ignition location.
   Table 4.--System for Composing and Deciphering the Test II) String


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    A comparison of one cushion mockups with low-density nonflame-
retardant and flame-retardant urethane foams shows a reduction in the 
heat released. These two examples both have flammable covers. Comparing 
the time to fully involved fire environment, the peak HRR and the total 
heat released (area under the curve), show that the fire-resistant foam 
slows the onset of free-burning fire by more than doubling the time 
from ignition to peak HRR (pHHR). The blue plot in both Figures 5 and 6 
is the experimental data for these two conditions. All of the other 
plots are fire-spread models attempting to predict the fire growth. The 
nonflame-retardant foam seat ignites and reaches free burning in 
approximately 400 s. The CA TB 117 foam requires 1,000 seconds to 
achieve pHHR. The pHRR and total heat released are also one-half for 
the CA TB 117 foam when compared to the nonflame-retardant foam. These 
tests used the small-flame ignition source. There are several examples 
of this exact relationship in Janssens work.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




   Figure 5.--SRM131BB2--CA TB 117 Urethane Foam With Flammable Cover


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 Figure 6.--SR1V1111BS1--Low-Density Urethane Foam With Flammable Cover

    Comparing the material cover of furniture mockups illustrates the 
utility of using NFPA 701 rated fabrics as covers for foam-filled 
furnishings. The blue plots in Figures 7 and 8 illustrate the impact of 
using a flame-retardant fabric over high-density foam of the same 
manufacturing lot using the same ignition source and location. Again 
the time from ignition of the couch to the free-burning state is 
significantly delayed. The unprotected foam goes to a free-burning 
state upon ignition. The foam protected with the NFPA 701 fabric shows 
a delay of 10 minutes to reach the same condition. It is also important 
to note that the pHRR is half the intensity for the flame-retardant 
case with 220 kW for the FR fabric compared to 440 kW for nonflame-
retardant fabric. The total energy released by both events is 
approximately the same. This series of test used the large burner 
igniter shown in Figure 2. Use of the small burner BS5852 failed to 
ignite the flame-retardant test item.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                          Figure 7.--SOM121CS4


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                          Figure 8.--SOM221CS1

    The defense in depth approach of using both an flame-retardant 
fabric and CA TB 117 foam hugely impacts the fire event. Figures 9 and 
10 compare the cases of three cushion couch mockups with and without FR 
foams IAW CA TB 117 and NFPA 701 covers. These figures show that with 
the large burner the protected couch failed to ignite while the 
unprotected couch reaches free burning in 180 s. The unprotected couch 
would cause the room to reach flashover in 4 minutes.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                          Figure 9.--SRM233CS1


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         Figure 10.--LRM113CF1


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         Figure 11.--SOM231CS1


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         Figure 12.--SOM111CS1

    Figures 11 and 13 show the same comparison for a single seat chair. 
The same no-ignition is seen for the CA TB 117 and NFPA 701 compliant 
cushion compared to rapid ignition of the unprotected cushion. The 
ignition time for the case was even more rapid for this unprotected 
furnishing due to the location of the ignition source.
Conclusion
    The best conclusion that can be drawn from the data presented here 
is that the use of CA TB 117 foam increases the fire safety of home 
furnishings by delaying the onset of free-burning conditions and 
reducing the total energy released by the event. Using a NFPA 701 
compliant cover over the flame-retardant foam prevents the furnishing 
from becoming the point of initiation with numerous examples in 
Janssen's paper self-extinguishing on removal of the ignition source, 
videos of these comparisons are available on request. What CA TB 117 
does not do is prevent the furnishing from burning where there is 
already a free-burning environment but that is not the intent of the 
regulation. The intent is to prevent the furnishing from becoming the 
initiation point of a large, free-burning fire caused by a small 
ignition source that could lead to trapping of occupants by preventing 
escape.

                                      Dr. Matthew S. Blais,
Director, Fire Technology Department, Southwest Research Institute.

    Senator Durbin. Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thanks, Mr. Chairman, for holding this 
hearing.
    Parents in this country expect their child to be safe when 
sleeping on a baby mattress, feeding from a bottle, playing on 
the furniture.
    When parents buy products that their kids will use, they 
assume that any chemicals in those products have been tested 
and proven safe and effective.
    In many countries around the world, chemicals are required 
to be tested, but not in the United States. That's because a 
35-year-old law that's supposed to assess and protect against 
chemical health risks is broken.
    The Government Accountability Office has placed that law, 
TSCA, on its list of high-risk areas of the law. And the 
President's cancer panel, led by experts appointed under 
President Bush, said that TSCA, ``may be the most egregious 
example of ineffective regulation of environmental 
contaminants.''
    Today, thank goodness, we're examining a prime example of 
why our system for regulating chemicals needs to be updated.
    This spring, the Chicago Tribune exposed how the chemical 
industry has used dirty tricks and junk science to drive a 
public misinformation campaign that keeps chemical flame 
retardants in our homes.
    The Chicago Tribune reported that many chemical flame 
retardants are highly toxic. And while industry has promised 
that flame retardants would stay put in our furniture, pose no 
threat to health, those chemicals have ended up everywhere, 
including in children's bodies. According to the Chicago 
Tribune, ``a typical American baby is born with the highest 
recorded concentration of flame retardants among infants in the 
world.''
    The series shows how the industry repeatedly bullied and 
lied to the State legislatures to prevent common-sense reforms. 
They've been accused of bankrolling so-called experts to invent 
stories that spout the company line, all in the service of 
protecting their profits, and all at the expense of our safety 
and health.
    But here are the facts: The average couch contains more 
than 2 pounds of flame-retardant chemicals--chemicals linked to 
cancer and other health risks.
    And while we have filled our homes with toxic chemicals, 
these flame retardants don't even do what they're meant to do, 
and that's to prevent fires.
    And that's why Senator Snowe and I recently sent a 
bipartisan letter to EPA, signed by 24 of our Senate 
colleagues, including Chairman Durbin, urging the agency to 
take action on a class of flame retardants. Our letter also 
called for real reforms to TSCA.
    But I want to be clear: Flame retardants are just the tip 
of the iceberg. Studies by the Centers for Disease Control 
(CDC) scientists found 212 industrial chemicals, including 6 
carcinogens, coursing through American bodies. In nearly 35 
years, TSCA has allowed EPA to require testing of only 200 of 
more than 80,000 chemicals on EPA's inventory.
    What's more, EPA has been able to ban only five toxic 
substances under the law. In essence, the American public has 
become a living, breathing repository for chemical substances.
    Our TSCA reform bill, the Safe Chemicals Act, will simply 
require the chemical makers to establish product safety before 
they end up in children's bodies.
    And most of the thousands of chemicals we use every day are 
safe, but this bill will separate those safe chemicals from the 
ones that are not. That's what we have to look out for.
    It will ensure that chemicals are tested, that EPA can take 
unsafe uses of the chemicals off the market.
    And I'm proud that Chairman Durbin and 20 other Senators 
have cosponsored the bill. And I hope that all of our 
colleagues will come together to finally fix this law to 
protect our families and our kids from toxic chemicals.
    Senator Durbin. Thanks, Senator Lautenberg.
    First panel, Inez M. Tenenbaum, who is the Chairman of 
CPSC, please proceed.
STATEMENT OF INEZ M. TENENBAUM, CHAIRMAN, CONSUMER 
            PRODUCT SAFETY COMMISSION
    Ms. Tenenbaum. Chairman Durbin, Ranking Member Moran, and 
Senator Lautenberg, I'm pleased to be here today to discuss 
CPSC's current efforts to implement the performance requirement 
to reduce the fire risk of residential upholstered furniture.
    Reducing deaths and injuries in residential fires is a key 
strategic goal of CPSC, and the flammability of upholstered 
furniture has been an area of significant concern by the 
commission staff.
    On March 4, 2008, CPSC issued a notice of proposed 
rulemaking for a standard for flammability of residential 
upholstered furniture. The proposed standard would establish 
two possible pathways for upholstered furniture to meet the 
proposed standard: Manufacturers could either use an upholster 
cover material that complies with the prescribed smoldering 
resistance test, referred to as type one furniture, or use an 
interior fire barrier that complies with specific smoldering 
and open flame-resistance tests, known as type two furniture.
    During the development of the notice of proposed rulemaking 
(NPR), CPSC staff was highly cognizant of the concerns 
expressed by many stakeholders over the use of flame-retardant 
chemicals as a part of any standard.
    While EPA has primary jurisdiction over flame-retardant 
chemicals through TSCA, CPSC's proposed rule has a performance-
based standard as noted above. It does not specify any 
particular materials or designs, and it does not require the 
use of any flame-retardant chemicals to achieve compliance with 
the proposed standard.
    In this regard, the proposed rule's open-flame barrier 
requirement is consistent with certain preliminary findings in 
a CPSC staff report, conducted as part of the research on the 
upholstered furniture rule, which reviewed the effects of 
certain fire barriers on the flammability of upholstered 
chairs.
    The foam used under the fire barriers in those tests 
represented both flame-retardant-treated foam and nonflame-
retardant-treated foam. At the conclusion of these tests, staff 
noted that the addition of a fire barrier markedly increased 
the safety of the furniture. As a part of the testing, staff 
also noted that the fire-retardant foams did not offer a 
practically significant greater level of open-flame safety than 
the untreated foam.
    Since issuance of the NPR in 2008, CPSC staff has worked 
diligently with stakeholders and other interested parties to 
finalize the rule and conduct associated testing. In doing so, 
we have faced several significant challenges.
    One substantial challenge CPSC staff has faced is the 
development of reasonable and repeatable testing requirements 
to ensure compliance with any new rule. Unlike other products, 
such as mattresses, furniture comes in a multitude of sizes and 
shapes, making representative and repeatable testing mechanisms 
a substantial undertaking.
    As part of this proceeding, staff has also been working 
with other organizations to develop standard reference 
materials, such as standard test cigarettes and standard test 
foam, which can be part of a representative and repeatable 
testing mechanism detailed above.
    As Chairman, I have recently allocated substantial 
additional resources to these efforts, and we're making 
progress toward these goals.
    The second and most significant challenge is the statutory 
requirement that CPSC issue any flammability standards for 
fabrics, related materials, or products, including interior 
furnishing, pursuant to section 4 of the Flammable Fabrics Act 
(FFA).
    Like section 9 of the Consumer Product Safety Act, section 
4 of the FFA requires that CPSC make a series of very detailed 
and onerous findings before a final rule can be issued.
    In addition, if there's a relevant voluntary standard that 
has been adopted and implemented, CPSC must determine that the 
voluntary standard is not likely to adequately reduce the risk 
of injury or that substantial compliance with it is not likely.
    As part of the Consumer Product Safety Improvement Act of 
2008 (CPSIA), the Congress recognized the burden that the CPSC 
section 9 requirements placed on the Commission's ability to 
issue mandatory rules protecting the public from a number of 
potential hazards, and moved to ease this burden in several 
areas.
    One key example is section 104 of the CPSIA, where the 
Congress gave CPSC streamline authority to adopt new mandatory 
standards for durable infant and toddler products. Under 
section 104, CPSC must adopt standards for certain infant and 
toddler products that are substantially the same as relevant 
voluntary standards, or more stringent than such voluntary 
standards, if the Commission determines that more stringent 
standards would further reduce the risk of injury associated 
with those products.
    This section has allowed CPSC to expeditiously adopt 
standards protecting infants and young children in durable 
nursery equipment.
    Speaking personally in my capacity as Chairman, I believe 
that an amendment to the FFA permitting this type of 
flexibility for rules regarding flammability of upholstered 
furniture would be very helpful and may allow for expedited 
consideration of the proposed rule.

                           PREPARED STATEMENT

    Chairman Durbin, thank you again for the opportunity to 
testify on CPSC's ongoing efforts to address the flammability 
of residential upholstered furniture.
    I'm happy to answer any questions you or Senator Lautenberg 
might have.
    Senator Durbin. Thanks, Chairman Tenenbaum. I'm sure we 
will have some.
    [The statement follows:]
                Prepared Statement of Inez M. Tenenbaum
    Good afternoon, Chairman Durbin, Ranking Member Moran, and members 
of the subcommittee on Financial Services and General Government. I am 
pleased to be here today to discuss the Consumer Product Safety 
Commission's (CPSC) current efforts to implement performance 
requirements to reduce the fire risk of residential upholstered 
furniture.
    Reducing deaths and injuries in residential fires where consumer 
products play a contributory role is a key strategic goal of CPSC, and 
the flammability of upholstered furniture has been an area of 
significant concern by Commission staff. Upholstered furniture in a 
home is often a major source of combustible fuel for a fire. Once this 
furniture is ignited, it contains enough fuel to spread a fire very 
quickly when the upholstery filling materials start to burn.
    The most recent fire loss estimates for 2006 through 2008 indicate 
that upholstered furniture was the first item to ignite in an average 
of 6,500 residential fires attended by fire services during that 
period. These fires resulted in more than 500 deaths, 860 injuries, and 
$343 million in property loss each year.\1\
---------------------------------------------------------------------------
    \1\ David Miller and Risana Chowdhury, 2006-2008 Residential Fire 
Loss Estimates, Division of Hazard Analysis, Directorate for 
Epidemiology, U.S. Consumer Product Safety Commission (released July 
2011), available at http://www.cpsc.gov/LIBRARY/fire08.pdf.
---------------------------------------------------------------------------
    On March 4, 2008, CPSC issued a Notice of Proposed Rulemaking (NPR) 
for a ``Standard for the Flammability of Residential Upholstered 
Furniture.'' \2\ The proposed standard would establish two possible 
pathways for upholstered furniture to meet the proposed standard. 
Manufacturers could either use upholstery cover material that complies 
with a prescribed smoldering resistance test (referred to as Type I 
furniture) or use an interior fire barrier that complies with specified 
smoldering and open flame resistance tests (Type II furniture).
---------------------------------------------------------------------------
    \2\ See Notice of Proposed Rulemaking, Standard for the 
Flammability of Residential Upholstered Furniture, 73 Federal Register 
11702 (March 4, 2008).
---------------------------------------------------------------------------
    During the development of the NPR, CPSC staff was highly cognizant 
of the concerns expressed by many stakeholders over the use of flame-
retardant chemicals as part of any standard. While the Environmental 
Protection Agency has primary jurisdiction over flame-retardant 
chemicals under the Toxic Substances Control Act, CPSC's proposed rule 
has a performance-based standard, as noted above. It does not specify 
any particular materials or designs, and does not require the use of 
any flame-retardant chemicals to achieve compliance with the proposed 
standard.
    In this regard, the proposed rule's open-flame barrier requirement 
is consistent with certain preliminary findings in a CPSC staff 
report,\3\ conducted as part of the research on the upholstered 
furniture rule, which reviewed the effect of certain fire barriers on 
the flammability of upholstered chairs. The foam used under the fire 
barriers in those tests represented both flame-retardant-treated and 
nonflame-retardant-treated foam. At the conclusion of those tests, 
staff noted that the addition of a ``fire barrier markedly increased 
the fire safety of the furniture.'' \4\ As part of the testing, staff 
also noted that ``the fire-retardant foams did not offer a practically 
significantly greater level of open-flame safety than did the untreated 
foams.'' \5\
---------------------------------------------------------------------------
    \3\ See Memorandum from Shivanti Mehta to Dale R. Ray, 
``Upholstered Furniture Full Scale Chair Tests--Open Flame Ignition 
Results and Analysis'' (dated May 9, 2012), available at http://
www.cpsc.gov/library/foia/foia12/os/openflame.pdf.
    \4\ Id. at 23.
    \5\ Id.
---------------------------------------------------------------------------
    The proposal also aligns with previous CPSC rules regarding the 
flammability of consumer products, such as CPSC's 2006 final 
flammability rule for mattresses and mattress foundation sets, which 
also sets a performance-based standard that does not require the use of 
flame-retardant chemicals.\6\
---------------------------------------------------------------------------
    \6\ See Final Rule, Standard for the Flammability (Open Flame) of 
Mattress Sets, 71 Federal Register 13472 (March 15, 2006); see also 16 
CFR 1633.
---------------------------------------------------------------------------
    Since issuance of the NPR in 2008, CPSC staff has worked diligently 
with stakeholders and other interested parties to finalize the rule and 
conduct associated testing. In doing so, they have faced several 
significant challenges.
    One substantial challenge CPSC staff has faced is the development 
of reasonable and repeatable testing requirements to ensure compliance 
with any new rule. One component of this is developing appropriate 
scale tests that can account for the diversity of upholstered furniture 
products. Unlike other products, such as mattresses, furniture comes in 
a multitude of sizes and shapes, making representative and repeatable 
testing mechanisms a substantial undertaking.
    As part of this proceeding staff has also been working with other 
organizations, such as the National Institute for Standards and 
Technology, to develop standard reference materials, such as standard 
test cigarettes and standard test foam, which can be part of the 
representative and repeatable testing mechanisms detailed above. As 
Chairman, I have recently allocated substantial additional resources to 
these efforts and we are making progress towards these goals.
    The second and most significant challenge is the statutory 
requirement that CPSC issue any flammability standards for fabrics, 
related materials, or products including interior furnishings pursuant 
to section 4 of the Flammable Fabrics Act (FFA).\7\ Like section 9 of 
the Consumer Product Safety Act, section 4 of the FFA requires that 
CPSC make a series of very detailed and onerous findings before a final 
rule can be issued, including determinations that the standard is 
``needed to protect the public against unreasonable risk of the 
occurrence of fire leading to death or personal injury, or significant 
property damage''; that expected benefits from the regulation bear a 
reasonable relationship to its costs; and that the regulation is the 
least burdensome alternative that prevents or ``adequately reduces'' 
the risk of injury. In addition, if there is a relevant voluntary 
standard that has been adopted and implemented, CPSC must determine 
that the voluntary standard is not likely to adequately reduce the risk 
of injury or that substantial compliance with it is not likely.
---------------------------------------------------------------------------
    \7\ 15 U.S.C. 1193.
---------------------------------------------------------------------------
    As part of the Consumer Product Safety Improvement Act of 2008 
(CPSIA), the Congress recognized the burden that CPSA section 9 
requirements placed on CPSC's ability to issue mandatory rules 
protecting the public from a number of potential hazards, and moved to 
ease this burden in several areas. One key example is section 104 of 
the CPSIA, where the Congress gave CPSC streamlined authority to adopt 
new mandatory standards for durable infant and toddler products.
    Under section 104, CPSC must adopt standards for certain infant and 
toddler products that are ``substantially the same as'' relevant 
voluntary standards or ``are more stringent than such voluntary 
standards, if CPSC determines that more stringent standards would 
further reduce the risk of injury associated'' with those products. 
This section has allowed CPSC to expeditiously adopt standards 
protecting infants and young children in cribs, play yards, bath seats, 
walkers, and toddler beds. Speaking personally in my capacity as 
Chairman, I believe an amendment to the FFA permitting this type of 
flexibility for rules regarding flammability of upholstered furniture 
would be very helpful and may allow for expedited consideration of the 
proposed rules.
    Chairman Durbin, thank you again for the opportunity to testify on 
CPSC's ongoing efforts to address the flammability of residential 
upholstered furniture.
    I am happy to answer any questions you may have.

    Senator Durbin. And now let me introduce James J. Jones, 
Acting Assistant Administrator of the Office of Chemical Safety 
and Pollution Prevention at EPA.
    Please proceed.
STATEMENT OF JAMES J. JONES, ACTING ASSISTANT 
            ADMINISTRATOR, OFFICE OF CHEMICAL SAFETY 
            AND POLLUTION PREVENTION, ENVIRONMENTAL 
            PROTECTION AGENCY
    Mr. Jones. Good afternoon, Chairman Durbin and Senator 
Lautenberg.
    Thank you for the opportunity to address you on the reform 
of chemicals management, and our authority to assess the safety 
of flame-retardant chemicals.
    Ensuring chemical safety, maintaining public confidence 
that EPA is protecting the American people, and promoting our 
global leadership in chemicals management remain top priorities 
for EPA and Administrator Jackson.
    Chairman Durbin and Senator Lautenberg, I want to thank you 
both as well for your continued leadership on this important 
issue and the efforts you've brought about to help reform TSCA. 
I also want to thank Chairman Tenenbaum for her work on flame 
retardants.
    With each passing year, the need for TSCA reform grows. 
Chemicals are found in most everything we use and consume, and 
they're also essential for our health, our well being, and our 
prosperity. It should be equally essential that chemicals are 
safe.
    But I'd also like to discuss a prime example of the 
shortcomings of TSCA that stands as a clear illustration for 
the need for TSCA reform.
    So what are the key problems with TSCA? When enacted, TSCA 
grandfathered in--without any evaluation--the 62,000 chemicals 
in commerce that existed in 1976. The TSCA inventory currently 
lists more than 84,000 chemicals, few of which have been 
studied for their risks, especially to children.
    Unlike the laws applicable to drugs and pesticides, TSCA 
does not have any mandatory program where EPA must conduct a 
review to determine the safety of existing chemicals. 
Manufacturers do not need to demonstrate the safety of new 
chemicals before they are introduced into the marketplace. When 
EPA determines that a chemical poses a significant health 
concern, taking action under TSCA to limit or ban a chemical is 
challenging.
    In September 2009, EPA Administrator Lisa Jackson announced 
a set of administration principles to update and strengthen 
TSCA. These principles include that manufacturers should 
provide EPA with the necessary information to conclude that new 
and existing chemicals are safe.
    EPA should have the tools to quickly and efficiently obtain 
information from manufacturers that is relevant to determining 
the safety of chemicals. EPA should also have clear authority 
to assess chemicals against the safety standard and to take 
risk management actions when chemicals do not meet safety 
standards. These are three of the key principles and there are 
several others.
    While the legislative reform process is underway, we are 
not just standing by. EPA is utilizing the current authority 
under TSCA to help protect human health and the environment.
    Earlier this year, we developed a screening process to 
identify chemicals for review based on their hazard, exposure, 
persistence, and bioaccumulative characteristics. EPA 
identified 83 chemicals for risk assessment with an initial 7 
for assessment in 2012.
    In June of this year, we identified an additional 18 
chemicals that the agency intends to review and then develop 
risk assessments in 2013 and 2014, including 3 flame-retardant 
chemicals.
    EPA's experience with one flame retardant in particular 
highlights the limitations of TSCA. EPA first reviewed a new 
flame-retardant component, TBB, in several products in 1995 for 
use in foam and, at that time, was unable to identify that it 
was persistent and bioaccumulative. We only learned of these 
properties after the chemical was in commerce and was later 
found in humans and the environment.
    TBB is one of the flame retardants EPA will evaluate in 
2013, 18 years after it was introduced into the market.
    This is an example that highlights the critical need for 
the agency to have greater evidence that new chemicals are safe 
prior to commercialization and stronger tools to take action 
after they are on the market to ensure safety.
    The American public has the right to expect that chemicals 
manufactured, imported, and used in this country are safe. And 
the EPA needs an effective law that gives us the tools 
necessary to provide the public with this assurance.

                           PREPARED STATEMENT

    TSCA must be updated and strengthened, so that EPA has the 
tools to do the job of protecting public health and the 
environment. And the time to fix this badly outdated law is 
now.
    And I would be pleased to answer any questions you have.
    [The statement follows:]
                  Prepared Statement of James J. Jones
    Good afternoon Chairman Durbin, Senator Lautenberg, and members of 
the subcommittee. Thank you for the opportunity to address the 
subcommittee today on the reform of chemicals management in the United 
States and the Environmental Protection Agency's (EPA) authority to 
assess the safety of flame-retardant chemicals under the Toxic 
Substances Control Act (TSCA). Ensuring chemical safety, maintaining 
public confidence that EPA is protecting the American people, and 
promoting our global leadership in chemicals management remain top 
priorities for EPA and Administrator Lisa P. Jackson.
    Chairman Durbin and Senator Lautenberg, I want to thank you both, 
as well as members of this subcommittee for your continued leadership 
on this very important issue and your efforts to bring about reform of 
TSCA. With each passing year, the need for TSCA reform grows--the 
importance and prevalence of chemicals in our daily lives increases, 
and yet there remain significant gaps in our knowledge and 
understanding of many of these chemicals. The time to bring TSCA into 
the 21st century is long overdue. Today, we also want to discuss a 
prime example of the shortcomings of TSCA--the limited success and long 
history of the EPA's work on brominated flame retardants--that stands 
as a clear illustration of the need for TSCA reform.
    Chemicals are found in most everything we use and consume, and can 
be essential for our health, our well being, and our prosperity. It 
should be equally essential that chemicals are safe. Compared to 30 
years ago, we have a better understanding of the environmental impacts, 
exposure pathways, and distressing health effects some chemicals can 
have--especially on children. While our understanding of chemical 
safety is constantly evolving, significant gaps in our scientific 
knowledge regarding many chemicals remain. For these reasons, it is 
critical that we close those knowledge gaps. Recent press reports on 
flame retardants highlight the public health risks posed by certain 
chemicals such as flame retardants. Public understanding of these risks 
is growing, and that is why the public is increasingly demanding that 
the Government provide an assurance about chemicals, even chemicals 
like flame retardants that can also provide significant benefits. To 
date, based on these concerns, EPA helped negotiate voluntary phase-
outs of several of the more toxic retardants, and has also initiated 
regulatory actions; however, as explained in more detail below, TSCA 
reform would have given EPA additional tools to address this serious 
issue.
             background on the toxic substances control act
    EPA's chemical management authority is carried out under TSCA--a 
law that when enacted in 1976 was an important step forward to protect 
human health and the environment. But today, TSCA is the only major 
environmental statute that has not been reauthorized. Over the years, 
not only has TSCA fallen behind the rapidly advancing industry it is 
intended to regulate, it has also proven an inadequate tool for 
providing the protection against chemical risks that the public 
rightfully expects and deserves.
    When TSCA was enacted, it grandfathered in, without any evaluation, 
the 62,000 chemicals in commerce that existed in 1976. The TSCA 
inventory currently lists more than 84,000 chemicals, few of which have 
been studied for their risks, especially to children. Unlike the laws 
applicable to drugs and pesticides, TSCA does not have a mandatory 
program where EPA must conduct a review to determine the safety of 
existing chemicals.
    And the process of requiring testing through rulemaking chemical-
by-chemical has proven time consuming. As a result, in the 35 years 
since TSCA was passed, we have only been able to require testing on 
approximately 200 of the 84,000 chemicals listed on the TSCA inventory. 
EPA has also relied on voluntary programs to collect data, including 
through the High Production Volume (HPV) Challenge Program, which 
resulted in the submittal of screening level data for 1,366 HPV 
chemicals.
    When EPA determines that a chemical poses a significant health 
concern, taking action under TSCA to limit or ban a chemical is 
challenging. For example, in 1989, after years of study and nearly 
unanimous scientific opinion, EPA issued a rule phasing out most uses 
of the cancer causing substance asbestos. Yet, a Federal court 
overturned most of this action because EPA failed to clear the hurdles 
imposed under TSCA before existing chemicals can be controlled.
    Today, advances in toxicology and analytical chemistry are 
enhancing our understanding of the implications of multiple pathways of 
exposure, and a better understanding of the cumulative effects and 
interactions between the chemicals in the products we use every day. 
EPA is working to develop methodology to address potential health 
effects of multiple chemical exposures and evaluate cumulative risks. 
When TSCA was enacted, there was not the understanding of the subtle 
effects chemicals may have on hormone systems, human reproduction, and 
intellectual development and cognition, particularly in young children.
  essential principles for reform of chemicals management legislation
    In September 2009, EPA Administrator Jackson announced a set of 
administration principles to update and strengthen TSCA. These include 
that EPA should have the tools to quickly and efficiently obtain 
information from manufacturers that is relevant to determining the 
safety of chemicals. EPA also should have clear authority to assess 
chemicals against a safety standard and to take risk management actions 
when chemicals do not meet the safety standard.
    At the same time, Administrator Jackson also affirmed that, while 
the legislative reform process is underway, EPA is committed to 
utilizing the current authority under TSCA to the fullest extent to 
protect human health and the environment.
                          work plan chemicals
    Earlier this year, EPA developed a screening process to identify 
chemicals for review based on their combined hazard, exposure, and 
persistence and bioaccumulation characteristics. This process included 
criteria specifically targeted at identifying chemical risks to 
children. Following this initial screen, EPA identified 83 work plan 
chemicals for risk assessment in the TSCA chemicals management program, 
with an initial seven for risk assessment in 2012.
    On June 1, 2012, EPA identified an additional 18 chemicals that the 
Agency intends to review and then develop risk assessments in 2013 and 
2014, including 3 flame-retardant chemicals--Bis(2- Ethyl hexyl)-
3,4,5,6-tetrabromophthalate (TB PH), 2-Ethyl hexyl-2,3,4,5-
tetrabromobenzoate (TBB), and Tris(2-chloroethyl)phosphate (TCEP). EPA 
is currently developing a strategy, scheduled for completion by the end 
of this year that will address these three and a broader set of flame-
retardant chemicals. This effort will assist EPA in focusing risk 
assessments on those flame-retardant chemicals that pose the greatest 
potential concerns. EPA anticipates initiating the risk assessments on 
this category of chemicals in 2013.
        polybrominated diphenyl ether flame-retardant chemicals
    EPA is concerned that polybrominated diphenyl ethers (PBDEs) are 
persistent, bioaccumulative, and toxic to both humans and the 
environment. A critical endpoint of concern for human health is 
neurobehavioral effects during development, which makes them a concern 
for children's health. Various PBDEs have also been studied for 
ecotoxicity in mammals, birds, fish, and invertebrates. In some cases, 
current levels of exposure for wildlife may be at or near adverse 
effect levels.
    PBDEs are not chemically bound to plastics, foam, fabrics, or other 
products in which they are used, making them more likely to leach out 
of these products. Despite the U.S. phasing out the manufacture and 
import of penta- and octaBDE in 2004, their component congeners PBDEs 
are still being detected in humans and the environment. Some reports 
indicate that levels are increasing.\1\ One potential source is 
imported articles to which these compounds have been added. Another is 
the breakdown of decaBDE in the environment to more toxic and 
bioaccumulative PBDE congeners. In late 2009, the U.S. manufacturers of 
decaBDE announced that they intend to voluntarily phase out most uses 
of decaBDE by the end of 2013.
---------------------------------------------------------------------------
    \1\ Shaw SD, Kannan K. 2009. Polybrominated diphenyl ethers in 
marine ecosystems of the American continents: foresight from current 
knowledge. Rev Environ Hlth 2009, 24, 157-229
---------------------------------------------------------------------------
   efforts on polybrominated diphenyl ether flame-retardant chemicals
    In late 2009, EPA released an Action Plan for addressing concerns 
with PBDE flame-retardant chemicals and recently issued proposed rules 
that would require additional testing on these chemicals and require 
EPA review any new uses of these chemicals, including imported 
articles. EPA also helped facilitate an industry plan to phaseout 
decaBDE and launched a multi-stakeholder partnership to assess 
alternatives for this chemical to help move the market to safer 
chemicals. This follows EPA's earlier facilitation of an industry 
phaseout of two other widely used PBDE flame retardants, pentaBDE and 
octaBDE in 2004 and an associated partnership to help identify safer 
flame retardants for use in polyurethane foam.
    In its 2009 Action Plan, EPA committed to support and encourage the 
voluntary phase out of the manufacture and import of decaBDE. Developed 
with public participation through EPA's Design for the Environment 
Program, EPA will shortly release the draft alternatives assessment on 
decaBDE for public comment. This assessment will profile the 
environmental and human health hazards on 30 alternatives to decaBDE. 
By providing a detailed comparison of the potential human health and 
environmental effects of chemical alternatives, EPA can help 
manufacturers identify and transition to safer alternative flame-
retardant chemicals.
    EPA first reviewed a new flame-retardant component of several 
products in 1995 for use in polyurethane foam and was unable to 
identify that a component of flame retardants was persistent, 
bioaccumulative and toxic. Later, after the chemicals were in commerce, 
information became available that showed the chemicals were being found 
in humans and the environment. This is an example that highlights the 
critical need for the agency to have greater evidence that new 
chemicals are safe prior to commercialization and to be able to take 
effective action after commercialization, when needed. Unfortunately, 
taking the necessary steps to ensure that chemicals already in commerce 
are safe can be a cumbersome, involved regulatory process that can take 
years.
    While the latest steps taken by EPA are clearly a step forward, 
they must be viewed in the context of what has been a long history of 
actions on flame retardants, a history that has stretched over the 
course of two decades with a range of voluntary efforts and regulatory 
actions on flame-retardant chemicals in both EPA's new and existing 
chemicals programs. The long history of EPA's action on brominated 
flame retardants is tied in no small part to the shortcomings of TSCA.
                                summary
    Simply put, EPA may have made a different determination in 1995 if 
TSCA required the submission of more robust hazard, exposure, and use 
data needed to adequately assess risk, and EPA may have been able to 
act more quickly and effectively on the risk information available if 
TSCA provided more robust tools to deal with chemicals already 
introduced into commerce. The American public has the right to expect 
that the chemicals manufactured, imported, and used in this country are 
safe and EPA needs an effective law that gives us the tools necessary 
to provide the public with this assurance. The time is now to fix this 
badly outdated law. TSCA must be updated and strengthened so that EPA 
has the tools to do our job of protecting public health and the 
environment.
    I would be happy to answer any questions you may have.

    Senator Durbin. Thank you very much.
    Chairman Tenenbaum.
    Ms. Tenenbaum. Yes.
    Senator Durbin. You mentioned that the NPR was announced in 
March 2008, which was--what?--4 years ago. But, actually, 
didn't CPSC begin the rulemaking process under the Flammable 
Fabrics Act in 2003?
    Ms. Tenenbaum. Yes, we have a long history of rulemaking in 
this regard. And, really, it began even before then when CPSC, 
at the time, asked the staff to develop an open-flame 
upholstered furniture rule.
    And then in 1999, the Congress asked CPSC to study flame-
retardant chemicals. We studied 16 chemicals. We worked with 
the National Academy of Sciences, and eight of those flame-
retardant chemicals were found to be carcinogens.
    So this has gone on for some time with the work on 
carcinogens. Now the new rule we're working on is a smoldering 
ignition rule and not an open flame.
    Senator Durbin. So let me just ask, the average person on 
the street, if you said to them, we have a Government agency, 
which is funded, with experts and laboratories, and we've asked 
them to figure out how to keep our furniture safe so it is less 
likely to catch fire, and less likely to kill us, they've been 
at it now for 9 years, make that 4 years.
    Ms. Tenenbaum. We've been at it, yes, for at least that 
long.
    Senator Durbin. And the obvious question from the person on 
the street is, when does this end? At one point you said to me 
that the cigarette you were using, Pall Malls, were no longer 
made, so you had to start over or find a new standard 
cigarette.
    I think here's the way I'm coming at it. I look at UL. I 
subscribe to ``Consumer Reports''. They're testing constantly. 
And they apparently come up with timely results.
    Is the Congress the problem here? Have we created obstacles 
for you in this testing process, where you can't come to a 
timely finding that might be of value to consumers across 
America?
    Ms. Tenenbaum. I think that the Flammable Fabrics Act 
places an onerous burden on CPSC with cost-benefit analysis. 
Not only do we have to look at and analyze what we're going to 
put in a rule, we have to analyze the alternatives and why they 
won't work.
    So we did have a setback with Pall Mall, because they 
stopped manufacturing the filterless cigarette, when they were 
required by law to manufacture self-extinguishing cigarettes 
and stop making the filterless cigarette that we used as 
standard reference material.
    So we worked with the National Institute of Standards and 
Technology (NIST) for 2 years, and now they have a standard 
cigarette. The next thing we had to do----
    Senator Durbin. Two years.
    Ms. Tenenbaum. Two years.
    During this time period, they were also working on standard 
foam. A rule requires a test that's repeatable. So NIST has 
been working on standard foam, and they have finished that 
work. And we're looking at whether we should use small-scale 
tests vs. full-scale tests. This model is small-scale testing. 
This is how we test. This is the foam. You put the cigarette 
right here. You cover it up.
    You have to determine: Is this repeatable with this size or 
do you have to do full scale? You must test the number of 
furniture designs, the number of different fabrics, and you had 
to have a standard cigarette, and standard foam. So we have now 
completed all that work.
    But let me say one thing----
    Senator Durbin. I want to make a point here, if I might.
    Ms. Tenenbaum. Please.
    Senator Durbin. I guess the obvious question most people 
would ask is, how can we have reached the point where Europe 
has figured this out, or at least believes they have, and we 
are still testing away here?
    Many European countries have taken steps to ensure 
flammability standards. The United Kingdom has banned the use 
of conventional flexible polyurethane foam in the manufacture 
of upholstered furniture.
    [The information follows:]

    While it is true that in the United Kingdom, there are furniture 
and bedding flammability standards, flexible polyurethane foam has not 
been banned in the United Kingdom or anywhere in the world. Complying 
with U.K. standards requires the addition of substantial amounts of 
flame-retardant chemicals to polyurethane foam, usually in the form of 
melamine with a chlorinated ``carrier'', such as Tris (1-chloro-2-
propyl) phosphate. Nonflame-retardant foams do not work in testing 
standard applications such as British Standard 5852. Other European 
countries do not have similar flammability standards. Some of the 
Scandinavian countries, such as Norway, are pursuing development of a 
flammability standard; however, none has adopted one yet.
    At the most recent EUROPUR meetings in Budapest, Hungary in June 
2012 (EUROPUR is the European equivalent of the Polyurethane Foam 
Association), flammability issues were discussed with representatives 
from many European countries and heard a presentation regarding the 
efforts in Scandinavian countries to address the impact of adopting 
upholstered furniture flammability standards. It was in this 
presentation that the discussion took place regarding the efforts in 
Norway to establish a furniture flammability standard and the 
difficulties faced in deciding whether to adopt a standard. European 
countries are struggling with the same issues as we are in the United 
States regarding upholstered flammability furniture standards.

    Senator Durbin. In addition, many European countries have 
banned the use of PDBEs and greatly restricted other flame-
retardant chemicals.
    It appears that there is a body of study and investigation 
that is taking place in other countries, leading them to change 
the products that consumers have available, and the United 
States just keeps studying away.
    Now I know from the congressional side of this that the 
industry will come in whenever there's an effort to regulate 
and have oversight, and create what they consider to be 
safeguards for their products.
    But ultimately, at the end of the day, it seems to me that 
the losers are the American consumers. They don't know what's 
right, what's safe, and we're not doing our job for them.
    Ms. Tenenbaum. CPSC does not require flame retardants for 
any of the textiles or furniture that we oversee.
    We do not advocate for flame retardants. We don't require 
flame retardants to meet any of our standards. So comparing us 
to Europe or to California is really not a fair comparison, 
because we don't require flame retardants to meet any of our 
standards.
    Senator Durbin. But, Chairman Tenenbaum, what I did note 
was that there was a change in the type of furniture that is 
sold in Europe, too, beyond the flame-retardant chemicals.
    I see my time is up, and I want to give Senator Lautenberg 
a chance to ask.
    We're going to face a rollcall vote soon.
    Go ahead.
    Senator Lautenberg. Thanks.
    Ms. Tenenbaum, nice to see you here and listen to what each 
of you have said.
    And, Mr. Jones, Senator Snowe, and I recently, as I 
mentioned, sent a letter to EPA signed by 24 of our Senate 
colleagues, applauding EPA's current actions on polybrominated 
diphenyl ethers (PBDEs). The letter also expressed concern that 
EPA's authority to address PBDEs is limited under our current 
chemical safety law, TSCA.
    [The information follows:]
                                      United States Senate,
                                      Washington, DC, July 9, 2012.
Hon. Lisa P. Jackson, Administrator,
Environmental Protection Agency,
Washington, DC.
    Dear Administrator Jackson: We are writing to express our support 
for the Environmental Protection Agency's (EPA) actions to address a 
class of flame retardant chemicals called polybrominated diphenyl 
ethers (PBDEs). These flame retardant chemicals are found in a number 
of everyday consumer products, including furniture, plastics, and even 
baby products. According to the EPA, these toxic chemicals are 
suspected to cause cancer and have been linked to serious neurological 
and reproductive diseases. We urge the agency to move forward as 
quickly as possible with its current efforts to protect American 
families from the toxic effects of PBDEs.
    PBDEs are mixed into a number of household products in order to 
raise the temperature at which they burn, purportedly making the 
products more flame resistant. However, the Consumer Product Safety 
Commission found that these chemicals do not provide any significant 
protection against the risk of fires. Instead, it has become clear that 
PBDEs can increase human health risks and that the chemicals easily 
spread and accumulate in the environment and living organisms, 
including people.
    We are deeply alarmed that peer-reviewed research has found that a 
typical American baby is born with the highest recorded concentrations 
of flame retardants among infants in the world. This is a serious 
threat to our children's health because PBDEs interfere with the body's 
hormone systems, and studies in animals suggest they can cause 
cancerous tumors, birth defects, and other developmental disorders. 
Researchers have found that children's exposure comes primarily through 
household dust, making babies and toddlers particularly vulnerable 
since they spend a significant amount of time playing on the floor.
    Despite the danger to public health, a recent investigative report 
by the Chicago Tribune revealed that flame retardant manufacturers may 
have misled the public for decades regarding both the risks and 
efficacy of these chemicals. Due to industry opposition to common sense 
reforms at both the Federal and State level that would limit the use of 
these chemicals, PBDEs and other flame retardants continue to be used 
in a significant number of everyday products.
    In response, EPA has adopted an action plan for PBDEs using its 
existing authority under the Toxic Substances Control Act (TSCA). This 
plan reflects the agency's assessment that PBDEs are persistent, 
bioaccumulative, and toxic to both humans and the environment. 
Currently, the agency is accepting public comment on two paired 
rulemakings related to PBDEs. The first action would amend the current 
Significant New Use Rule (SNUR) to require any manufacturer, importer, 
or processor of seven different PBDEs, or articles containing them, to 
submit a notification to EPA at least 90 days before beginning new 
activities involving these chemicals. The second rulemaking would 
require those insisting on continuing to use these chemicals to develop 
the data EPA would need to fully evaluate the health and safety effects 
of this class of toxic chemicals. We support these efforts and urge EPA 
to finalize and implement these rulemakings as quickly as possible 
following the public comment period.
    While we commend the EPA for taking steps to address PBDEs, it is 
concerning that the agency must undertake lengthy rulemaking processes 
merely to secure additional health and safety data on a chemical of 
concern and to receive notifications regarding expansions of its uses. 
Further, EPA is not evaluating steps to actually restrict existing 
unsafe production and uses of these toxic flame retardants. This 
reinforces why there is broad agreement that TSCA must be reformed to 
protect American families from dangerous chemicals in a cost-effective 
way and we urge you to continue to work with Congress to enact 
consensus reforms.
    Americans deserve to know that the chemicals used in everyday 
consumer products are safe. EPA's current action to address the health 
risks of PBDEs is an important first step towards protecting Americans 
from the risks posed by these pervasive chemicals and we look forward 
to working with you to enact these reforms.
            Sincerely,
                    Frank R. Lautenberg; Olympia J. Snowe; Richard J. 
                            Durbin; Lisa Murkowski; Charles E. Schumer; 
                            Susan M. Collins; Ron Wyden; Bernard 
                            Sanders; Richard Blumenthal; Al Franken; 
                            Joeseph I. Lieberman; Patrick J. Leahy; Tom 
                            Harkin; Dianne Feinstein; Sheldon 
                            Whitehouse; Kirsten E. Gillibrand; Jeff 
                            Merkley; Jon Tester; Jack Reed; Tom Udall; 
                            John F. Kerry; Amy Klobuchar; Maria 
                            Cantwell; Michael F. Bennet; Daniel K. 
                            Akaka; Sherrod Brown.

    Senator Lautenberg. What additional steps might EPA take to 
protect American families on PBDEs, if the Congress enacted 
TSCA reform?
    Mr. Jones. Thank you, Senator Lautenberg.
    We appreciate the letter of support for the actions that 
we're taking on the PBDEs. These are a group of flame 
retardants that are being phased out in the United States, and 
we're putting into place a backstop, we hope, known as the 
significant new use rule, that hopefully will keep new 
manufacturers of PBDEs from potentially other parts of the 
world from sending those chemicals into the United States.
    One of the limitations under existing TSCA is that somebody 
from another country could bring a significant new use notice 
to EPA without any data supporting the safety of those 
compounds. And we, again, at EPA would be confronted with 
making judgments around these chemicals without any evidence of 
safety.
    Closing that loophole under TSCA reform would be very 
helpful, which I think has been considered in your Safe 
Chemicals Act.
    It also raises the question of all of the other flame 
retardants and the provisions that previous versions of the 
Safe Chemical Act have included, which involve manufacturers 
having data demonstrates safety of those compounds so that the 
agency can evaluate their safety, and the tools necessary to 
manage risks, if risks are unacceptable, would be very useful 
as well.
    Senator Lautenberg. Yes, in your written testimony, you say 
EPA would like to do more to protect the public from the risks 
of flame retardants, but it is limited, again, by its current 
authority.
    Would additional authority provided--you've looked at my 
Safe Chemicals Act--allow EPA to better address those risks?
    Mr. Jones. Absolutely. The example that I described earlier 
of TBB, where the manufacturer is not required to provide any 
information to EPA demonstrating safety, which is a hallmark 
under the Safe Chemicals Act, would be very important to 
ensuring that new chemicals are safe.
    Giving EPA the authority to get health and safety data for 
existing chemicals is critically important for our ability to 
demonstrate the chemicals are safe. And then the tools 
necessary to effectively manage risks from chemicals when risks 
are identified is also very important.
    So I think all of those elements, which are in the Safe 
Chemicals Act, are critically important to EPA being able to 
demonstrate that we have safe chemicals in the United States.
    Senator Lautenberg. A number of States have banned the use 
of some toxic flame retardants because of public health 
concerns. Other States are considering similar actions. Now, if 
EPA had greater authority under TSCA to address these 
chemicals, do you think that the States would continue pursuing 
efforts to ban flame retardants and other chemicals?
    Mr. Jones. Thanks, Senator. When I speak with my 
counterparts in State agencies, those in particular who are 
active in regulating chemicals, they are hopeful that EPA is 
more active in assessment and regulation of chemicals.
    They are very constrained in their resources. They are 
responding to the people of their States. But they really wish 
EPA would, in my words, occupy the space more effectively.
    And I think their sense is that, if we did that, that they 
would not have to be as active as they have been.
    Senator Lautenberg. Mr. Chairman, I'll ask one more 
question.
    Ms. Tenenbaum, CPSC has done extensive testing on the 
flammability of different products. Based on this analysis, do 
you think that the addition of flame retardants in furniture 
foam has provided Americans with any significant protection 
from household fires?
    Ms. Tenenbaum. Our tests that we conducted on foam that was 
treated with flame-retardant chemicals and foam that was not, 
showed that there was no difference in terms of retarding the 
flame.
    However, if you put a barrier behind the furniture, that 
has a much more significant result in stopping the fire and 
retarding the growth of the fire.
    So the answer is no.
    Senator Lautenberg. Yes, thank you.
    Thanks, Mr. Chairman.
    Senator Durbin. Senator Lautenberg, you've hit the nail on 
the head, because if these chemicals don't make our homes 
safer--and that's what Chairman Tenenbaum has said; I think the 
UL testimony will back that up as well--the obvious question 
is, is exposure to these chemicals a danger?
    And I think it goes back to a point you made in your 
opening, Senator Lautenberg: Most Americans incorrectly, 
falsely, assume that if a product is for sale in the United 
States, someone who cares for their interest--not an economic 
interest, but cares for the health interest of Americans--has 
taken a look at it and said it's safe to sell.
    So let's get on the record, here, Mr. Jones. In terms of 
chemicals used throughout our economy--in this case, furniture 
in particular--there's no pre-clearance through EPA of these 
chemicals, is there?
    Mr. Jones. Thanks, Senator Durbin.
    The manufacturers for a new chemical--a new chemical, not 
one that was manufactured before 1976--must bring to EPA a 
notice prior to going to market. They are not required, 
however, to submit to EPA or to generate any health and safety 
data unless they already have.
    And so EPA uses what knowledge we have to make judgments 
about whether or not we believe that chemical is going to be 
safe.
    We are significantly limited by what is provided to us by 
the manufacturers.
    Senator Durbin. So let's do a sharp contrast with another 
role of our Federal Government.
    When it comes to prescription drugs, in order for a company 
to legally sell prescription drugs in America, they must 
establish that that compound, that chemical compound, is both 
safe and effective, safe to the consumer and effective for the 
purpose sold. And until they establish that, they cannot 
legally sell that pharmaceutical in America.
    Now, in your world of chemicals, and let's deal with post-
1976 after the 67,000, did you say?
    Mr. Jones. Right.
    Senator Durbin. That were grandfathered in, when it comes 
to new chemicals, is there a legal burden on those who 
introduce them into commerce to establish that they are safe 
for exposure to human beings, and effective for the purpose 
stated?
    Mr. Jones. There is no legal burden on the manufacturer to 
demonstrate to EPA or to anyone else that the products that 
they are going to be selling are safe. They need to submit the 
name of the chemical and a few other pieces of information to 
EPA, and the burden is on us to demonstrate that it is not 
safe.
    Senator Durbin. And you're dealing with 13,000 or 14,000 
chemical compounds?
    Mr. Jones. There have been more than 26,000 new chemicals 
since TSCA was originally passed.
    Senator Durbin. And according to Senator Lautenberg and 
things that I've read, you've been able to look at several 
hundred. Is that correct?
    Mr. Jones. Of existing chemicals, we have required testing 
of several hundred. We have looked at the 26,000 new chemicals 
that came to us.
    But again, they do not need to submit any health and safety 
data, unless they already generated it, to EPA. And so we are 
trying to use our judgment, often in the absence of data, to 
determine whether or not there's some reason to be concerned.
    I think often we do a good job of that. I think TBB is an 
example of where we missed it. We missed an issue that 
ultimately----
    Senator Durbin. TBB being a flame retardant.
    Mr. Jones. TBB being the flame retardant in Firemaster.
    Senator Durbin. So the premise is, from Chairman Tenenbaum 
and later from UL, these chemicals do not make us any safer. 
Number two, these chemicals in and of themselves could cause 
some health problems.
    It's my understanding that scientific data says exposure to 
flame-retardant chemicals can lead to liver, thyroid problems, 
cancer, and other developmental defects. Is that not correct?
    Mr. Jones. That's correct.
    Senator Durbin. There is no evidence, or there is no 
requirement, I should say, under the law that they be proven 
safe before they're introduced into commerce. And now we are 
finding concentrations in our babies and infants, unlike any 
other country in the world.
    Now, if this isn't a call to arms across America from 
families, including families with grandparents like me, who 
have little toddlers now bouncing around on the floor when I'm 
sitting on these cushions and spraying these chemicals out, I 
don't know what is.
    So at this point, the TSCA law that Senator Lautenberg has 
introduced, and I'm cosponsoring, would give you new authority 
in this area, if you could describe it.
    Mr. Jones. Thank you, Senator.
    The authorities that we would get under the Safe Chemicals 
Act are the manufacturers would need to have information to 
demonstrate the safety of the chemicals that they would submit 
to EPA, and EPA would make a judgment about the safety. So the 
burden would shift to the manufacturers to demonstrate safety.
    For chemicals already on the market, the agency would be 
able to compel the generation of health and safety data in a 
way that isn't so burdensome. And then we would also have tools 
that would allow us to quickly and efficiently remove unsafe 
uses of compounds from the market.
    Senator Durbin. And just one point I'll make before we 
break--I think we have to vote, Frank.
    One point I'll make is that Firemaster 550, one of these 
flame-retardant chemicals mentioned in the Chicago Tribune 
articles, originally developed as an environmentally friendly 
alternative to PBDEs, the fire-retardant chemicals.
    However, new research on Great Lakes fish shows the 
chemical is accumulating and causing DNA damage to the fish in 
the Great Lakes.
    When TBB, a component of Firemaster 550, was first 
submitted in 1995, EPA then identified possible negative health 
impacts of using this chemical. Is that not correct?
    Mr. Jones. In 1995, the mistake that the agency made was 
that we hadn't figured out that that chemical was going to be 
persistent or bioaccumulative. Those are the properties that 
have ultimately led TBB to be in the environment in places we 
never thought it would have been. So it was missing those 
characteristics, because we had no basis to determine 
otherwise. That has led to the exposures that you've described.
    Senator Durbin. So it would seem to me interesting that 
when it comes to the regulation of furniture, products before 
CPSC, we have created this rigorous set of tests that need to 
be done by the Government, which make your job that much more 
difficult and takes that much longer.
    And yet when it comes to the chemicals presented by 
industry to use in American commerce, our standards are very 
slight reporting of the chemicals themselves and any evidence 
they've collected. There's a sharp contrast here.
    I'm going to ask this subcommittee to stand in recess for 
about 10 or 15 minutes. We're going to leave and vote and come 
back.
    And Chairman Tenenbaum and Mr. Jones, thank you both for 
your testimony very much.
    We'll have the second panel when we return.
    Thank you.

                       NONDEPARTMENTAL WITNESSES

    Senator Durbin. On our second panel, we're going to hear 
from three witnesses involved in different parts of the 
flammability question.
    Our first witness is August ``Gus'' Schaefer, Sr.--vice 
president and chief safety officer of Underwriters Laboratories 
(UL), in Northbrook, Illinois, responsible for maintaining and 
building UL's public safety mission, including planning, 
directing, and coordinating public safety activities within 
UL's operations all around the world.
    Mr. Schaefer also acts as UL's public safety guardian, 
ambassador, and advocate inside and outside the company to 
ensure that public safety remains a key part of UL's 
relationship with clients and constituents. In this role, he 
leads the UL Corporate Social Responsibility Initiative.
    He's been with them for more than 39 years, holds a 
bachelor's degree in industrial engineering from NYU School of 
Engineering and Science and a certificate in management from 
Long Island's Adelphi University.
    Next we're going to welcome Andy S. Counts. He's the CEO of 
American Home Furnishings Alliance. The American Home 
Furnishing Alliance is the Nation's largest trade association 
for home furnishings manufacturers, importers, and suppliers. 
He's provided a voice on the development and implementation of 
consensus-based environmental regulations and product safety 
standards that impact their industry.
    He has a degree in industrial engineering from the Georgia 
Institute of Technology, and he's served in a number of private 
sector posts, as well as with the Virginia Department of 
Environmental Quality.
    And finally, our third witness is Peter Van Dorpe. He's the 
chief of the Chicago Fire Department's Training Division. Glad 
he's here. He is a 32-year veteran of the Chicago Fire 
Department with a bachelor degree in fire science management 
from Southern Illinois University.
    In addition to his work as field instructor for Illinois 
Fire Service Institute, he's the lead instructor for the 
Chicago Fire Department's Fire Officer School, teaches building 
construction for the Fire Service at Harold Washington College 
in Chicago, and recently participated as a subject-matter 
expert for research conducted by both UL and the National 
Institute of Standards and Technology.
    Mr. Schaefer, you have the floor, followed by Mr. Counts, 
and Mr. Van Dorpe.
    Please proceed.
STATEMENT OF AUGUST ``GUS'' SCHAEFER, SR., VICE 
            PRESIDENT AND CHIEF SAFETY OFFICER, 
            UNDERWRITERS LABORATORIES, INC.
    Mr. Schaefer. Thank you, Chairman Durbin and members of the 
subcommittee, for this opportunity to share UL's research and 
expertise on the subject of furniture flammability.
    UL is a global, independent, voluntary standards developer, 
and product-testing and certification organization dedicated to 
public safety. We have been based in Illinois since our 
founding in 1894 and have about 1,600 employees at our 
Northbrook headquarters.
    UL is driven by our safety mission, which promotes safe 
living and working environments by the application of safety 
science and hazard-based safety engineering.
    UL recently concluded furniture flammability research, and 
we'll be showing video excerpts from our testing.
    The first video shows a side-by-side comparison of a room 
filled with legacy furniture you would expect to find in a home 
in the 1960s and 1970s, and a room with modern day furniture.
    During the past 30-plus years, petroleum-based materials 
such as polyurethane foam and synthetic fabric covers, have 
supplanted natural materials in furnishings. As you can see, 
modern furniture typically ignites faster, burns more 
intensely, releases energy faster, and produces greater amounts 
of smoke.
    As a result, the amount of time available for a safe escape 
from a home fire is much shorter today than in the past and 
results in a disproportionately higher number of home fire 
deaths.
    These results are confirmed through related studies by NIST 
and the National Fire Protection Association (NFPA).
    As part of UL's safety mission, in 2008, we began a self-
funded research project to determine how fire-retardant-treated 
foams and fire barriers can affect fire growth. UL focused our 
research on open-flame testing to complement the smoldering 
ignition research undertaken by the CPSC and the furniture 
industry.
    Our research consisted of material, mockup, and full-size 
furniture tests. We tested a variety of materials, including 
foams treated with and without fire-retardant chemicals, 
polyester microsuede cover fabric, and various barrier 
materials. Using a standard flame and ignition source, we 
measured for heat release rate and mass loss rate.
    While we don't have video footage of flame-retardant-
treated versus nontreated furniture to show you today, our 
tests found that, when compared to untreated contemporary 
furniture, contemporary furniture with flame-retardant foam 
shows a measurable, but not a meaningful difference in time to 
flashover or when the gas is emitted from burning materials 
actually ignite.
    Furniture constructed with a flame barrier has flashover 
times 20 minutes greater than furniture without barriers. This 
would allow residents significantly more time to safely get out 
of their homes.
    We then expanded the scope of our research to understand 
how the fire growth of different furniture materials affects 
survivability for the occupants.
    The second video shows a series of fires in identically 
furnished living rooms. The only differences were the material 
used in the chair and sofa.
    In the four screens, the top left screen contains 
contemporary or modern furniture. The top right screen contains 
legacy furniture. The two bottom screens contain contemporary 
furniture incorporating the fire barrier ignited in different 
locations.
    At 45 seconds, we already see that the flame size in the 
modern furniture is growing at a faster rate. At the 1-minute 
mark, the smoke alarm would have sounded. It takes a person 
about 20 to 40 seconds to react.
    At 1 minute 45 seconds, a fire extinguisher probably would 
not put out the modern furniture fire and the occupant would 
look to escape.
    People take 60 to 90 seconds to gather belongings and 
children, call 9-1-1, and evacuate.
    The modern furniture room in the top left of screen reached 
flashover at 4 minutes and 45 seconds.
    Comparing this with the Chicago Fire Department's goal of 
being on scene within 3 to 5 minutes after notification, we can 
deduce that the rooms furnished with modern furniture often 
reach flashover before the fire services can arrive at the 
scene.
    At 15 minutes, the fire started in the bottom left screen 
with contemporary furniture incorporating a fire barrier 
actually self-extinguished. And at 21 minutes and 45 seconds, 
the barrier-modified furniture in the bottom right screen 
flashes over.
    The living room with legacy furniture finally flashes at 34 
minutes and 15 seconds.
    Based on the data drawn from earlier tests, we sought to 
evaluate smoke alarm response and occupant survivability in 
full-scale homes. We constructed two homes in UL's large-scale 
fire facility, a one-story, 1,200-square-foot home, and a two-
story, 3,200-square-foot home.
    We then repeated the previous experiments inside the homes. 
And though we are still analyzing the results, the preliminary 
data supports our original findings.
    Based on the research we conducted, UL believes, first, 
modern furniture, whether treated or untreated with flame-
retardant chemicals, does not provide sufficient egress time.
    Second, for furniture with a flame barrier, the time to 
flashover is increased to greater than 20 minutes, allowing 
significantly more time for safe evacuation and fire service 
response.

                           PREPARED STATEMENT

    With the convergence of flammability and human health 
impact concerns, UL is beginning to research the nexus of the 
two.
    UL appreciates the opportunity to share our findings, and 
we look forward to working with you and other stakeholders 
moving forward.
    Thank you.
    Senator Durbin. Thank you.
    [The statement follows:]
           Prepared Statement of August ``Gus'' Schaefer, Sr.
    Thank you Chairman Durbin, Ranking Member Moran, and distinguished 
members of the subcommittee for the opportunity to share Underwriters 
Laboratories, Inc.'s (UL) research and expertise on the subject of 
furniture flammability. My name is August ``Gus'' Schaefer--Senior Vice 
President and Public Safety Officer at UL.
    UL is an independent, not-for-profit standards developer and 
product testing and certification organization dedicated to public 
safety. Since our founding in 1894, UL's engineers and staff have 
helped develop safety standards and product-testing protocols, 
conducted independent product safety testing and certification, and 
inspected manufacturing facilities around the world. UL is driven by 
our global safety mission, which promotes safe living and working 
environments by the application of safety science and hazard-based 
safety engineering. The application of these principles manifests 
itself in the evaluation of tens of thousands of products, components, 
materials, and systems for compliance to specific requirements. Through 
these activities, UL actively engages the U.S. Government in its 
development and administration of Federal regulations and conformity 
assessment programs at the Federal, State, and local levels. UL works 
with all participants as a neutral party to ensure the safest possible 
outcome for those who work with and rely on the products at issue.
            fire risk associated with upholstered furniture
    According to the National Fire Protection Association (NFPA), more 
home fire deaths resulted from fires beginning with upholstered 
furniture and mattresses/bedding than any other cause. During the 5-
year period of 2005-2009, these fires accounted for 19 percent and 14 
percent of the deaths and 7 percent and 10 percent of the injuries, 
respectively. They also accounted for $824 million in direct property 
damage.\1\
---------------------------------------------------------------------------
    \1\ NFPA ``Home Structure Fires'', August 2011; http://
www.nfpa.org/assets/files/pdf/os.homes.pdf
---------------------------------------------------------------------------
    During the past 30+ years, residential interiors have changed 
dramatically. Homes have increased in size, the number and amount of 
furnishings and possessions have grown, and petroleum-based synthetic 
materials have supplanted natural materials in furnishings and home 
construction products. The combination of these factors has changed the 
smoke and gas characteristics of residential fires and in some cases, 
accelerated the speed of fire growth.
    For a variety of reasons, manufacturers of home furnishings are 
turning away from materials like wood and natural fibers in favor of 
high-performance, lower-cost synthetic materials. For example, most 
upholstered furniture available today utilizes polyurethane foam for 
padding and synthetic fabric covers, replacing natural padding 
materials like cotton, down and feathers, and cover materials made of 
cotton, wool, linen or silk. While these material changes can lead to 
products that are easier to clean and more resistant to normal wear and 
tear, they also react differently when exposed to an ignition source. 
Studies by UL researchers have found that synthetic materials typically 
ignite faster, burn more intensely, and release their fire-enabled 
energy faster creating greater amounts of smoke than natural materials 
posing a more ominous threat to occupants and their homes.\2\
---------------------------------------------------------------------------
    \2\ Fabian, T.Z. and Gandhi, P.D., ``Smoke Characterization 
Project: Technical Report'', UL, April 2007 (Available at http://
www.nfpa.org/assets/files//PDF/Research/Smoke
Characterization.pdf.)
---------------------------------------------------------------------------
    The video that will be playing first will show a side-by-side 
comparison of a room filled with legacy furniture, or furniture you 
would expect to find in a home in the 1960s and 1970s, and a room with 
modern furniture purchased at a national department store chain. Both 
rooms were ignited by placing a lit stick candle on the right side of 
the sofa and the fires were allowed to grow until flashover. As you 
will see, the room with modern furniture achieves flashover conditions 
in a significantly shorter time.
    The seemingly insignificant change from natural to synthetic 
materials in home furnishings has led to residential fires that grow 
faster and lead to the more rapid onset of untenable conditions. As a 
result, the amount of time available for safe egress from a home fire 
is much shorter than in the past. These results corroborate the 
National Institute of Standards and Technology's (NIST) findings for 
shorter available safe escape times in residential smoke alarm studies 
conducted in 2003 \3\ versus 1975 \4\ which they attributed in part to 
faster fire growth.
---------------------------------------------------------------------------
    \3\ Indiana Dunes II: Bukowski, RW. et al, ``Performance of Home 
Smoke Alarms--Analysis of the Response of Several Available 
Technologies in Residential Fire Settings'', NIST, January 2008
    \4\ Indiana Dunes I: Bukowski, RW. et al, ``Large-Scale Laboratory 
Tests of Smoke Detectors'', NIST, 1975.
---------------------------------------------------------------------------
    underwriters laboratories research exploring the fire safety of 
                         upholstered furniture
    As part of UL's safety mission, in 2008 we set out to conduct a 
self-funded research project to determine if commercially available 
products such as fire-retardant foams and fire barriers (interliners) 
can retard and/or reduce the fire growth rate of upholstered furniture 
exposed to small open flames. Polyurethane foams are highly cellular 
materials that provide flexibility and comfort. Unfortunately, the 
physical design and chemistry (polyurethane chemical structure) is 
highly vulnerable to ignition, flaming liquefaction, and further 
burning. Flame retardants (most notably bromine and phosphorous) are 
used to quench the progressing fire growth. Because of the cellular 
foam structure, the quantities of flame retardants necessary to 
accomplish this task are extremely high, some as high as upward of 30 
percent by weight. Fire barriers are complex woven structures that have 
both polymeric fibers and inorganic coatings that develop a protective 
char on burning. When they are exposed to high-temperature flames, the 
organic polymers burn with the inorganic compounds and form combustion 
products that are brittle and have mechanical strength (rather than 
powdery ash). The creation of an inorganic ``crust'' is a way of 
slowing down or even preventing the high-temperature flames from 
impinging on the polyurethane foam. There are many other examples of 
intumescent or char-forming materials, such as intumescent coatings for 
steel beams, and polymeric jacketing materials used in plenum cable.
    UL decided to focus our research on open-flame testing as we 
believed that the Consumer Product Safety Commission (CPSC) and the 
Upholstered Furniture Action Council (UFAC) were already addressing 
smoldering ignition. The scope of the project later expanded to fully 
understand the impact upholstered furniture materials play in fire 
growth and subsequent occupant tenability and survivability. Thus, 
apart from the ignition of upholstered furniture, our research sought 
to understand the dynamics of fires that include various constructions 
of upholstered furniture.
    Our research can be divided into three phases. Phase 1 of our 
research consisted of material-level tests, furniture mock-up tests, 
and full-size furniture tests, the original scope of the study. Phase 2 
compared various upholstered furniture configurations in a living room 
environment Finally, Phase 3 included a series of full-scale house fire 
experiments to determine smoke alarm response and occupant tenability 
and survivability related to upholstered furniture fires.
      phase 1: material, mockup, and full-sized furniture testing
    Materials utilized in this investigation included 11 commercially 
available barrier materials constituting different chemistries and 
physical structures (including flat weaves, knits, and high lofts). Two 
comparable density polyurethane foam materials were also used: a 
nonfire retardant foam commonly used in upholstered furniture and a 
California Technical Bulletin (CA TB) 117 compliant fire-retardant 
treated foam. UL also utilized the most popular cover fabric from the 
largest upholstered furniture cover fabric supplier in the United 
States (CPSC 16 CFR part 1634 Type I compliant beige polyester 
microsuede).
    Tests were conducted on three scales of combustibility:
  --material-level tests;
  --furniture mock-up tests; and
  --full-size furniture tests.
    The combustibility behavior of the individual sample materials and 
combinations of materials (i.e., foam/barrier liner/cover fabric) under 
well-ventilated, early stage flaming fire conditions was characterized 
using a cone calorimeter (ASTME 1354). In the furniture mock-up tests, 
cushions of the foam and barrier liner combinations evaluated in the 
material-level test phase were arranged to replicate an interior corner 
formed by the seat, back, and arm of a chair or sofa. The furniture 
mock-ups were ignited at the interior intersection of the three 
cushions using a BS 5852 Flaming Ignition Source 1 (match-flame 
equivalent). For the full-size furniture test, three of the foam and 
liner barrier combinations were compared to typical residential 
materials. Furniture pieces were ignited at the seat-back-arm interior 
corner, center of the seat-back cushions, and at the back leg area 
using the same BS 5852 Flaming Ignition Source 1 (match-flame 
equivalent) as for the furniture mock-ups. Heat release rate and mass 
loss rate were measured in both instances.
    The results of Phase 1 indicated that contemporary furniture 
constructed with CA TB 117-compliant fire-retardant-treated foam show 
measurable difference in the time to flashover, but not a meaningful 
difference compared to contemporary furniture constructed with a 
nonfire-retardant foam commonly used in upholstered furniture. In 
addition, when a flame-suppressant technology such as a flame barrier 
is used between the decorative fabric and the foam, then this furniture 
(manufactured to UL specifications with polyurethane foam) behaves 
closer to ``legacy'' furniture. Specifically the time to flashover is 
increased to greater than 20 minutes--which would allow residents 
significantly more time to safely get out of their homes.
    The results of these experiments provide knowledge on the potential 
fire-growth reduction for the different investigated strategies, 
implementation feasibility, the interaction between different 
chemistries and components, and the influence of test scale and sample 
design on fire performance. Collectively, this information can be used 
by researchers, manufacturers and industry associations, and regulators 
such as CPSC and California Bureau of Home Furnishings and Thermal 
Insulation (CA BEARHFTI) to establish appropriate technical 
requirements, and a corresponding compliance program, for upholstered 
furniture akin to the CPSC program for mattresses.
 phase 2: comparison of upholstered furniture on living room flashover
    As you will see in the second video, in Phase 2 we conducted a 
series of fires in a living room environment to better understand the 
impact upholstered furniture materials have in fire growth. The room 
environments were identically furnished with an engineered wood 
television stand, book case, coffee table, and end tables purchased 
from a national department store chain. In addition, the rooms had 
other fuel loads such as a 37-inch flat panel display television, 
plastic toy bins, stuffed toys, and polyester curtains. The only 
differences in the rooms were the materials used in the upholstered 
chair and sectional sofa. The top left screen contains contemporary 
upholstered furniture with polyester wrap covered polyurethane foam 
cushions, and polyester microsuede cover fabric. The top right screen 
is furniture constructed in legacy materials such as cotton batting 
around metal spring cushions and cotton cover fabric. The two bottom 
screens consist of barrier modified contemporary upholstered furniture 
with high-loft fire barrier covered polyurethane-foam cushions and 
polyester microsuede cover fabric. The fires were ignited by placing a 
lit candle on the right side of the sofa and allowed to grow until 
flashover. One of the barrier modified sets of furniture was ignited in 
the center of the sofa where the seat and back cushions for two spots 
meet.
    At 45 seconds we can already see that the flame size on the 
contemporary furniture is growing at a faster rate than the other 
furniture pieces. At the 1-minute mark, the smoke alarm would have 
activated to notify the occupants. We can assume it would take an 
occupant at the earliest about 20-40 seconds to recognize the danger 
and to take appropriate actions, such as finding a fire extinguisher. 
At 1 minute and 45 seconds, the fire in the contemporary furniture 
environment would be difficult to handle with a fire extinguisher and 
the occupant would then look to escape. On average, people take 60-90 
seconds to dress, call 911, gather personal belongings, and awaken two 
children. Once a call is placed to 911, a dispatcher will alert the 
local fire department to head to the scene. The Chicago Fire Department 
is the Nation's second-largest fire department and their goal is to be 
on-scene within 3-5 minutes after dispatch. Other departments may take 
longer such as those servicing rural areas. Additionally, this is just 
the time for the fire service to arrive; once at the scene, they still 
have to assess the scene.
    The room furnished with contemporary upholstered furniture in the 
top left of screen transitioned to flashover at 4 minutes and 45 
seconds. At 15 minutes the fire started at the interior corner of the 
barrier-clad contemporary furniture has self-extinguished. Flashover 
occurs for the barrier clad contemporary furniture ignited between the 
seats at 21 minutes and 45 seconds which is 17 minutes later than the 
identical furniture that does not have the fire barrier. At 34 minutes 
and 15 seconds, the living room furnished with legacy furniture flashes 
over, consistent with what we found for the used furniture in the 
modern vs. legacy side-by-side video. From this video, we can deduce 
that rooms furnished with contemporary furniture often reach flashover 
point prior to the fire service arriving at the scene of the fire.
phase 3: comparison of upholstered furniture on occupant tenability and 
                             survivability
    Based on the data drawn from Phase 2 and exemplified in the second 
video that you just witnessed, UL wanted to determine what the smoke 
alarm response and occupant tenability and survivability in an actual 
full-scale home. In March 2012 a series of full-scale house fire 
experiments was conducted in UL's large fire facility. One house was a 
one-story, 1,200 square-foot, 3 bedroom, 1 bathroom house (8 rooms 
total); the second house was a two-story, 3,200 square-foot, 4-bedroom, 
2.5-bathroom house (12 rooms total). The second house featured a 
contemporary open floor plan with the two-story great room and foyer 
open to the upstairs bedrooms.
    The living/great rooms were identically furnished with engineered 
wood television stand, coffee table, a lamp, and end tables purchased 
from a national department store chain. The only furnishings that 
differed in the tests were the materials used in the upholstered chair 
and sectional sofa. The contemporary furniture was constructed using 
the same hardwood frames, but one set consisted of polyester wrap 
covered polyurethane foam cushions, polyester microsuede cover fabric 
while the other introduced a high-loft fire barrier to cover the 
polyurethane foam cushions. The fires were ignited by placing a lit 
candle on the right side of the sofa and allowed to grow until 
temperatures in a remote location from the fire reached an unsurvivable 
level of 150 C (302 F). Preliminary data analysis supports Phase 2 
findings but we are still currently analyzing the results of these 
recent experiments.
                              conclusions
    Based on the research we conducted, UL believes:
    One, that the typical flame-retardant chemical concentrations used 
to meet fire regulations in upholstered furniture do not provide for 
sufficient fire egress times. The most common of those fire regulations 
is the BEARHFTI's CA TB 117 performance requirements.
    Two, that when a flame-suppressant technology, such as a flame 
barrier, is used between the decorative fabric and the foam, then this 
furniture (manufactured to UL specifications with polyurethane foam) 
behaves closer to ``legacy'' furniture. Specifically, the time to flash 
over is increased to greater than 20 minutes--which would allow 
occupants significantly more time to safely evacuate their home and 
allow for fire service to respond to the fire.
    Three, that barrier materials need not be made of a chemical flame 
retardant that may or may not pose a negative impact on human health or 
the environment. It is conceivable that manufacturers could incorporate 
various innovative barrier methods in upholstered furniture with 
minimal impact on current manufacturing methods. Some types of barriers 
such as high-loft barriers could be used as a replacement for polyester 
wrap thereby minimizing impact on manufacturing and labor. Other 
barriers, such as flat barriers similar to those incorporated by the 
mattress industry, could pose an additional manufacturing step, but do 
yield increased fire-safety performance.
    In addition to fire research UL has conducted on upholstered 
furniture, UL has also conducted studies in cooperation with the Fire 
Protection Research Foundation (a foundation under NFPA) on smoke 
characterization to understand smoke associated with materials commonly 
found in residential homes today and to provide data points to develop 
better smoke-sensing technology or smoke-suppression technology in end 
products. UL also has the ability to measure consumer exposure and 
indoor air quality to flame retardant and alternative chemicals under 
normal-use conditions and during combustion or fire processes for the 
measurement of toxic byproducts using environmental chamber technology. 
This technology allows the study and impact of alternative construction 
techniques like the use of fire barriers, reduction of synthetic 
materials, petrochemical-based construction materials; and the use of 
alternative, less-toxic flame retardants for bedding, furniture, 
construction materials, and electronics. This allows for system and 
component analysis under normal and abnormal conditions to help 
facilitate the development and validation of chemically safe, fire-
resistant products.
    UL appreciates this subcommittee's interest in furniture 
flammability-related matters and how all parties can work to enhance 
public safety. We appreciate the opportunity to share our knowledge and 
look forward to working with you and other stakeholders moving forward.

    Senator Durbin. Mr. Counts.
STATEMENT OF ANDY S. COUNTS, CEO, AMERICAN HOME 
            FURNISHINGS ALLIANCE
    Mr. Counts. Good afternoon. I'm Andy Counts, chief 
executive officer at American Home Furnishings Alliance. I want 
to thank you, Chairman Durbin and staff, for allowing me to 
participate in today's hearing.
    The issue of upholstered furniture flammability has been a 
topic of discussion and debate at CPSC since it inherited the 
Flammable Fabrics Act in 1973.
    Since this time, CPSC has considered several petitions on 
the issue and released multiple draft standards to address the 
flammability of upholstered furniture.
    As these proposals progressed, CPSC's objective has moved 
from the risk of small open-flame ignition to the combined risk 
of small open flame and smolder ignition, and finally to the 
risk of smolder ignition only.
    Consistently, over time, CPSC's statistics have shown that 
90 percent of upholstered furniture fires result from smolder 
ignition.
    California Technical Bulletin 117, or TB-117, is required 
for all upholstered furniture sold in the State of California 
and attempts to address both smolder and small open-flame 
ignition.
    Unlike smolder ignition, small, open-flame resistance 
generally requires the treatment of fabric and cushioning 
materials with flame-retardant chemicals.
    During the time that CPSC has been considering furniture 
flammability, evidence about the potential eco-toxicity and 
bioaccumulation of certain flame retardants have reshaped the 
thinking regarding fire and chemical risks. Restrictions on 
flame-retardant use and production are depleting the compliance 
toolbox of compounds equipped to achieve open-flame resistance 
in furniture and to meet TB-117.
    In addition, CPSC staff has found that reformulated foam 
cushions used to comply with TB-117 do not meaningfully improve 
small open-flame performance.
    TB-117 is the only reason flame-retardant chemicals are 
found in upholstered furniture. California Governor Jerry Brown 
recently issued a statement directing the State's Bureau of 
Electronic Appliance Repair, Home Furnishings and Thermal 
Insulation to revise TB-117 to end the reliance on flame-
retardant chemicals.
    As a result of this directive, a draft revised California 
standard has recently been released that will focus solely on 
smolder ignition.
    According to a recent NFPA report, the long-term trend in 
smoking material fires has been down by 73 percent from 1980 to 
2010.
    More importantly, the trend line for upholstered furniture 
as the first item ignited by smoking materials is also 
declining. In 1980, NFPA estimated that there were 21,500 fires 
caused by smolder ignition of upholstered furniture. And by 
2010, that number had been reduced to 1,500.
    Likewise, civilian deaths due to smolder ignition in 
upholstered furniture have decreased from 1,030 in 1980 to 210 
in 2010. When you factor in population growth over this period, 
you can begin to fathom the significance of these decreases.
    This downward trend in fire statistics involving smoking 
materials and residential upholstery is to some degree the 
result of a successful industry fire standard. The voluntary 
program was developed by the Upholstered Furniture Action 
Council (UFAC) in 1977.
    Unlike TB-117, the UFAC program does not require the use of 
any flame-retardant chemicals. UFAC construction criteria have 
been adopted by both the American Society for Testing and 
Materials as ASTM 1353, and NFPA. It is estimated that 90 
percent of domestic furniture shipments comply with the UFAC 
standard.
    We understand the frustration some have expressed about the 
pace of progress on this issue. However, we shouldn't disregard 
the technical challenges associated with achieving improved 
fire resistance for a product that is typically covered in 
fabric and filled with plastics, cellulosics, and other 
cushioning materials.
    Add to this the differential performance of the tens of 
thousands of upholstery fabrics on the market, and you begin to 
understand the challenge CPSC shouldered.
    An approach that addresses only smolder ignition is not 
perfect, but represents what is achievable at this point, given 
these sometimes competing factors.
    We recommend that the CPSC immediately move to adopt ASTM 
1353 to address the primary smolder ignition risk from 
upholstered furniture. That would provide CPSC with the time it 
needs to further investigate the feasibility of its barrier for 
smolder-prone fabrics and submit its draft testing methods to 
the necessary round robin laboratory analysis to ensure good 
repeatability and reproducibility. This round robin analysis is 
essential to the development of an enforceable standard.

                           PREPARED STATEMENT

    We look forward to our continued work with the CPSC on this 
important issue and to assisting our members with compliance.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Andy S. Counts
    The American Home Furnishings Alliance (AHFA) represents 
manufacturers and importers of residential furnishings that include 
upholstered furniture, wood furniture, home office, and decorative 
accessories. AHFA companies participate in a highly competitive global 
market characterized by ever-changing style preferences, margin 
pressures, and the tendency of consumers to postpone big-ticket 
purchases if their perceptions of value and function are not satisfied.
    AHFA respectfully submits these comments regarding the 
effectiveness of upholstered furniture flammability standards and 
flame-retardant chemicals.
                         background information
    There is currently one mandatory flammability standard for 
residential upholstered furniture in the United States. That standard, 
California Technical Bulletin 117 (TB-117), is required for all 
upholstered furniture sold in the State of California.
    Before we begin our discussion on the effectiveness of upholstered 
furniture flammability standards, we want to share with you several 
hard-learned facts based on 40+ years of experience with this topic. 
First, fire testing is not a precise science. Today's modern fire-
testing methodology suffers from three important weaknesses. First, 
none of the present test methods have been reconciled with what 
actually happens in real-world fire scenarios, either qualitatively or 
quantitatively. Second, the precision of today's fire tests is 
reprehensibly poor with testing errors commonly exceeding 50 to 100 
percent. Finally, computer models are only as good as the data driving 
them. As noted above, the precision and bias of the data is deficient 
so standard fire tests often lack the repeatability that agencies 
expect with mandatory standards. This makes a flammability standard 
extremely difficult to enforce.
    Definition of the objective is 50 percent of the solution. There is 
no such thing as fire-proof furniture and it simply is not a realistic 
or practical goal. The U.S. Consumer Product Safety Commission (CPSC) 
did not conceive this at the beginning and therefore the objective of 
its rulemaking was not clearly defined. Initially it appeared that CPSC 
wanted to prevent any ignition of the cover fabrics. This proved to be 
unattainable because everything will burn and each fire is unique. 
Later, the agency moved away from ``no ignition'' toward ``slowing'' 
the progression of the fires and thereby allow more egress time. The 
later is an achievable goal and one which we continue to believe can be 
met.
    Third, there are no quick fixes or silver bullets when it comes to 
upholstered furniture flammability. There are a myriad number of 
configurations, fabrics, and fillings that are utilized by our industry 
to satisfy the consumer's needs and tastes. And the issue is 
counterintuitive. The materials that are most resistant to smolder 
ignition tend to be poor performers when it comes to resisting open-
flame ignition and vice versa. These three facts have compounded the 
difficulties CPSC has encountered in this complex rulemaking.
                        the national discussion
    The issue of upholstered furniture flammability has been a topic of 
discussion and debate at CPSC since it inherited the Flammable Fabrics 
Act from the Department of Commerce and the Federal Trade Commission in 
1973. Since this time CPSC has considered several petitions on the 
issue and released multiple draft standards to address the flammability 
of upholstered furniture in 1997, 2001, 2004, and 2005. A proposed rule 
was finally promulgated in 2008. As these proposals progressed, CPSC's 
objective has moved from the risk of small open-flame ignition to the 
risks of small open-flame ignition and smolder ignition, and finally to 
the risk of smolder ignition only.
    We welcomed the 2008 proposal because it was the first to focus 
solely on the risk of smolder ignition which is the predominant 
flammability hazard associated with upholstered furniture. Consistently 
over time, CPSC statistics show that 90 percent of upholstered 
furniture fires result from smolder ignition. Each year, there are 
approximately five times as many incidents of smolder ignitions as 
there are small open flame-related incidents.\1\
---------------------------------------------------------------------------
    \1\ U.S. CPSC, Regulatory Options Briefing Package, October 28, 
1997, p. 153.
---------------------------------------------------------------------------
    According to a recent National Fire Protection Association (NFPA) 
report, \2\ ``the long-term trend in smoking-material fires has been 
down, by 73 percent from 1980 to 2010.'' More importantly for this 
discussion, the trend line for upholstered furniture as the first item 
ignited by smoking materials is also declining. In 1980, NFPA estimated 
that there were 21,500 fires caused by smolder ignition of upholstered 
furniture and by 2010 that number had been reduced to 1,500.\3\  
Likewise, civilian deaths due to smolder ignition of upholstered 
furniture have decreased from 1,030 in 1980 to 210 in 2010.\4\ Finally, 
civilian injuries have declined from 1,910 in 1980 to 260 in 2010.\5\
---------------------------------------------------------------------------
    \2\ John R. Hall Jr., The Smoking-Material Fire Problem, March 
2012, p. i.
    \3\ Id. at 21.
    \4\ Id. at 22.
    \5\ Id. at 23.
---------------------------------------------------------------------------
                the upholstered furniture action council
    The downward trend in fire statistics involving smoking materials 
and residential upholstery is, to some degree, the result of a 
successful industry fire standard. This voluntary program was developed 
by the Upholstered Furniture Action Council (UFAC) in 1977. It has 
demonstrated that fabric and yarn changes along with the use of 
substrates between fabric and foam yield improved smolder performance. 
Unlike TB-117, the UFAC program does not require the use of any flame-
retardant chemicals. Also unlike TB-117, UFAC program has undergone 
round-robin testing and has shown to be repeatable and reproducible. 
Because of this, UFAC construction criteria were adopted by both the 
American Society for Testing and Materials (ASTME 1353) and the NFPA 
(NFPA 260).
    Perhaps the greatest contribution of the UFAC program has been to 
remove smolder-prone materials from the market and replace them with 
safer ones. Padding materials such as untreated cotton batting, sisal 
pads, loose sisal, jute pads, rubberized horsehair, and kapok could not 
pass any of the UFAC criteria and consequently disappeared from the 
marketplace.
    Likewise, UFAC has contributed to the development of safer 
materials. In addition to inventing heat-conducting welt cords, it 
effectively set the standards for polyurethane foam and class 1 
fabrics. Seating-grade and padding-grade flexible polyurethane foams 
must pass the UFAC filling and padding test method. As a result, 
noncompliant foam is gone from the market. With respect to fabric 
covers, the UFAC test methods accelerated the use of thermoplastic 
fibers. This expanded the number of class I fabrics, the type most 
resistant to smolder ignition, and reduced the number of class II 
fabrics which require the use of a smolder-resistant barrier material. 
While it is estimated that 90 percent of domestic furniture shipments 
comply with the UFAC standard, the net result has been to afford low-
income consumers the benefit of the UFAC program even if their 
manufacturers are not participating in UFAC. That is because these 
safer materials are the only ones that can be found in the marketplace.
    In the course of the current CPSC rulemaking, UFAC reviewed TB-117 
promising CPSC to incorporate the best aspects of TB-117 as part of 
UFAC's construction criteria. However, when testing was completed, UFAC 
concluded that TB-117 foam was not more effective than the conventional 
foam required by UFAC. Therefore, it declined to modify its 
construction criteria. CPSC later tested TB-117 foam and confirmed that 
it demonstrated no significant added protection in small open-flame 
scenarios compared to UFAC complying upholstered furniture products.
                       small open-flame research
    The current emphasis on smolder ignition is a sensible response to 
the technical difficulties associated with the small open-flame 
approaches considered during the course of the rulemaking. Early in the 
project, CPSC staff found that reformulated foam cushions used to 
comply with TB-117 did not meaningfully improve small open-flame 
performance. Subsequent testing of so-called ``TB-117 plus'' foam 
revealed it performed worse than conventional foam and was inferior in 
some smoldering scenarios.
    A 2001 proposal allowed the use of flame-blocking barriers as 
protection against open-flame ignition. However, CPSC staff found that 
barrier materials perform inconsistently depending on the cover fabrics 
and ignition source. Some barriers were effective in conjunction with a 
number of outer fabrics, but not with others. Those failing fabrics 
were more appropriate candidates for a flame-retardant chemical 
treatment option.\6\
---------------------------------------------------------------------------
    \6\ U.S. CPSC Upholstered Furniture Flammability: Analysis of 
Comments from the CPSC Staff's June 2002 Public Meeting, p. 30.
---------------------------------------------------------------------------
    Currently available barrier technology utilized to meet 
California's standard for public occupancy furniture (TB-133) and to 
meet the Federal mattress standard (16 CFR 1633) is not well-suited for 
application to residential upholstered furniture. In addition to the 
complexities created by the various geometries and spatial 
relationships of furniture, existing barriers would negatively impact 
the hand, drape, and seat of residential upholstered furniture. These 
barriers also lack important performance characteristics such as loft, 
resiliency and neutral color, which are critical for the residential 
upholstered furniture market.
              research and regulation of flame retardants
    TB-117 is the only reason flame-retardant chemicals are found in 
upholstered furniture. The focus on smolder ignition minimizes the 
reliance on flame-retardant chemical treatments. Unlike smolder 
ignition, small open-flame resistance generally requires the treatment 
of fabrics and cushioning materials with halogenated compounds (i.e., 
bromine or chlorine). The widespread application of these chemicals to 
produce upholstered furniture components would certainly have resulted 
from the prescribed test methods proposed in the 1997, 2001, 2004, and 
2005 CPSC briefing packages.
    During the time that CPSC has been considering furniture 
flammability, evidence about the potential ecotoxicity and 
bioaccumulation of halogen flame-retardants have reshaped the thinking 
regarding fire and chemical risks. Restrictions on flame-retardant use 
and production are depleting the compliance toolbox of compounds 
equipped to achieve open-flame resistance in furniture and to meet TB-
117.
    In 2004, AHFA (then the American Furniture Manufacturers 
Association or AFMA) co-chaired and participated with other key 
industry stakeholders in a project sponsored by Environmental 
Protection Agency's (EPA) Design for the Environment' (DfE). The scope 
of this project was to develop an assessment tool to evaluate emerging 
flame-retardant chemistry that could potentially be used to replace 
existing chemical solutions used to meet existing flammability 
standards. The focus was to develop a science-based matrix to evaluate 
and screen the potential risk of emerging flame-retardant chemicals to 
human health and the environment. The resulting matrix did not provide 
the absolute certainty needed to determine if the flame-retardant 
chemistry was safe and effective.
    In January 2010, EPA added polybrominated diphenyl ethers (PBDEs)--
used as flame retardants in a wide range of products, including fabrics 
and foam--to its ``chemicals of concern'' list, meaning it considers 
them substances that ``may present an unreasonable risk of injury to 
health and the environment.'' The furniture industry had already 
voluntarily phased out the use of these chemicals in 2005. The only 
PBDE still on the market in North America, is decaBDE, a fabric flame-
retardant effective across a full spectrum of fiber types. Critics of 
decaBDE often cite evidence that it can degrade (debrominate) into more 
hazardous congeners that are already the subject of regulatory action.
    DecaBDE has been banned or substantially restricted in Washington 
State, Maine, and the European Union. Asian countries and other U.S. 
States are considering similar legislation. Without decaBDE, fabric 
mills indicate that achieving open-flame resistance would require the 
commercialization and testing of more specialized chemical formulations 
geared to particular fabric types. Environmental authorities and policy 
makers now appear to be moving toward restrictions on bromine and 
chlorine flame-retardant chemicals generally.
    Last year in California, the Office of Environmental Health Hazard 
Assessment (OEHHA) added TDCPP (Tris (1,3-dichloro-2-propyl) 
phosphate), a flame-retardant chemical commonly used in furniture 
applications, to its list of chemicals subject to Proposition 65. 
Governor Brown recently issued a statement directing the State's Bureau 
of Home Furnishings and Thermal Insulation (BEARHFTI) to revise TB-117 
to end the reliance on flame-retardant chemicals. In the present 
Federal rulemaking, environmental advocates have urged CPSC to forego 
regulatory approaches that would encourage such chemical use.
    As a result of the Governor Brown directive a draft revised 
California standard (TB-117 2012) has recently been released that will 
focus solely on smolder ignition and take a similar approach to the 
2008 proposed CPSC standard.
                  other trends shaping fire statistics
    Any current discussion of this issue should be made in the context 
of fire statistics that have improved significantly in response to a 
number of trends. In addition to the impact of voluntary industry 
standards such as UFAC, Americans are smoking less and are increasingly 
protected by working smoke and carbon monoxide detectors. Small open-
flame statistics are being driven downward by the use of child-
resistant lighters pursuant to CPSC regulations finalized in 1993 and a 
CPSC-sponsored voluntary performance standard for candles. In addition, 
all States have enacted requirements for reduced ignition propensity 
(RIP) cigarettes. The March 2012 NFPA study on smoking material fires 
estimates that RIP cigarettes alone will reduce fire deaths 30 percent 
from 2003, the last year before any State-implemented this 
legislation.\7\ All of these developments can be expected to further 
reduce residential fires associated with upholstered furniture.
---------------------------------------------------------------------------
    \7\ Hall, supra at 11.
---------------------------------------------------------------------------
                     conclusion and recommendations
    We understand the frustration some have expressed about the pace of 
progress on this issue. However, we shouldn't disregard the technical 
challenges associated with achieving improved fire resistance for a 
product that is typically covered in fabric and filled with plastics, 
cellulosics, and other cushioning materials. Add to this the 
differential performance of the tens of thousands of upholstery fabrics 
on the market; the synergy between fabrics and filling materials; and 
you begin to understand the challenge CPSC has shouldered.
    Upholstered furniture flammability encompasses not only fire 
science, but consumer preferences, behavioral factors, the 
competitiveness of domestic industries and the increasing scrutiny of 
chemicals that may pose a risk to human health and the environment.
    Our industry is committed to supporting government and private 
sector solutions based on three criteria:
  --safe;
  --effective; and
  --saleable.
    To be ``safe'', a solution must not introduce new risks to 
consumers, workers, or the environment and not undermine the existing 
level of resistance to smolder ignition. To be ``effective'', a 
solution must reduce the number of residential fires involving 
upholstered furniture and must not create a false sense of security to 
the consumer. To be ``saleable'', a solution must result in furniture 
that is attractive, comfortable, durable, and affordable. A solution 
that meets the criteria of safe, effective, and saleable continues to 
form the basis for an industry supported Federal standard for 
residential upholstered furniture.
    An approach that addresses only smolder ignition is not perfect, 
but represents what is achievable at this point given these sometimes 
competing factors. We recommend that the CPSC immediately move to adopt 
ASTM 1353 to address the primary smolder-ignition risk from upholstered 
furniture. That will provide CPSC with the time it needs to further 
investigate the feasibility of its barrier for smolder-prone fabrics 
and to submit its draft test methods to the necessary round-robin 
laboratory analysis to ensure good repeatability and reproducibility. 
This round-robin analysis is essential to the development of an 
enforceable standard.
    After finalization of a standard that addresses smolder ignition, 
CPSC resources can then be concentrated on determining if potential 
solutions to small open-flame risk exist and are justified. This effort 
must provide multiple options for compliance and a mechanism for 
identifying safe and effective flame-retardant chemistry.
    Any mandatory flammability standard must also rely on the use of 
compliant components and not the use of composite testing. Furniture 
manufacturers are assemblers of components provided by third-party 
suppliers. The combination of these various components results in 
thousands of SKUs. This volume makes the testing of full-scale or 
mockup composites not only unreasonable, but impossible.
    Finally, cost must be a consideration. The statistics of 
residential fires have told us repeatedly over the years that the 
residential fire problem in the United States primarily lies in 
households with lower incomes, less education, and a higher proportion 
of single parents. This segment of the population is the most sensitive 
to cost increases, yet this segment is clearly the most in need of the 
protection that safer upholstery will provide. Furniture that meets 
ASTM 1353 is proven to provide an acceptable level of fire protection 
at price points that will primarily benefit them and the firefighters 
charged with saving their lives.
    We look forward to working with CPSC on this important issue and to 
assist our members with the compliance obligations they will face once 
a new rule is finalized.

    Senator Durbin. Thanks, Mr. Counts.
    Peter Van Dorpe.
STATEMENT OF PETER VAN DORPE, CHIEF, TRAINING DIVISION, 
            CHICAGO FIRE DEPARTMENT
    Mr. Van Dorpe. Good afternoon. Thank you for having me here 
today. My name is Peter Van Dorpe. I've been a firefighter for 
32 years. I'm a district chief in the Chicago Fire Department 
and in charge of the Training Division.
    Since 2006, I have been one of the Chicago Fire 
Department's liaisons to and have served as a subject-matter 
expert for various agencies and universities that have been 
conducting fire-safety research. These agencies include UL, 
NIST, University of Illinois, Michigan State University, and 
New York Polytechnic, among others.
    This research has been funded largely through the 
Department of Homeland Security's Assistance to Firefighters 
Grants Program.
    Through both my experience on the fire ground and in the 
course of my participation in these research projects, I've 
become acutely aware of the significant changes that have 
occurred over the last 40 to 50 years in the way homes are 
built and the way that we furnish them. What you have seen here 
today, as dramatic as it is, demonstrates only a fraction of 
the changes that have taken place.
    Put as simply as possible, we are making homes bigger. 
We're building them with less massive structural components and 
then we're filling them with more air and more fuel than ever 
before.
    From a firefighter's perspective, this is a recipe for 
disaster for both the fire service and the public we have sworn 
to protect.
    Part of the reason why I was selected to speak at this 
hearing is because I was already scheduled to be in Baltimore 
tomorrow to deliver a workshop at Firehouse Expo. Firehouse 
Expo is one of several conferences that I and my colleagues 
from the Chicago and New York City Fire Departments, UL, NIST, 
and other research partners attend each year to deliver the 
findings of its research to the American fire service.
    We call it bringing science to the street, and our goal is 
to make sure that the firefighters that arrive at your door in 
your time of need come with a set of strategies, tactics, 
skills, and knowledge to best equip them to safely and 
effectively combat the fire they will face.
    The first and most important part of reaching that goal is 
to make sure these firefighters understand the scope and 
magnitude of the changes in the modern fire environment. I hope 
to convey some sense of that change to you in this brief time 
we have today.
    I will keep it simple: It's stuff, and there's more stuff, 
and that stuff is made out of plastic. And more stuff, more of 
that plastic stuff, is made out of plastic that contains its 
own air supply--extruded polyurethane foam in furniture.
    All of this stuff is fuel, and we're packing more and more 
of it into our boxes that we live in every day.
    How this stuff in these boxes behave, interact, and 
maintain their integrity under fire conditions goes largely 
unregulated, so long as that box is labeled one- or two-family 
occupancy and the stuff is intended to be used by the people 
that occupy those houses.
    It should come as no surprise to us that most fire deaths 
occur in one- and two-family homes.
    The statistics that support these statements are readily 
available and accessible from NFPA, UL, NIST, the National 
Institute of Occupational Safety and Health, and a host of 
other universities and Government agencies.
    Please allow me to share with you some lesser-known 
statistics. In 1903, 605 people died in the Iroquois Theater 
fire in Chicago. In 1911, 146 died in the Triangle Shirt Waist 
fire in New York City. There were 294 deaths in the 
Consolidated School fire of 1937, 492 in the Coconut Grove 
Supper Club fire of 1942, and 100 in the Station Night Club 
fire of 2003.
    Indeed, the 10 largest single-building fatal fires over the 
last century have totaled more than 2,800 deaths. And that 
number does not include the 2,666 deaths that occurred in the 
fires that were in the aftermath of the September 11 attacks.
    Each of these tragedies, as well as many like them 
throughout our history, brought about a response that was 
proportionate to the scope and magnitude of the event. Perhaps 
the most important part of the response to each of these events 
and those like them were the significant changes made in the 
way we design, build, inspect, and otherwise regulate the 
buildings we occupy and the things that we put in them.
    We can and should be proud of the way we respond as a 
society to the disasters and tragedies that befall our 
communities. However, the tragedy that is the yearly fire death 
toll in the United States goes unaddressed largely because it 
goes unrecognized.
    Each and every year, between 2,500 and 3,000 people die in 
fires in the United States. That's more than died in the 
September 11 attacks and more than died in the 10 most tragic 
fires in our history. And it happens year after year after 
year.
    Eighty-five percent of those fire deaths occur in homes, 
and they most often occur in ones and twos. Hence, those of you 
who aren't professionally attuned to the situation are not 
familiar with the scope and magnitude of the problem.
    I hope my testimony today will help bring it to the 
forefront for a time.
    Statistically, three people died in fires while you slept 
last night, and another will die while we are here discussing 
the merits of the issues before us. Three more will die in the 
time you will make your way home tonight and end your day and 
return to sleep. Tomorrow and every day will be just like today 
unless and until we do something different about the way we 
build, protect, and furnish homes in this country.
    When I'm teaching building construction to firefighters, I 
make it a point to focus on the hazards of lightweight 
construction and practices used in single-family homes. And I 
always begin and end by telling them, ``It ain't about the 
gusset plates.''
    Gusset plates are a fastening method that has replaced 
traditional nails in lightweight wood truss construction. The 
fire service frequently points to them as the cause of early 
collapse of floor and roof systems in buildings using these 
systems.
    What I mean to convey to them with this phrase is that we 
need to focus less on the components and more on the totality 
of the changes to the built environment and the fuel loads we 
are placing in them.
    Similarly, I encourage you not to get lost in the weeds of 
which methods of reducing residential fire losses and fire 
deaths are the most efficient, effective, or environmentally 
friendly. For example, while the effects of adding fire-
retardant chemicals to extruded foams and fills has been shown 
to be of limited value, this does not preclude the use of 
retardants in any and all circumstances.
    Most approaches to reducing fire growth and propagation in 
furniture and finishes have value, and they should all be 
investigated and pursued.
    The mattress industry has demonstrated that an approach 
that applies a variety of methodologies is the most likely to 
sustain success over the long run.
    Most tragedies, and certainly those that arise in accidents 
in the home, are not the result of gross negligence or malice 
on anyone's part. Rather, they are the sum of what my colleague 
Vicki Schmidt, a volunteer firefighter and a State instructor 
in Maine, refers to as the pitter-patter of little defeats, 
those individually minor errors and omissions that we allow to 
accumulate and coalesce into tragic events.
    Please permit me to outline for you what I believe to be 
some effective guidance for meeting the challenges before you. 
Increased residential firefighters' fire safety, and 
firefighter safety, requires reducing ignition sources.
    Today, this is largely an issue related to behaviors 
including smoking, alcohol use, and the safe use of open flames 
such as candles. Reducing the development and prorogation of 
fires that do occur by addressing the flammability and fire 
development characteristics of home furnishings and finished 
materials, particularly those that contain extruded 
polyurethane foam and related materials.
    Reducing the impact of fires that do occur upon the 
occupants through more thorough and effective regulations 
requiring active and passive fire protection and detection 
systems in homes. And, yes, that does mean we need to advocate 
for residential fire sprinklers in all new construction.
    Reducing the impact of fires that do occur upon the 
structural system of the home, by requiring structural 
assemblies used two-family homes be protected in the same way 
that they are required to be protected in other occupancies.
    Finally, enabling the American fire service to do our job 
more safely and effectively by doing all of the above and by 
continuing to fund the fire-safety research and dissemination 
of life-saving information it is generating.
    In closing, I wish to assure you that the challenge is not 
as difficult as you may think. Indeed, the problem has already 
been solved.
    Look around you. Look above your heads. This is a fire-safe 
building. We have applied the lessons of the past and 
appropriate science and technology to design an occupancy that 
provides a safe and secure environment for its occupants.

                           PREPARED STATEMENT

    We can do the same for residential occupancies. We have the 
knowledge and the technology to meet all the challenges, 
whether they be temporal, behavioral, financial, or 
environmental. All we need is the will to act.
    Thank you.
    [The statement follows:]
 Prepared Statement of Peter Van Dorpe <greek-l>District Chief on the 
    Chicago Fire Department in charge of the Training Division deg.
    Good afternoon. My name is Peter Van Dorpe. I have been a 
firefighter for 32 years. I am a District Chief on the Chicago Fire 
Department in charge of the Training Division. Since 2006 I have been 
one of the Chicago Fire Department's liaisons and have served as a 
subject-matter expert for various agencies and universities that have 
been conducting fire-safety research. These agencies include 
Underwriters Laboratories (UL); the National Institute of Standards and 
Technology (NIST); the University of Illinois; Michigan State 
University; New York Polytechnic; and others. This research has been 
funded largely through the Department of Homeland Security's Assistance 
to Firefighters Grants program. Through both my experience on the fire 
ground and in the course of my participation in these research projects 
I have become acutely aware of the significant changes that have 
occurred over the last 40 to 50 years in both the way homes are built 
and the way that they are furnished. What you have seen here today, as 
dramatic as it is, demonstrates only a fraction of the changes that 
have taken place. Put as simply as possible, we are making homes 
larger, building them with less massive components, and then filling 
them with more air and more fuel than ever before. From a firefighter's 
perspective this is a recipe for disaster for both the fire service and 
the public we have sworn to serve and protect.
    Part of the reason why I was selected to speak at this hearing is 
because I was already scheduled to be in Baltimore tomorrow to deliver 
a workshop at Firehouse Expo. Firehouse Expo is one of several 
conferences that I and my colleagues from the Chicago and New York City 
fire departments, UL, NIST and the other research partners attend each 
year to deliver the findings of this research to the American fire 
service. We call it ``bringing science to the streets'' and our goal is 
to make sure that the firefighters that arrive at your door in your 
time of need come with the set of strategies, tactics, and skills that 
best equip them to safely and effectively combat the fire they will 
face. The first and most important part of reaching that goal is to 
make sure our students understand the scope and magnitude of the 
changes in the modern fire environment. I hope to convey some sense of 
that change to you as well in the brief time that I have with you 
today. I will keep it simple: Stuff. More stuff. More stuff made of 
plastic (petroleum). More stuff made of plastic with a built in air 
supply (polyurethane foam, i.e., furniture). All of this stuff is fuel 
and we are packing more and more of it into the boxes that we live in. 
How this stuff and these boxes behave, interact and maintain their 
integrity under fire conditions goes largely unregulated so long as the 
box is labeled ``one or two family occupancy'' and the stuff is 
intended to be used by the people that occupy it. It should come as no 
surprise to us that most fire deaths occur in one- and two-family 
(read, ``unregulated'') occupancies. The statistics that support these 
statements are readily available and accessible from the National Fire 
Protection Association, UL, NIST, the National Institute of 
Occupational Safety and Health, etc.
    In 1903, 605 people died in the Iroquois Theater fire in Chicago. 
In 1911, 146 died in the Triangle Shirt Waist fire in New York City. 
There were 294 deaths in the Consolidated School fire of 1937; 492 in 
the Coconut Grove Supper Club of 1942; and 100 in the Station Night 
Club fire of 2003. Indeed, the 10 largest single building fatal fires 
over the last century total more than 2,800 deaths. Of course we are 
all aware of the 2,666 lives lost at the fires of September 11. Each of 
these tragedies, as well as many like them throughout our history, 
brought about a response that was proportionate to the scope and 
magnitude of the event. Perhaps the most important part of the response 
to each of these events and those like them were the significant 
changes made in the way we design, build, inspect, and otherwise 
regulate the buildings we occupy and the things we put in them. We can 
and should be proud of the way we respond, as a society, to the 
disasters and tragedies that befall our communities.
    However, the tragedy that is the yearly fire death toll in the 
United States goes unaddressed, largely because it goes unrecognized.
    Each and every year, between 2,500 and 3,000 people die in fires in 
the United States. That's more than died in the September 11 attacks 
and more than died in the 10 most tragic fires in our history, and it 
happens year, after year, after year. Eighty-five percent of these fire 
deaths occur in homes and they most often occur in one- and two-family 
homes. Hence, those of you who aren't professionally attuned to the 
situation are not familiar with the scope and magnitude of the problem. 
I hope my testimony today will help bring it to the forefront for a 
time. Statistically, three people died in fires while you slept last 
night. Another will die while we are here discussing the merits of the 
issues before us. Three more will die by the time you make your way 
home tonight, end your day and return to sleep. Tomorrow and every day 
will be just like today; unless and until we do something different 
about the way we build, protect, and furnish homes in this country.
    When I am teaching building construction to firefighters I make it 
a point to focus on the hazards of lightweight construction practices 
used in single family homes and I always begin and end by telling them, 
``it ain't about the gusset plates''. Gusset plates are a fastening 
method that has replaced traditional nails in lightweight wood truss 
construction. The fire service frequently points to them as the cause 
of early collapse of floor and roof systems in buildings using these 
systems. What I mean to convey to them with this phrase is that they 
need focus less on the components and more on the totality of the 
changes to the built environment and the fuel loads placed in them. 
Similarly, I encourage you not to get lost in the weeds of which 
methods of reducing residential fire loss and fire death are the most 
efficient, effective or environmentally friendly. While the effects of 
adding fire-retardant chemicals to extruded foams and fills has been 
shown to be of limited value, this does not preclude the use of 
retardants in any and all circumstances. Most approaches to reducing 
fire growth and propagation in furniture and finishes have value and 
they should all be investigated and pursued. The mattress industry has 
demonstrated that an approach that applies a variety of methodologies 
is most likely to sustain its success over the long run.
    Most tragedies, and certainly those that arise around accidents in 
the home, are not the result of gross negligence or malice on anyone's 
part. Rather, they are the sum of what my colleague Vicki Schmidt, a 
volunteer firefighter and State fire instructor in Maine refers to as 
the ``pitter-patter of little defeats''; those individually minor 
errors and omissions that we allow to accumulate and coalesce into a 
tragic event.
    Please permit me to outline for you what I believe to be some 
effective guidance for meeting the challenge before you. Increased 
residential fire safety requires:
      Reducing Ignition Sources.--Today this is largely an issue 
        related to behaviors including smoking, alcohol use, and open 
        flames such as candles, etc.
    --Reducing the development and propagation of fires that do occur 
            by addressing the flammability and fire development 
            characteristics of home furnishings and finish materials, 
            particularly those that use or contain extruded 
            polyurethane foam and related materials.
    --Reducing the impact of fires that do occur upon the occupants 
            through more thorough and effective regulations requiring 
            active (i.e., residential sprinkler systems) and passive 
            fire protection and detection systems in homes.
    --Reducing the impact of fires that do occur upon the structural 
            system of the home by requiring structural assemblies used 
            in one- and two-family homes to be protected in the same 
            way they are required to be protected in other occupancies.
    --Enabling the American fire service to do our job more safely and 
            effectively by doing all of the above.
    In closing, I wish to assure you that the challenge is not as 
difficult as you may think. Indeed the problem has already been solved. 
Look around you. This is a fire-safe building. We have applied the 
lessons of the past and the appropriate science and technology to 
design an assembly occupancy that provides a safe and secure 
environment for its occupants. We can do the same for residential 
occupancies. We have the knowledge and the technology to meet all the 
challenges, whether they be temporal, behavioral, financial, or 
environmental. All we need is the will to act. Thank you.

    Senator Durbin. Thank you, Mr. Van Dorpe, and thank you for 
what you do for a living. Men and women like you all across 
America keep us safe. We're grateful.
    Mr. Van Dorpe. Thank you, Sir.
    Seventy-five percent of the American fire service is 
volunteer.
    Senator Durbin. I know that. I know in Chicago we have a 
great fire department. We also, downstate, have a lot of great 
fire departments and volunteer efforts.
    So thank you very much.
    One of the things which was noted earlier, I want to 
mention to you. Tony Stefani, president of San Francisco Cancer 
Prevention Fund said in a recent study, ``Firefighters show 
blood levels of PDBEs'', these fire-retardant chemicals, ``over 
30 percent higher than the general population of California, 
and 60 percent higher than the general population of the United 
States.''
    One firefighter had a PDBE level 11 times greater than 
average for the general population. And the concentrations in 
the United States are 20 to 30 times higher than found in the 
general population of Japan, Hong Kong, and the United Kingdom.
    So there is an environmental aspect to this, the exposure 
of your men and women as firefighters to these fire-retardant 
chemicals, which I guess Mr. Stefani is making a point to show 
us may have some long-term negative health impact.
    Has there been any effort underway to measure this beyond 
his effort?
    Mr. Van Dorpe. UL has conducted some smoke particulate 
studies. They began, I believe, in 2007. Those continue to 
today.
    One of the things that we're finding is that, even when we 
wear all of our respiratory protection, we're still exposed to 
chemicals through dermal exposure. This stuff is migrating 
through our skins and into our bodies.
    So the problem for us is getting more and more complex all 
the time. Every time we think we get a handle on how to deal 
with our exposure to chemicals, we find that there's another 
exposure out there.
    Senator Durbin. And you probably read the Chicago Tribune 
series, that there was a group calling themselves Friends of 
Firefighters who were testifying for the use of these flame-
retardant chemicals. They were challenged. They had something 
to do with the State of Vermont, at least they said they did, 
but they were challenged as to whether they were speaking for 
firefighters or for the chemical industry.
    Mr. Van Dorpe. I'm not familiar with the group.
    Senator Durbin. It's a point I hope you'll take a look at.
    Mr. Schaefer, just for the record, you've stated it in 
general terms, but in politics and in the Chicago Tribune 
series, we follow the money.
    Where was the money engaged in each of these undertakings?
    Why did the tobacco industry decide they wanted to push 
flammability in furniture rather than a fire-safe cigarette? 
Why did the chemical industry want to push certain fire-
retardant chemicals? What was the role of the furniture 
industry and such?
    So, for the record, when it comes to UL, who is paying for 
your efforts in research?
    Mr. Schaefer. For our efforts, they're self-funded through 
our public safety mission fund. Sometimes we do research work 
in partnership with organizations like NIST, and there, there 
would be grants and so on.
    But for the most part, the research work we do is self-
funded in the interest of advancing our safety mission.
    Senator Durbin. And to make it clear for the record, there 
are two approaches where--well, three, actually: legacy 
furniture, which was different than the furniture that we buy 
today; then furniture treated with fire-retardant chemicals, 
which you said does not produce any measurable impact of 
safety; and then barriers, which I assume is some sort of a 
cloth or fabric or something that stops the fire from spreading 
into the furniture. Three different levels, if I've got that 
correct.
    Mr. Schaefer. Yes, that's correct.
    Senator Durbin. And the barriers, you say, don't 
necessarily have to include fire-retardant chemicals?
    Mr. Schaefer. That's right, the barrier could be 
constructed even out of fiberglass, what you would see in 
insulation in your homes, so it's basically a neutral material. 
And there are other technologies that don't use flame 
retardants with barriers.
    Senator Durbin. I'm sorry, Senator Lautenberg missed the 
video. We want to make sure he gets a chance to see it later, 
but it was very dramatic in showing the difference in each.
    So, Mr. Counts, as I understand what you're saying here, 
TB-117, the California standard relative to flame-retardant 
chemicals, kind of became a national standard, because 
furniture makers who are selling a lot of furniture in 
California are all around the country.
    And now what I hear is, based on scientific evidence, the 
industry is backing away from the use of these chemicals, and 
the Governor in California has raised questions about the 
standard itself.
    So I guess my basic question is, when it comes to furniture 
flammability today, is the furniture industry looking at their 
products in a different way in terms of how to make them safe, 
and not introduce toxic chemicals that may endanger customers?
    Mr. Counts. Yes, Senator, we are.
    In my written testimony, I noted that, in 2005, the 
furniture industry voluntarily phased out the use of PBDEs in 
our upholstery foam. EPA took action on that later in 2010, I 
believe.
    So we're monitoring very closely European studies. We're 
working with our suppliers to make sure that all the research 
is available that's possible, working with Arlene Blum and 
others at Cal Berkeley, just to identify what chemicals may be 
trending at potential issues, and we look to phase those out as 
we can. And we'll be working with California on their new 
smoldering initiative as well.
    Senator Durbin. So you referred to something which I know 
nothing about, ASTM-1353, instead of the California TB-117.
    Is this a new standard in terms of flammability and the 
safety of furniture you're recommending to CPSC and you think 
should be an industry standard?
    Mr. Counts. ASTM-1353 is the embodiment of the Upholstered 
Furniture Action Council standard that was developed in 1977 to 
address smolder ignition.
    If you look at the statistics on smolder ignition and the 
trends that I mentioned in my testimony, that along with smoke 
detectors and changing in lifestyles, decreasing smoking, et 
cetera, has added to the decrease in the trend there.
    So that is the standard that we're looking to adopt.
    Senator Durbin. Officer Van Dorpe said something, which I 
thought to myself, I never thought of even looking for this. 
But he suggested, in his five things to make our homes safer, 
one of them is that we should be more sensitive to the 
furniture we buy, in terms of whether or not it is fire safe.
    I cannot recall furniture ever being labeled fire safe. Is 
that something your industry does, advertises?
    Mr. Counts. There is a UFAC hangtag that you can find on 
furniture, typically the retailer might not like hang tags on 
their furniture, and they'll rip that off, and you can't find 
it. There's the California TB-117 tag that's on there, 
occasionally. But those are the two standards.
    Senator Durbin. I'll bet you there aren't a half a dozen 
people in this room that would know what that meant if they saw 
it hanging from the back of a chair. I wouldn't have until this 
hearing.
    Mr. Counts. Well, the hangtag is fairly descriptive, but 
like I said, sometimes it doesn't make it to the consumer.
    Senator Durbin. All right. Thank you much.
    And that's the point I wanted to get to, Mr. Van Dorpe, is 
when it comes to our knowledge of what we're buying and whether 
it's safe, most consumers may not think of it, number one; and 
number two, wouldn't know what to look for.
    Is there something that the firefighters recommend, in 
terms of that choice?
    Mr. Van Dorpe. For a very long time, and this might be a 
little off topic, but for a very long time, the building 
industry said to the fire service, when we were concerned about 
the lightweight construction and taking mass out of buildings, 
where's your data, where's your data?
    We finally have the data now, thanks to you all. So we've 
changed that discussion.
    And oftentimes we hear when we talk about fire safety in 
the homes and sprinkler systems and fire-safe furniture and 
things like that, where the industries will say to us, well, 
consumers won't pay for that. I think we need to start asking 
them, where's your data?
    Has anybody really asked? I mean, you can buy the safest 
car on the planet. There are manufacturers that will advertise 
their cars that way, ``We sell you the safest car. You'll pay a 
little more for it, but we promise you it's the safest car.''
    We can do the same approach with our homes. We can sell 
fire-safe homes. We can sell fire-safe furniture. You want a 
five-star home or a four-star home? What's the difference? One 
is more fire safe than the other.
    We haven't even made the attempt, and we really should.
    Senator Durbin. Good point.
    Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    Sorry I missed the testimony of all of the witnesses. They 
bring good information to us.
    Chief Van Dorpe, firefighters are called on to rush into 
homes that are burning on a regular basis. Inside those homes 
are hundreds of household products--we talked about that--
including many that contain chemicals.
    Now, could we protect the health of the firefighters by 
reforming our Federal chemical laws to reduce toxic substances 
in the homes?
    Before you answer, I want to tell you something that I 
worked on some years ago. We had a fire in Elizabeth, New 
Jersey. And there's a lot of chemicals produced in the State of 
New Jersey.
    And a couple of firemen were going into the burning 
building and their uniforms; their protective uniforms began to 
melt. And it was then that I wrote a law called ``Right to 
Know'', which became the law.
    And when you think about the sofas and fire retardants and 
things of that nature that work against safe opportunities in 
fighting a fire, and the Right to Know.
    And in this case, I just wonder, is there something that we 
might do that would change the nomenclature on fire retardants 
and on every sofa, everything, have a defining message that 
says, hey, be careful, that this can accelerate a fire 
beginning because of the chemicals there? Is there anything 
that you think your firefighter friends and the volunteers 
might do to protect themselves by having more knowledge about 
what's in these homes?
    Mr. Van Dorpe. We can't have too much knowledge about the 
environment that we're operating in. And that environment is 
getting more and more complex all the time.
    The challenge that we face is that, in the residential 
market, as soon as you start talking about our homes, most of 
the regulations, both for building codes and the restrictive 
regulations, go away. And that's where most of our fires are, 
and that's where most of our fire deaths are, and that's where 
most of our exposures are.
    So what American fire service needs for you to do is to 
take what we already know about making buildings safer, making 
products safer, and apply that to all products, not just to 
those that are in hotels or in assembly buildings or other 
places, but across the board.
    We know how to do this. The mattress industry has 
demonstrated it.
    In Europe, England, and in the United Kingdom, if you 
Google ``home fire'', you know, home furniture fires, most of 
your responses come back with United Kingdom references, 
because they've done the work, they've laid the groundwork and 
they've implemented a lot of these lessons.
    So the information is out there. We just need to apply it.
    Senator Lautenberg. What happened on 9/11, New Jersey lost 
700 of its citizens in that calamitous occasion. But we still 
have had consequences of exposure by firemen and other 
emergency personnel. Still now, there are lots of them being 
treated and deaths are taking place because of the effects of 
the fumes and the dust and all of that.
    And what happens when the toxic fumes are coming out there, 
black smoke, when they're burning? What happens to those who 
are trying to do their job, trying to save lives? What steps 
has your department taken to protect your firefighters from 
these health risks, these exposures?
    Mr. Van Dorpe. We're doing several things, one of which is 
to ensure full encapsulation of the firefighters, the less skin 
we have exposed--the standard today is zero, no exposed skin--
the less chemical exposure you have. Increasing our use of 
respiratory protection all the time, not just some of the time 
or when we think we really need it.
    And then the other thing we do, we launder our equipment on 
a regular basis, because we find that if you don't do that, 
then those chemicals stay in your clothing, and then every time 
you put them on, you're re-exposing yourself, whether you're in 
a fire or not. So our turnout gear, our firefighting gear, gets 
laundered on a regular basis.
    So we're taking what constructive steps we can to reduce 
that chemical exposure.
    Senator Lautenberg. Last question for me, Mr. Chairman.
    Mr. Schaefer, UL research suggests that flame-retardant 
chemicals in foam furniture do not provide significant 
benefits.
    Based on your analysis, do you think there are safer and 
more effective ways than fire retardants to reduce fire 
hazards?
    Mr. Schaefer. Fire retardants or alternate means?
    Senator Lautenberg. Yes.
    Mr. Schaefer. Yes, there are safe alternative ways, such as 
the use of fire barriers, where we saw very vividly there was a 
significant difference in the fire performance of furniture.
    Senator Lautenberg. Define, if you would, a fire hazard. 
What would you define as a fire barrier?
    Mr. Schaefer. A fire barrier is basically an inner covering 
that's placed over the foam material, for example. So it 
provides a shield, basically, between the source of the 
ignition, which could be the outer covering of the furniture, 
and the foam content.
    And this technology has been used very effectively by the 
mattress industry, where they were also looking at flammability 
issues. And there's probably no piece of furniture that's in 
more intimate contact with a human being.
    And they found, through the use of fire barriers, they 
could meet the flammability requirements and at the same time 
not introduce flame-retardant chemicals.
    Senator Lautenberg. Mr. Chairman, I want to say thanks for 
bringing this subcommittee hearing up, because there's so much 
going on. And it took a Chicago Tribune expose to really bring 
attention to one part of the thing that is never visible--you 
don't know--discharging toxic chemicals into the air, just by 
sitting on a sofa or something like that.
    But we have to continue. When you talk about the number of 
deaths, Chief, that occur every day in the country as a result 
of fires, we've got to wake up to the alarm.
    Senator Durbin. Thanks, Senator Lautenberg. And thanks for 
your leadership on this.
    Mr. Schaefer, before I conclude, I am struck by the fact 
that, though I'm a fan of CPSC--and we recently put a reform in 
place, we're now investing more Federal funds in the CPSC than 
we have ever, and I trust its leadership--when I listen to the 
fact that this started in 2003, this investigation, and it 
still isn't over, isn't finished--you talked about starting in 
2008 and apparently getting into a lot more the impact of 
flame-retardant chemicals and ignition of furniture and so 
forth--I think I know the answer to this, and I think I may end 
up looking in a mirror, why is it that the CPSC takes so long 
to reach a conclusion, when, in your business, your not-for-
profit undertaking, you seem to be able to do it in a shorter 
period of time?
    Mr. Schaefer. I really can't comment what impacted CPSC. I 
do know, with other work we've done, there can be challenges 
with getting consistent, uniform test sample foams and things 
like that. I could speculate. I know there were considerable 
issues with import safety that came up in the last few years, 
and I'm sure that diverted some energy. And I know there were 
also funding challenges for CPSC in past years.
    But I think, and this is where this subcommittee is to be 
applauded, sometimes it takes a spotlight on an issue to really 
get it elevated and acted upon.
    Senator Durbin. I still remember Chairman Tenenbaum's 
statement that they worked for 2 years to find a standard 
cigarette to use to determine whether the fire was being 
started in the proper way or in a consistent way. And 2 years 
seems like a long time to me, as a layman.
    But let me just say thank you to this panel.
    And, Chief, thank you very much.
    Mr. Counts, thank you for your statements on behalf of the 
furniture industry.
    Mr. Schaefer, very proud of UL, the work that you do in our 
State and around the country.
    We wouldn't be here today were it not for the Chicago 
Tribune series. It really opened the eyes, not only of people 
in the Midwest, but all across the country and beyond about a 
very, very serious issue that affects every family with 
furniture. That's just about all of us. And every family that's 
concerned about that public health of the people living in 
their homes. Again, just about all of us.
    And when it comes right down to it, I think what we found 
is there was, sadly, an unfortunate political effort under way 
to promote the use of chemicals in certain applications, which 
did not make us any safer. In fact, it endangered the public 
health of America.
    It was a sinister and, in many respects, shameful exercise 
of our political system that led to the status that we found 
ourselves in with these chemicals being used widely in the 
belief that they were keeping us safer.
    We've learned a lot. And I think what I've heard today, the 
furniture industry and everyone has learned a lot in the 
process. I just hope that we can understand at the end there is 
a legitimate oversight role for Government, to take a look at 
the private sector and to keep us safe, whether it's the CPSC 
or EPA or many other agencies. And we have to make sure that we 
safeguard that, regardless of the administration, and make sure 
that we have the resources to deal with the challenges we face 
to get people the certainty they need in their lives.

                          PREPARED STATEMENTS

    I'm going to ask unanimous consent that statements from the 
San Francisco Firefighters Cancer Prevention Foundation and the 
U.S. Fire Administration be included in the record.
    Since there's no one here to object, that's going to 
happen.
    [The statements follow:]
  Prepared Statement of San Francisco Firefighters Cancer Prevention 
                               Foundation
    Honorable members of the Financial Services and General Government 
Appropriations Subcommittee: First, I would like to apologize for not 
being physically present at this meeting. I had a previous commitment 
that I had to keep.
    I would like to give you a little history about myself and the San 
Francisco Firefighters Cancer Prevention Foundation before my written 
testimony.
    I am a retired Captain from the San Francisco Fire Department 
(SFFD) with 28 years of service. I spent the last 13 years of my career 
as an officer at Rescue 1, Station 1 and proud to say one of the 
busiest firehouses in the United States. After 26 years on the job, I 
contracted Transitional Cell Carcinoma in my right renal pelvis--a rare 
form of cancer usually found in people who work in the ``chemical 
industry'' according to my doctor. During my treatment and recovery, 
two more firefighters from my station also contracted Transitional Cell 
Carcinoma--only the common form, bladder cancer. It also seemed like 
every month we were attending a funeral of another firefighter that had 
lost his battle with some form of cancer. In 2006, with the support of 
the department's administration and San Francisco Firefighters Local 
798, I formed the San Francisco Firefighters Cancer Prevention 
Foundation dedicated to the early detection and prevention of cancer in 
both active and retired firefighters. Since its inception we have 
conducted five major cancer screenings. Through these screenings we 
have identified five retired firefighters and one active firefighter 
with various forms of cancer. At the time of the screenings these 
individuals were not aware they had cancer.
    Our foundation has also been involved in three studies. The first 
study (published in 2007) was conducted by the Department of Urology at 
UCSF and identified bladder cancer rates in the SFFD greater than the 
population in general and of major concern for the entire firefighting 
profession.
    Our second study is currently being conducted by the Centers for 
Disease Control and Prevention (CDC) looking at causes of death in a 
cohort of 30,000 firefighters (5,538 participants from SFFD; 15,461 
from Chicago Fire; and 10,652 from Philadelphia Fire) dating back to 
1950. The study should be published with results sometime in 2014.
    The third study is one that I will highlight in my testimony. It 
will be published very soon. The title of the study is ``Halogenated 
Flame Retardants, Dioxins, Furans, and Other Persistent Organic 
Pollutants in Serum of Firefighters from Northern California''. The 
``Firefighters from Northern California'' that it refers to is a cohort 
of 12 firefighters from San Francisco. I have been given permission by 
one of the lead researchers, Susan D. Shaw, DPH, to discuss various 
findings of the study.
    The question posed by Senator Durbin: ``How has the use of flame-
retardant chemicals affected the lives of firefighters and their 
ability to do their jobs?''
    We must first remember that firefighters are exposed everyday in 
the same manner that the population in general is to the effects of 
flame retardants that escape from household products and settle in dust 
whether it be in the workplace or at home . . . But once a firefighter 
enters a burning building it is a completely different set of 
circumstances.
    Firefighters are fully aware that we work in a ``chemical 
cocktail'' every time we enter a building on fire. Does that hinder the 
fire extinguishment? The definitive answer is, ``Absolutely not.'' It 
is our job to extinguish the fire, preserve life and property, and get 
the job done. The firefighters' biggest fear is what occurs once the 
fire is extinguished and the ``overhaul'' process begins. It is during 
this period of time where ``off gassing'' occurs. Products of 
combustion have been extinguished but the emission of toxic gases 
continues. Most departments have Combustion Gases Indicators (CGIs) 
that are used to measure various toxins in the atmosphere once a fire 
is extinguished. Once the CGI indicates a ``clear'' atmosphere, 
firefighters are allowed to remove their scuba gear. The problem with 
this is that the CGIs have the ability to pick up a few toxic gases, 
but nowhere near the 100-plus toxic gases that remain in the 
atmosphere. We are now being told that even if all personal protective 
equipment remains in place brominated and chlorinated fire retardants 
have the ability to permeate the protective equipment worn by 
firefighters. Additionally, if this protective equipment is not 
properly decontaminated immediately when returning to quarters, 
firefighters risk continual exposures every time they don the 
protective equipment.
    Flame-retardant chemicals (Polybrominated diphenylethers [PBDE]) 
are applied onto or in many common household goods, furniture foam, 
plastic cabinets, computers, small appliances, consumer electronics, 
wire insulation, back coatings for draperies, and upholstery to name a 
few. These gases are not picked up by CGIs. These chlorinated and 
brominated flame retardants produce both toxic dioxins and furans when 
they burn which have been proven to cause cancer. The significantly 
elevated rates of cancer reported in firefighters (Kang et al. 2008, 
LeMasters et al. 2006, Hansen 1990) include four types that are 
potentially related to exposure to dioxins and furans:
  --Multiple myeloma;
  --Non-Hodgkin's lymphoma;
  --prostrate; and
  --testicular cancer.
    A question that lingers in our profession is do these chemicals 
combine synergistically with other toxins in the atmosphere and 
exacerbate the effect of other toxic carcinogens? What we do know is 
that our rate of contracting various forms of cancer is increasing. We 
are also fully aware that these flame-retardant chemicals bioaccumulate 
in our blood, fat tissue, and in mother's milk.
    Through our foundation, SFFD participated in a study examining the 
levels and patterns of halogenated compounds in the serum of the 
firefighters and compares contaminant concentrations in this cohort 
with those in the general population and other studies in the United 
States and worldwide. The cohort included 12 firefighters who willingly 
gave blood after two separate fires in San Francisco.
    The study of our firefighters showed levels of PBDEs more than 30 
percent more than the general population of California and more than 60 
percent more than the general population of the United States. We had 
one firefighter with a PBDE level of 442ng/g of lipid weight which is 
11 times greater than the average of the general population of the 
United States. The PBDE concentration in San Francisco firefighters was 
20-30 times higher than levels found in the general population of Japan 
(Uemura et al. 2010), Hong Kong (Qin et al. 2011) and the United 
Kingdom (Thomas et al. 2006). With this information we are now hoping 
for a much broader study to take place.
    Another issue that has to be addressed in regards to flame 
retardants is the rising cases of breast cancer we are seeing in our 
female firefighters in San Francisco. We have more than 200 female 
firefighters in San Francisco--the most of any major metropolitan city 
in the United States. Many of these women are nearing the age of 
retirement. To our knowledge there have been no major studies in 
regards to the health of female firefighters mainly because they have 
only been in the profession for 40-plus years. In our 40-49-year-old 
group of female firefighters we have 117 women. In that group we have 
had eight cases of breast cancer. The national average of breast cancer 
for the 40-49-year-old female group is 1 in 69. It is a known fact that 
PBDEs bioaccumulate in mother's milk in the general population. It is 
also known that PBDEs are neurodevelopmental toxicants. The unknown is 
what level of PBDEs is in the mother's milk of a female firefighter and 
what effect that is having on their children. Our foundation is in the 
preliminary stages of a study addressing the health issues of our 
female firefighters.
    As far as the benefits of flame retardants, I think Dale Ray, a top 
official with the Consumer Product Safety Commission, who oversaw the 
2009 tests at a laboratory outside Washington summed it up best in the 
Chicago Tribune series on flame retardants when he stated, ``We did not 
find flame retardants in foam to provide any significant protection. 
Moreover, the amount of smoke from both chair fires (one treated, one 
not treated) was similar''. Ray noted that most fire victims die of 
smoke inhalation, not the flames.
    It is probably to late for this generation of firefighters to be 
protected by a change in the current toxic flame-retardant standard. 
But the generations of firefighters to come will be forever thankful 
that this very important step was taken.
                                 ______
                                 
      Prepared Statement of the United States Fire Administration
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to address this hearing and to provide the views of the 
United States Fire Administration (USFA) on the topic of furniture 
flammability and home fire safety. I appreciate the opportunity to 
discuss these important issues, which are of growing concern to the 
USFA.
                               background
    Over the past 40 years, the number of lives lost fighting fires 
across the United States has decreased dramatically. In 1971, this 
Nation lost more than 12,000 citizens and 250 firefighters to fire. 
Acting to halt these tragic losses, the Congress passed Public Law 93-
498, the Federal Fire Prevention and Control Act, in 1974, which 
established the USFA. Since that time, through data collection, public 
education, research and training, USFA has helped reduce fire deaths by 
more than one-half--making our communities and our citizens safer.\1\
---------------------------------------------------------------------------
    \1\ USFA Web site; http://www.usfa.fema.gov/about/.
---------------------------------------------------------------------------
    In spite of these efforts, America's fire death rate continues to 
be one of the highest per capita in the industrialized world. Fire 
kills approximately 3,500 people and injures another 18,300 each year. 
Included in these fire fatalities are the approximately 100 
firefighters who die on duty each year. Direct property losses due to 
fire reach more than $12 billion a year. Most of these deaths and 
losses are preventable.\1\
    More than 80 percent of fire deaths occur in homes, an environment 
where citizens expect that they should be most safe. USFA is 
increasingly concerned about current trends that portend a looming 
catastrophe for the Nation: an aging population combined with changes 
in residential construction and use of highly flammable materials that 
create tremendous risk for fast-burning fires.
    A summary of USFA's concerns is outlined below:
  --Since the 1960s and 1970s, materials used in home furniture and 
        furnishings have changed dramatically. Furniture fabrication 
        has changed. Furniture that was once made with heavy wood 
        frames, cotton batting, and wool fabric is now made with light 
        wood or plastic frames, polyurethane foam, and synthetic 
        fabric. Fires involving this newer furniture grow much, much 
        faster than fires in older furniture. Research has shown that 
        the time available to escape a flaming fire in a home has 
        decreased significantly from 17 minutes in 1975 to only 3 
        minutes in 2003; a change that has been attributed to the 
        increased combustibility of home furnishings.\2\ Carpets, 
        draperies, clothing, entertainment systems, computers, and many 
        other items commonly found in homes are also made of synthetic 
        materials that have similar burning characteristics in an 
        established fire in a home. Many of these materials are 
        required to pass tests for resistance to small sources of 
        ignition, but once ignited, they burn fast and hot.
---------------------------------------------------------------------------
    \2\ Bukowski, R.W., et al., Performance of Home Smoke Alarms: 
Analysis of the Response of Several Available Technologies in 
Residential Fire Settings, NIST Technical Note 1455-1, National 
Institute of Standards and Technology, Gaithersburg, Maryland, February 
2008.
---------------------------------------------------------------------------
  --The significant changes in the materials found in our homes are not 
        limited to the contents and furnishings that occupants bring 
        into their homes. Important building elements are now made of 
        synthetic materials that burn faster and hotter than 
        traditional construction materials. Vinyl siding and exterior 
        finishes, window and door frames, doors, foam insulation board, 
        and other components made of synthetic materials all contribute 
        to faster fire spread. Though some of these items are required 
        to pass tests for resistance to ignition, they too, burn 
        rapidly once lighted.
  --The past 30 years have seen a dramatic increase in the use of 
        lightweight construction assemblies such as trusses and other 
        engineered assemblies in home construction and remodeling. 
        These assemblies fail earlier during a fire than traditional 
        dimensional lumber, all other factors being equal. Failure of 
        these assemblies can result in structural collapse that 
        threatens the lives of both the building occupants and 
        responding firefighters.
  --During this same time period, architects have made use of the wide 
        span capabilities of these engineered structural assemblies to 
        create remarkable and spacious home plans. These large wide-
        open spaces allow for faster fire development than smaller 
        rooms found in older homes.
  --Recent advances in energy conservation features have also had an 
        impact on how a fire grows in a home. As a result of 
        increasingly air-tight window and door fixtures, among other 
        efficiency improvements, firefighters are experiencing an 
        increase in the number of serious events such as ``backdrafts'' 
        and ``smoke explosions'' that threaten the lives of both 
        trapped occupants and firefighters.
    Despite the many benefits to the advances in building technologies 
and materials in modern times, these advances have developed over time 
without expectation or analysis of the resultant cumulative effect on 
occupant safety from fire within residences. The resulting adverse 
impact to fire safety was not anticipated.
    While many in the fire service have long-recognized the potential 
impact of changes in building technologies and material construction, 
only in recent years have the risks associated with these issues come 
under investigation. Recent research clearly shows that these 
innovations have dramatically changed the way a fire develops, grows, 
and spreads in a home. Fires in homes today develop, grow, and spread 
faster than ever before.
    Concurrent with this dramatic change in the development and 
behavior of fires in the home, we are beginning to experience the much-
heralded aging of our population. As we age, we become less able to 
awaken to the sound of a smoke alarm \3\ \4\ \5\ and we are less able 
to move quickly. The significant reduction in time available to escape 
a home fire combined with the declining sensory and mobility 
characteristics of older citizens is a recipe for disaster. USFA is 
concerned that the reductions in the number of fire deaths and injuries 
made over the last 40 years could be overcome by the potential for loss 
of life as a result of this deadly combination.
---------------------------------------------------------------------------
    \3\ A Review of the Sound Effectiveness of Residential Smoke 
Alarms, CPSC-ES-0502, U.S. Consumer Product Safety Commission, December 
2004.
    \4\ Geiman, J.A., and D.T. Gottuk, Reducing Fire Deaths in Older 
Adults: Optimizing the Smoke Alarm Signal, Fire Protection Research 
Foundation, Quincy, Massachusetts, May 2006.
    \5\ Bruck, D.A., I. Thomas, and , A. Kritikos, Reducing Fire Deaths 
in Older Adults: Investigation of Auditory Arousal with Different Alarm 
Signals in Sleeping Older Adults, Fire Protection Research Foundation, 
Quincy, Massachusetts, May 2006.
---------------------------------------------------------------------------
                               situation
    Citizens, firefighters, elected officials, and others across 
America share the USFA's concern over the relatively high number of 
fire deaths in America's homes, and the changing nature of fire hazards 
in our homes. The fire problem is becoming more complex, and it 
continues to defy simple fixes, despite the desire to find easy 
answers. The Consumer Product Safety Commission (CPSC) is taking on the 
important task of reducing the adverse impact of one of the known 
factors adding to the home fire hazard problem, the flammability of 
upholstered furniture. They are doing so with scientific research and 
consideration by agencies such as Underwriters Laboratories (UL) and 
the National Institute of Standards and Technology (NIST).
    UL has recently completed an extensive project on furniture 
flammability. While UL's work has not been fully published at this 
time, what we have seen demonstrates beyond all doubt that modern 
furniture presents a much greater fire challenge than the furniture 
used by our grandparents. While it is not the only way to improve fire 
performance of upholstered furniture, the positive impact that the 
current fire barrier technology can provide was clearly demonstrated in 
this work.
    NIST has done outstanding multidimensional work addressing the 
subject of furniture flammability, and is continuing to explore several 
avenues that show great promise. USFA applauds the work done at NIST 
and looks forward to ongoing collaboration with their research team.
    CPSC has proposed a regulatory approach that is based on the best 
science currently available. USFA supports the work that CPSC has done 
on the topic and recognizes their effort as a thoughtful approach to 
improving home fire safety by attacking one significant part, 
flammability of upholstered furniture, of an increasingly complex 
residential fire problem.
                               conclusion
    USFA believes that the approach proposed by CPSC is an important 
step in improving home fire safety, but that it is not a final 
solution. As our collective understanding of the underlying science 
improves, we anticipate that there will be opportunities for voluntary 
improvements by the industry or a need for additional regulatory 
actions.
    Thank you, Mr. Chairman, for providing this opportunity to provide 
the views of USFA on the topic of furniture flammability and home fire 
safety. I appreciate the opportunity to discuss these issues, and look 
forward to providing further information as requested.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. We're going to keep the record open for 1 
week, until noon on Wednesday, July 24. We may be sending you 
some questions along the way, follow-up questions.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]
                Questions Submitted to Inez M. Tenenbaum
            Questions Submitted by Senator Richard J. Durbin
consumer product safety commission's upholstered furniture flammability 
                                standard
    Question. In your testimony, you reference that much of the delay 
has resulted from the necessity of developing standard reference 
materials (such as standard cigarettes or standard foam) for testing. 
Are there remaining standard reference materials that need to be 
developed before you can move forward with finalizing the proposed 
rule?
    Answer. The research to determine the specifications for Standard 
Reference Material (SRM) foam was completed in July 2012. Consumer 
Product Safety Commission (CPSC) staff is working with the National 
Institute of Standards and Technology and manufacturers to acquire SRM 
foam for testing as soon as possible. The staff also may conduct some 
additional work to select the best standard cover fabric for testing in 
accordance with the proposed rule.
    Question. Under the rulemaking authorities that you currently have, 
what steps still remain in order to complete the standard, and what is 
your best estimate of when the standard might be completed?
    Answer. The remaining steps in the rulemaking include:
  --testing to determine the necessary revisions to finalize the 
        proposed rule;
  --testing the materials subject to the proposed rule to determine 
        that compliance can be achieved;
  --evaluating furniture constructed with compliant materials to 
        estimate the reduction of deaths and injuries that could result 
        from the proposed rule; and
  --drafting the text of the final rule and developing the final 
        regulatory analysis.
    The staff will also continue to work cooperatively with the State 
of California's Bureau of Electronic & Appliance Repair, Home 
Furnishings & Thermal Insulation (BEARHFTI) as that agency proceeds 
with its work to revise Technical Bulletin 117 (CA TB 117). TB 117 
currently contains performance standards that effectively require the 
use of flame retardants in upholstered furniture. Future changes in TB 
117 could have an impact on the rulemaking proceeding. With those 
caveats, CPSC staff estimates, subject to Commission direction, 
completion of the final rule in 2015.
                   california technical bulletin 117
    Question. What role does California TB 117 (CA TB 117) play with 
regard to your efforts to finalize a standard for upholstered furniture 
flammability?
    Answer. There is a high degree of compliance with CA TB 117, not 
only in California, but also across the Nation. The existing CA TB 117 
is essentially a de facto national standard. CPSC staff continues to 
work cooperatively with BEARHFTI on possible revisions to CA TB 117, 
and elements of the Commission's proposed rule are incorporated into 
California's latest draft revised regulation, known as CA TB 117-2012. 
As CPSC moves forward with its own rulemaking, the Commission staff 
will continue to monitor CA TB 117-2012 developments and will consider 
the potential effects of a revised California regulation on the level 
of consumer safety.
    Question. Does the fact that the California Governor recently 
ordered that CA TB 117 be revised impact your efforts?
    Answer. The revision of CA TB 117 will not impede CPSC's efforts to 
address the fire risk associated with ignitions of upholstered 
furniture. Throughout the upholstered furniture rulemaking process, 
CPSC staff has always envisioned a rule that does not require the use 
of flame retardants to meet performance standards. Revising or removing 
the open-flame requirement of CA TB 117 would eliminate the practical 
need for manufacturers to use flame retardants in upholstered furniture 
sold in California and across the United States. Accordingly, CPSC 
staff is carefully monitoring the progress of the CA TB 117 revision 
efforts.
    Question. What will be the effect if CA TB 117 is completed prior 
to your standard?
    Answer. As required under the Flammable Fabrics Act (FFA), CPSC 
preliminarily determined that the proposed rule was needed to address 
an unreasonable risk of fire injury or death to the public when it 
issued a proposed rule in 2008. The proposed rule included an 
assessment of reasonable alternatives to the proposal, including 
reliance upon the existing California regulations. If a revised TB 117-
2012 were completed prior to our rule, CPSC would need to evaluate the 
revision to determine whether a Federal rule is still needed to address 
the fire risk.
    Question. If California fails in their efforts to update CA TB 117, 
can CPSC preempt CA TB 117 with your proposed rule?
    Answer. In general, section 16 of the FFA provides that whenever a 
flammability standard or other regulation for a product is in effect 
under the FFA, no State may establish or continue in effect a 
flammability standard or other regulation for that product, if the 
standard or regulation is designed to protect against the same risk of 
occurrence of fire as the FFA standard or regulation, unless the State 
standard or regulation is identical to the FFA standard or regulation. 
Because the CPSC rule and CA TB 117 are both designed to address the 
same unreasonable risk of occurrence of fire presented by flammable 
upholstered furniture, any Federal rule by CPSC would have preemptive 
effect. I should note, however, that the decision as to whether our 
rule has preemptive effect ultimately will be determined by the courts.
     response to american home furnishings alliance recommendations
    Question. The American Home Furnishings Alliance (AHFA) recommends 
that CPSC immediately adopt American Society for Testing and Materials 
(ASTM) 1353 as a Federal mandatory standard while continuing work on 
the CPSC proposed standard?
    Answer. The Upholstered Furniture Action Council (UFAC) voluntary 
guidelines are based on tests prescribed in the ASTM E1353 test method. 
The vast majority of upholstered furniture sold in the United States 
conforms to the voluntary guidelines. While some elements of the CPSC's 
proposed flammability performance tests are similar to the ASTM 1353 
standard, CPSC staff reviewed the ASTM/UFAC approach and concluded that 
it was inadequate because conforming furniture can still ignite and 
burn from smoldering cigarettes. The CPSC proposal incorporated 
significant improvements to the ASTM/UFAC method and is more stringent. 
Mandating the ASTM E1353 method, as embodied in the current UFAC 
guidelines, would impose modest costs, but also provide only negligible 
safety benefits.
    Question. How does ASTM 1353 differ from what CPSC is proposing?
    Answer. There are two principal, substantive differences between 
the ASTM tests and the smoldering ignition tests in CPSC's proposed 
rule. The first involves relatively small differences in the test 
methods themselves. The second involves larger differences in the 
acceptance criteria that determine the stringency of the performance 
tests.
    With regard to the test methods, the ASTM method measures char 
length from the lit cigarette placed on an upholstery mockup. The 
mockup is encased in a box that artificially restricts airflow to an 
unrealistically low rate. The cover fabric is classified as either 
``Class 1'' or ``Class 2'' based on the char length resulting from the 
test. If the char is within the 2-inch specified length, the cover 
fabric is Class 1 under the UFAC guidelines and may be used without 
restriction; if the char exceeds the 2-inch specified length, the 
fabric is Class 2 under the UFAC guidelines. For Class 2 fabrics, the 
use of a smolder-resistant barrier (typically polyester batting) 
beneath the cover fabric is prescribed to provide additional smolder 
resistance for the finished article of furniture. The UFAC/ASTM 
approach represents the status quo in the industry; virtually all 
fabrics are classified as Class 1, although in tests conducted by CPSC 
staff, some Class 1 fabrics were so smolder prone that they produced 
dangerous smoldering or transitioned to flaming combustion even when a 
polyester batting layer that would have been required for Class 2 
fabrics was present.
    The main difference is in the acceptance criteria. CPSC's proposed 
rule classifies furniture as ``Type I'' or ``Type II'' based on 
acceptance criteria of the proposed test. CPSC's proposed Type I 
smoldering test for upholstery cover fabrics uses the basic UFAC/ASTM 
mockup test configuration, but controls airflow without a box, limits 
maximum allowable smoldering time to 45 minutes, and limits mass loss 
of the (nonflame-retardant) polyurethane foam substrate beneath the 
fabric to 10 percent. This test is a much better indicator of the 
likelihood of continued combustion and fire growth, and it identifies 
more effectively smolder-prone cover fabrics.
    While most cover fabrics are still expected to pass the smoldering 
resistance test and be used in complying, Type I furniture, fabrics 
that fail the smolder-resistance test can only be used in Type II 
furniture. Type II furniture is that which is constructed with a fire-
blocking barrier beneath the cover fabric. Compliant Type II barriers 
must pass a stricter smolder-resistance test; they must also pass a 
flame-resistance test that simulates the potential transition from 
smoldering to flaming combustion.
    Question. What is your response to AHFA's recommendation that your 
proposed standard rely on the use of compliant components (individual 
pieces that are used to construct the final furniture) instead of on 
the use of composite testing (testing of the completed furniture)?
    Answer. CPSC's proposed rule relies on the use of complying 
component materials, rather than on composite assemblies, consistent 
with AHFA's recommendation. The principal advantage of this approach is 
economic efficiency-suppliers of the various components can test and 
certify their materials, and furniture manufacturers can choose from 
among many complying materials, without having to duplicate compliance 
tests for each of thousands of potential combinations. Balanced against 
the desire for low cost, however, is the need to ensure that complying 
components will perform as intended when assembled into the wide range 
of constructions and geometries in finished articles of upholstered 
furniture. CPSC staff will continue to be mindful of these issues as 
they move forward with the rulemaking.
                       flame-retardant chemicals
    Question. The Environmental Protection Agency (EPA) has 
jurisdiction over evaluating the toxicity of flame-retardant chemicals 
under the Toxic Substance Control Act but, in 1977, CPSC attempted to 
use their authority under the Federal Hazardous Substances Act to ban 
the use of a flame retardant--``tris'', a harmful carcinogen--from use 
in children's clothing. Though the ban was overturned on procedural 
grounds, could the CPSC use this authority to take similar steps to ban 
the use of certain toxic flame-retardant chemicals in upholstered 
furniture?
    Answer. While EPA has authority to regulate flame-retardant 
chemical risks under the Toxic Substances Control Act, CPSC has 
authority under the Federal Hazardous Substances Act (FHSA) to regulate 
a ``hazardous substance'', as defined in the FHSA, that is intended or 
packaged in a form that is suitable for use in the household. In other 
words, the CPSC does not regulate chemicals, but it can regulate a 
product, such as upholstered furniture, if that product contains a 
hazardous substance and the Commission is able to make the requisite 
findings under the FHSA. See 15 U.S.C. 1261(f) and (q)(1)(B); 1262(f) 
through (i).
    CPSC staff has conducted risk assessments for fabric, foam, and 
barrier flame retardants. Staff identified one foam flame retardant, 
known as TDCP or ``chlorinated tris'', as a potential carcinogen. To 
regulate upholstered furniture containing this or other flame 
retardants under the FHSA, CPSC would have to find that upholstered 
furniture containing the chemical is a ``hazardous substance'' under 
the FHSA and that cautionary labeling would not adequately protect 
public health and safety. A ``hazardous substance'', as defined in the 
FHSA, includes a substance that is toxic and ``may cause substantial 
personal injury or substantial illness during or as a proximate result 
of any customary or reasonably foreseeable handling or use.'' See 15 
U.S.C. 1261(f)(1)(A). FHSA also requires, among other things, a final 
regulatory analysis of the costs and benefits of the regulation, a 
description of alternative approaches to regulation, as well as an 
analysis of the costs and benefits of those alternatives, and why they 
were not chosen as part of the final rule.
    To date, CPSC staff has worked cooperatively with EPA staff outside 
of the FHSA rulemaking context to identify and address potential risks 
associated with a category of flame-retardant chemical compounds known 
as polybrominated diphenyl ethers (PBDEs) that had been used in 
upholstered furniture to meet CA TB 117. EPA proposed a Significant New 
Use Rule (SNUR) for two PBDEs (penta- and octa-BDE) in 2004 and another 
SNUR (deca-BDE) in 2012. Penta- and octa-BDEs are now out of 
production, and deca-BDE production is expected to cease by December 
31, 2013. Going forward, CPSC staff and EPA staff will continue to work 
cooperatively on issues related to flame retardants.
                                 ______
                                 
                 Questions Submitted to James J. Jones
            Questions Submitted by Senator Richard J. Durbin
                       flame-retardant chemicals
    Question. Tris(1,3-dichloro-2-propyl)phosphate (TDCP) is the 
chlorinated version of a chemical known as ``tris'' that the Consumer 
Product Safety Commission (CPSC) attempted to ban from children's 
sleepwear in the late 1970s after it was found to be carcinogenic. 
Despite its similarity to tris, TDCP is a widely used flame retardant 
in furniture cushions and baby products. Along with components of 
Firemaster 550, Environmental Protection Agency (EPA) has placed a 
chlorinated flame retardant, Tris(2-chloroethyl)phosphate (TCEP), on a 
list of chemicals that will be reviewed next year under its Toxic 
Substances Control Act (TSCA) work plan. However, EPA did not place 
TDCP on the list. Why not?
    Answer. In March 2012, following the development of the ``TSCA Work 
Plan Chemicals: Methods Document'', a screening process to identify 
chemicals for review based on their combined hazard, exposure, 
persistence, and bioaccumulation characteristics, EPA identified 83 
work plan chemicals for risk assessment under TSCA.\1\ Of these, an 
initial seven chemicals were identified for risk assessment development 
in 2012.\2\ Although TDCP has chemical characteristics similar to other 
flame retardants, it did not meet any of the specific listing criteria 
identified in the TSCA Work Plan methods document. Specifically, it was 
not identified as a known or probable human carcinogen by the 
Integrated Risk Information System, International Agency for Research 
on Cancer, or National Toxicology Program, and was not reported as 
being in children's products through the 2006 Information Use Reporting 
or the Washington State Children's List. Consumer products were not a 
screening category for step 1 in the Work Plan development process.
---------------------------------------------------------------------------
    \1\ http://www.epa.gov/oppt/existingchemicals/pubs/wpmethods.pdf
    \2\ http://www.epa.gov/oppt/existingchemicals/pubs/
workplans.html#2012
---------------------------------------------------------------------------
    On June 1, 2012, EPA identified 18 additional chemicals from the 
TSCA Work Plan, which the Agency intends to review and for which the 
Agency will develop risk assessments in 2013 and 2014, including three 
flame-retardant chemicals:
  --Bis(2-Ethylhexyl)-3,4,5,6-tetrabromophthalate (TBPH);
  --2-Ethylhexyl-2, 3,4, 5-tetrabromobenzoate (TBB); and
  --Tris(2-chloroethyl)phosphate (TCEP).\3\
    EPA is currently developing a strategy, scheduled for completion by 
the end of this year, to address these three flame-retardant chemicals 
as well as a broader set of flame-retardant chemicals. This effort will 
assist EPA in focusing risk assessments on those flame-retardant 
chemicals that pose the greatest potential concerns. EPA anticipates 
initiating the risk assessments in this category of chemicals in 2013.
---------------------------------------------------------------------------
    \3\ http://www.epa.gov/oppt/existingchemicals/pubs/
workplans.html#2013
---------------------------------------------------------------------------
    Question. Polybrominated diphenyl ethers (PBDEs) are a large class 
of flame-retardant chemicals that have been shown to be harmful to 
humans and the environment. What can be done to remove products with 
these chemicals from American homes and properly dispose of them?
    Answer. EPA's regulatory efforts for addressing concerns with PBDEs 
include a Significant New Use Rule (SNUR) issued in 2006, a recently 
proposed SNUR, and a proposed test rule for PBDEs. EPA has also engaged 
producers and importers in negotiations and commitments to voluntarily 
phase out certain PBDEs.
    In 2003, the sole U.S. manufacturer agreed to voluntarily phase out 
production of pentaBDE and octaBDE by December 31, 2004. In conjunction 
with this phase out, EPA issued a SNUR in 2006 which designated the 
manufacture and import of six PBDE compounds as a significant new use. 
The SNUR required persons who intended to manufacture or import tetra-, 
penta-, hexa-, hepta-, octa- and nonaBDE to submit information to EPA 
for review before engaging in the new use. Additionally, the SNUR 
ensured that no new manufacture or import of pentaBDE or octaBDE could 
occur after January 1, 2005.
    Following negotiations with the EPA in 2009, the sole importer and 
two domestic manufacturers of decaBDE voluntarily agreed to stop 
producing decaBDE by December 31, 2012, for all uses except certain 
military and transportation uses, and to stop providing decaBDE for all 
uses by December 31, 2013. On April 2, 2012, the EPA proposed to amend 
the 2006 SNUR by expanding the scope to include processors of PBDEs and 
articles containing PBDEs. The proposed amended SNUR would also 
designate the manufacturing, importing, and processing of decaBDE, 
including in articles, as significant new uses. Along with the proposed 
SNUR, EPA also proposed a test rule for those persons that 
manufactured, imported, or processed commercial PBDEs after December 
31, 2013. With a test rule in effect, manufacturers, importers, and 
processors could be required to conduct health and safety studies to 
inform data gaps.
    To aid companies in moving to safer alternatives, EPA recently 
published, with public participation through its Design for the 
Environment program, a draft report: ``An Alternatives Assessment for 
the Flame-Retardant Decabromodiphenyl Ether.'' Public comments were due 
by September 30, 2012, and EPA expects to finalize the report in the 
coming months.\4\
---------------------------------------------------------------------------
    \4\ http://www.epa.gov/dfe/pubs/projects/decaBDE/about.htm
---------------------------------------------------------------------------
    While these efforts may result in a reduction of products 
containing PBDEs in American homes, we would note that CPSC has 
authority to require recalls if it determines that a product presents 
an unreasonable risk of injury or death. EPA is not aware of CPSC 
requiring a recall of furniture as a result of the product containing 
PBDE. In terms of disposal, PBDE-containing furniture can be disposed 
of in municipal solid waste landfills.
               future efforts regarding flame retardants
    Question. EPA has started a new plan to re-evaluate all of the 
flame retardants on the market with the latest testing and analysis 
methods to see if any of these chemicals poses a risk to the public's 
health. Once you've completed the new plan, what will the next steps 
be?
    Answer. As indicated in the response to question one, EPA is 
currently developing a strategy, scheduled for completion by the end of 
this year, on the three flame-retardant chemicals identified earlier 
this year, as well as on a broader set of brominated flame retardant 
chemicals.
    The strategy will assist EPA in focusing its risk assessments 
efforts on those flame-retardant chemicals that appear to pose the 
greatest potential concerns. EPA anticipates initiating the risk 
assessments on brominated flame retardants in 2013. If an assessment 
indicates significant risk, EPA will evaluate and pursue appropriate 
risk reduction actions. If an assessment indicates no significant risk, 
EPA will conclude its current work on that chemical.
           europe bans or greatly restricts flame retardants
    Question. Furniture flammability is not just an issue here in the 
United States. However, many European countries have taken alternative 
steps to ensure flammability standards can be met without causing 
public health concerns. The United Kingdom has banned the use of 
conventional, flexible polyurethane foams in the manufacture of 
upholstered furniture for sale. In addition, many European countries 
have banned the use of PDBEs and greatly restricted other flame-
retardant chemicals. Does EPA examine how other countries are 
regulating flame-retardant chemicals?
    Could any of these methods be applied here in the United States?
    Answer. EPA is aware of what other countries are doing on flame 
retardants and will consider any data or assessments that are available 
to us. EPA's authority for regulating PBDEs and other industrial 
chemicals must be consistent with TSCA, this country's chemicals 
management legislation. While TSCA provides the authority to take 
action to prohibit or limit the manufacture, import, or use of a 
chemical, the requirements needed to take that action have proven very 
challenging.
    CPSC also encourages the use of barriers to reduce the use or need 
for chemical flame retardants while still meeting, or exceeding 
flammability standards.
    In 2006, CPSC published a regulation on the allowable rate of heat 
release from a mattress;\5\ this has effectively reduced both the size 
and growth rate of fires in mattresses that were in compliance with the 
new standard. Additionally, in 2008, CPSC proposed a rule establishing 
flammability standards on the smolder propensity of upholstered 
furniture.\6\
---------------------------------------------------------------------------
    \5\ http://www.cpsc.gov/businfo/frnotices/fr06/rnattsets.pdf
    \6\ http://www.cpsc.gov/businfo/frnotices/fr08/furnflamm.pdf
---------------------------------------------------------------------------
                      toxic substances control act
    Question. Following the series of articles in the Chicago Tribune 
that highlighted the potential health risk of flame retardant 
chemicals, many of my constituents responded that the Federal 
Government should have protected the public from these chemicals. What 
steps has EPA taken outside of legislation to more effectively regulate 
hazardous chemicals such as flame retardants?
    Answer. EPA engaged in negotiations in 2003 and again in 2009 with 
manufacturers and importers of PBDEs. EPA considers commitments from 
chemical companies to voluntarily phase out certain chemicals from the 
market an important strategy of chemical management. EPA is using SNURs 
to ensure if any PBDEs that have been voluntarily phased out were to be 
reintroduced into commerce, they would first be subject to EPA's 
review.
    In addition to those actions, EPA believes that its current 
approach to identifying chemicals for review and assessment utilizing 
the ``TSCA Work Plan Chemicals: Methods Document'', is a significant 
step to ensuring the safe use of chemicals. If, through this process, 
EPA identifies chemicals that pose a concern, the Agency will evaluate 
and pursue appropriate risk reduction actions, as warranted, using 
existing TSCA authority. If an assessment indicates no significant 
risk, EPA will conclude its current work on that chemical. However, 
identification of chemicals as Work Plan Chemicals does not mean that 
EPA would not consider other chemicals for risk assessment and 
potential risk management action under TSCA and other statutes. EPA 
will consider other chemicals if warranted by available information. 
EPA will also continue to use its TSCA information collection, testing, 
and subpoena authorities, including sections 4, 8, and 11(c) of TSCA, 
to develop needed information on additional chemicals that currently 
have less-robust hazard or exposure data.\7\
---------------------------------------------------------------------------
    \7\ http://www.epa.gov/opptiexistingchemicals/pubs/
workplans.html#not
---------------------------------------------------------------------------
                                 ______
                                 
                  Questions Submitted to Gus Schaefer
            Questions Submitted by Senator Richard J. Durbin
underwriters laboratories testing on upholstered furniture flammability
    Question. In 2008, Underwriters Laboratories (UL) initiated a 
series of tests to determine the most-effective ways to improve 
flammability of upholstered furniture exposed to small open flames 
(namely, candles or lighters). UL has completed all phases of the study 
and is currently finalizing the data for an upcoming report. During 
your testimony you showed two powerful videos that demonstrate the way 
modern furniture burns. But that is only part of your current research.
    When do you expect to finalize and publish the results of the study 
referenced in your testimony?
    Answer. We expect to finalize and publish our findings in a report 
due to be released in early fall 2012. The project report for the 
initial investigation (material, mock-up, and furniture tests), or 
Phase I, is still on schedule for the aforementioned release date. 
Phase II (living room burns) and Phase III (house fires with egress 
estimations) will be finalized and published in the subsequent 2-4 
months.
    Question. Will the results be made available to the public?
    Answer. Yes, UL intends to post our reports upon completion on the 
Upholstered Furniture Flammability project Web page: www.ul.com/
fireservice. This Web page was created in July 2011 to provide the 
public with an overview of the project, our published findings, fire 
demonstration videos, and other related material.
    response to testimony from the american home furnishing alliance
    Question. Testimony from the American Home Furnishing Alliance 
(AHFA) has outlined several concerns regarding the repeatability of 
flammability testing and the difficulty this testing presents for 
manufacturers and for creating new standards. Is it difficult to 
produce reliable, repeatable tests to properly evaluate flammability 
performance?
    Answer. Results of fire tests and other physical tests are impacted 
by the method itself (e.g., equipment and reagents, procedures, 
environment conditions, etc.), the operator, and the sample.
    Standard Test Methods such as those developed by the Consumer 
Product Safety Commission (CPSC), ASTM International, the International 
Organization for Standardization (ISO), the Upholstered Furniture 
Action Council (UFAC), and UL minimize variations from testing and the 
test operators by clearly defining a fixed set of equipment 
requirements, measurement methodologies, and procedural protocol. The 
sample thus becomes the main source of variation. In fact, there are 
defined protocols (ASTM Committee E11 quality and statistics, ISO TC 
46/SC 8 Quality--Statistics and performance evaluation) for verifying 
that the sample, and not the test method, is the limiting repeatability 
factor.
    By following good scientific practice, reliable and repeatable 
tests for evaluating flammability properties can be developed. UL, ASTM 
International, and ISO have long histories of developing standard test 
methods. The developed tests are used on a daily basis for research, 
manufacturer quality control, product certification, and are referenced 
in fire and building codes worldwide.
    Question. AHFA also raised some concerns regarding the 
incorporation of barrier technology into upholstered furniture. How 
would you describe the comfort level of furniture containing barriers?
    Answer. While UL did not factor in ``comfort'' implications into 
the scope of its formal research. However, the furniture UL created for 
its research that incorporated barriers looked, felt, and sounded (for 
example, no crackling or squeaks when sitting or rising) the same as 
furniture made without the barrier.
    UL did investigate a variety of representative barrier types 
including ``high-loft'' barriers and ``flat'' barriers as a part of 
this research, but did not test all available barriers. Depending on 
what type of barrier is used in different parts of the furniture 
(cushions, arm rest, flat surface, etc.), some of these barriers could 
result in furniture that may look, feel, and possibly sound different 
than furniture without the barrier.
    Question. Do you believe incorporating barrier technology into 
furniture would significantly increase the cost to manufacture?
    Answer. From our written testimony: UL's general experience tells 
us that industry is usually able to develop cost-effective and 
efficient approaches to address enhanced safety requirements.
    Question. In your testimony, you discuss the disproportionately 
higher number of home fire deaths related to upholstered furniture. In 
AHFA testimony, Mr. Counts discusses how improvements such as smoke 
alarms and residential sprinklers have has greatly diminished home fire 
deaths. In the past 30 years, what factors have you found to be 
responsible for reducing the number of home fires related to 
upholstered furniture?
    Answer. While smoke alarms and more recently, residential 
sprinklers, have contributed to a reduction in fire deaths related to 
upholstered furniture, the fact remains that fires beginning with 
upholstered furniture and mattresses/bedding are responsible for more 
home fire deaths than any other item (National Fire Protection 
Association [NFPA] report ``Home Fires that Began with Upholstered 
Furniture'', 2011). During the 5-year period of 2005-2009, these fires 
accounted for 19 and 14 percent of deaths and 7 and 10 percent of the 
injuries, respectively. They also accounted for $824 million in direct 
property damage. Contemporary upholstered furniture, or furniture 
constructed with modern synthetic material, leads to a disproportionate 
number of potentially preventable fire deaths as evidenced by the NFPA 
report:

    ``Overall, fires beginning with upholstered furniture accounted for 
2 percent of reported home fires but 1 of every 5 (19 percent) home 
fire deaths.''

    One of the most notable fire protection technologies since the 
1980s is the introduction of residential fire sprinklers. But like the 
current furniture flammability discussion around barrier fabrics, the 
mandating of residential fire sprinklers has faced resistance by many 
within the construction industry because of added cost to homes.
    The city of Scottsdale, Arizona, for instance, mandated the 
installation of residential sprinklers since 1986. The Scottsdale Fire 
Department published a report detailing the positive effects of their 
sprinkler ordinance. Key findings include:
  --More than 50 percent of the homes in Scottsdale (41,408 homes) are 
        protected with fire sprinkler systems.
  --From 1986-2001, there were 598 home fires. Of the 598 home fires, 
        49 were in single-family homes with fire sprinkler systems:
  --There were no deaths in sprinkler-installed homes.
  --13 people died in homes without sprinklers.
  --There was less damage in the homes with sprinklers:
    --Average fire loss per home with sprinklers: $2,166
    --Average fire loss per home without fire sprinklers: $45,019.
    --Annual fire losses in Scottsdale from 2000-2001 were $3,021,225, 
            compared to the national average of $9,144,442.
    The full report can be downloaded from the Home Sprinkler Coalition 
site at http://www.homefiresprinkler.org/fire-department-15-year-data.
                                 ______
                                 
                 Questions Submitted to Andy S. Counts
            Questions Submitted by Senator Richard J. Durbin
        consumer product safety commission flammability standard
    Question. Earlier testimony has shown increased flashover 
(combustion) times, resulting in fires that burn more quickly, leaving 
less time for consumers to escape homes in the case of fire, and also 
less time for firefighters to respond to fires.
    Do you believe current upholstered furniture flammability standards 
are adequately protecting consumers from the risk of furniture fires?
    Answer. Yes, the voluntary Upholstered Furniture Action Council 
(UFAC) standard as reflected in American Society for Testing and 
Materials (ASTM) 1353 is adequately protecting consumers from the risk 
of furniture fires. Despite the absence of a mandatory national 
standard, incidents of deaths and injuries from upholstered furniture 
fires have steadily declined over the last few decades in spite of a 
large increase in the population of this country (see if we can 
quantify from census figures). A recent National Fire Protection 
Association report said that there has been a 93-percent decline since 
1980. While many factors have contributed to this decline, the safer 
construction criteria developed by UFAC undoubtedly played a 
significant role in the downward trend in the number of ignitions of 
upholstered furniture.
    Regardless of the extrapolation method used to estimate the 
national level death and injury figures, the risk level associated with 
death or injury in a cigarette- or small, open-flame-ignited 
upholstered furniture fire is lower than many other risks commonly 
accepted by individuals without concern. Despite population growth, the 
risk of fire fatalities and the number of upholstered furniture fires 
continue to fall. In recent years, the risk has been extremely low: In 
1980 the death rate for cigarette fires was 4.34 per million 
population; by 2002 this death rate had been reduced to 0.53 per 
million population. The death rate for small open-flame fires in 1980 
was 0.61 per million population; by 2002 this death rate had been 
reduced to 0.53 per million population. A risk level of under 1 per 
million is considered by experts to be de minimis, below many everyday 
risks that are essentially unavoidable.
    Question. In your opinion, what is the most-effective way to reduce 
upholstered furniture flammability?
    Answer. We believe that the fire statistics demonstrate the 
effectiveness of ASTM 1353 and this standard achieves that without the 
use of flame-retardant chemicals. Since smolder ignition continues to 
be to the primary source of ignition for upholstered-furniture-related 
fire deaths and injuries, Consumer Product Safety Commission (CPSC) 
should mandate the consensus based and proven requirements of ASTM 
1353. Making it a Federal mandatory standard would further enhance the 
level of compliance achieved by this voluntary standard because 
noncompliant domestic and imported product would now be subject to the 
standard. In addition, the labeling requirements of a mandatory 
standard would help to educate that consumer on the potential dangers 
of upholstered furniture flammability.
    CPSC has been working on a proposed new upholstered furniture 
flammability standard for the last 5 years. The proposed standard could 
be met without utilizing flame-retardant chemicals. It is my 
understanding that a significant portion of the delay in finalizing the 
rule has been establishing standard reference materials for testing.
    Question. In your opinion, what additional issues does CPSC still 
need to resolve before finalizing the rule?
    Answer. CPSC has allowed the perfect to become the enemy of the 
good. Instead of embracing the proven voluntary standard that is ASTM 
1353, CPSC has attempted to make improvements to the testing methods. 
This has resulted in test methods that have not been shown to be 
repeatable or reproducible. Until CPSC subjects their test methods to 
round robin testing, they will be unenforceable. The test methods 
embodied in ASTM 1353 have been proven both repeatable and reproducible 
in laboratory round robin studies.
    CPSC recently reported on a barrier material that it believes is 
effective against smolder and open-flame ignition. We need to obtain 
more information about this product so it too can be tested in a round 
robin to determine if it will be effective with a large number of 
textiles and a large number of configurations. This is essential 
because we are not aware of any other barrier material that can comply 
with the CPSC proposed test method for barriers.
    Both CPSC and Underwriters Laboratories (UL) have shown that 
barriers significantly reduce flammability compared to other strategies 
for reducing flammability. However, in your testimony, you indicated 
several concerns with barriers, particularly increased manufacturing 
costs and impact on ``saleability''.
    Question. How do manufacturers incorporate barriers into their 
furniture?
    Answer. Some commercial applications of furniture are required to 
meet the requirements of California Technical Bulletin 133 (TB-133). 
This standard requires the use of flame-resistant barriers in 
construction and the majority of these barriers utilize flame-retardant 
chemicals. In fact, it is our understanding that the barrier that UL 
used in its video shown at the hearing incorporates a fair amount of 
flame-retardant chemistry. The perceived human and environmental 
concerns with flame-retardant chemistry make furniture manufacturers 
reluctant to incorporate these barriers into residential furniture 
where consumers are exposed to them on a 24/7 basis unlike commercial 
furniture used in the hospitality industry.
    Unlike a mattress that is a single horizontal slab, the various 
geometries and spatial relationships of furniture prevent the 
application of a barrier as a slip on sock or bag. Instead these 
barriers must be incorporated by upholstering the barrier prior to the 
cover fabric therefore doubling the amount of labor typically involved. 
Surveys have shown that this process increases manufacturing costs an 
average of $150 for a chair and $300 for a sofa. This would equate to 
an increase of approximately $300 and $600, respectively, at retail.
    Question. Are there any other technologies manufacturers are 
currently considering to address furniture flammability?
    Answer. The industry has been working to address the issue since 
the 1970s and this effort has resulted in a movement from smolder prone 
components (legacy furniture) to smolder resistant ones (modern 
furniture). This movement has contributed to the dramatic decrease in 
deaths and injuries associated with upholstered furniture fires. We 
continue to explore new component options as the technology evolves.
    Question. You testified that there are no quick fixes to 
upholstered furniture flammability since a variety of materials and 
combinations are needed to satisfy customers' needs and tastes. Do you 
believe that it's likely that consumers are not taking into account 
flammability and the changing nature of furniture materials with regard 
to flammability? If given a choice--being aware of the increased risk 
over legacy materials and the quick ignition time--don't you think that 
might influence consumers' purchases?
    Answer. Keep in mind that the movement away from ``legacy 
materials'' was due to their propensity to ignite when exposed to a 
smolder ignition source. As the data trends indicate this movement has 
undoubtedly saved lives. Some purchasers of new upholstery receive the 
UFAC hangtag which warns them that upholstery may burn rapidly and emit 
toxic gases. A number of consumers have contacted us regarding these 
warnings so we think that there is a good level of awareness that 
furniture will burn. A national standard would include a labeling 
requirement that could be used to further educate consumers as to the 
potential dangers of upholstered furniture flammability.
    Question. Since legacy furniture burns much more slowly, are there 
some parts of the legacy furniture that it might make sense for 
industry to return to manufacturing? If not, why not?
    Answer. The Federal Government's original investigation into 
smoldering ignition found that the materials being used in the so 
called legacy furniture were the most prone to cause smoldering 
ignition when exposed to a lit cigarette. It has taken several years to 
remove these products from the marketplace and the absence of such 
legacy products is one of the reasons that cigarette ignition of 
upholstered furniture has declined over the years. By reintroducing 
these materials, we are concerned that the downward trend would reverse 
and we would see a commensurate increase in the incidents of smoldering 
ignition of upholstered furniture.
    Question. Barriers in between the fabric and the cushion of 
furniture are being considered as an improvement over flame-retardant 
chemical materials. If manufacturers are reluctant to use some of the 
new barriers due to reasons of comfort, are there some other options or 
technologies available? If using a barrier, could more material be used 
alongside it to add comfort?
    Answer. Barriers are used to address the risk of small open-flame 
ignition. As discussed above the risk of this type of fire occurring in 
the home is already extremely small and difficult to address because it 
is often the result of arson or child play. CPSC has found that many of 
the open-flame ignitions are not ``addressable'' within the meaning of 
their statute. Regardless of this fact, industry would embrace barriers 
if they could maintain ``saleability''. This would involve several 
factors including health concerns, comfort, and affordability. Existing 
barrier technology does not meet these criteria. CPSC should move to 
address the primary risk of smolder ignition by adopting ASTM 1353. 
Resources can then be focused on evaluating small open-flame solutions 
to determine their effectiveness and feasibility.

                         CONCLUSION OF HEARING

    Senator Durbin. I want to thank everybody for attending, 
and I hope you got as much out of this hearing as we did.
    Once again, thanks to the Chicago Tribune for leading us in 
this effort.
    [Whereupon, at 4:10 p.m., Tuesday, July 17, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
